<html>
<title> - PROTECTING GIRLS: GLOBAL EFFORTS TO END CHILD MARRIAGE</title>
<body><pre>[Senate Hearing 114-828]
[From the U.S. Government Publishing Office]






                                                        S. Hrg. 114-828

         PROTECTING GIRLS: GLOBAL EFFORTS TO END CHILD MARRIAGE

=======================================================================

                                HEARING


                               BEFORE THE

                        SUBCOMMITTEE ON WESTERN
                       HEMISPHERE, TRANSNATIONAL
                       CRIME, CIVILIAN SECURITY,
                        DEMOCRACY, HUMAN RIGHTS,
                       AND GLOBAL WOMEN'S ISSUES


                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 14, 2016

                               __________

       Printed for the use of the Committee on Foreign Relations




              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




 
                      U.S. GOVERNMENT PUBLISHING OFFICE
                      
39-435 PDF                 WASHINGTON : 2020 

       Available via the World Wide Web: https://www.govinfo.gov

















                COMMITTEE ON FOREIGN RELATIONS         

                BOB CORKER, TENNESSEE, Chairman        
JAMES E. RISCH, Idaho                ROBERT MENENDEZ, New Jersey
MARCO RUBIO, Florida                 BARBARA BOXER, California
RON JOHNSON, Wisconsin               BENJAMIN L. CARDIN, Maryland
JEFF FLAKE, Arizona                  JEANNE SHAHEEN, New Hampshire
CORY GARDNER, Colorado               CHRISTOPHER A. COONS, Delaware
DAVID PERDUE, Georgia                TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
RAND PAUL, Kentucky                  TIM KAINE, Virginia
JOHN BARRASSO, Wyoming               EDWARD J. MARKEY, Massachusetts


                  Todd Womack, Staff Director        
           Jodi B. Herman, Democratic Staff Director        
                    John Dutton, Chief Clerk        



              SUBCOMMITTEE ON WESTERN HEMISPHERE,        
       TRANSNATIONAL CRIME, CIVILIAN SECURITY, DEMOCRACY,        
            HUMAN RIGHTS, AND GLOBAL WOMEN'S ISSUES        

                 MARCO RUBIO, Florida, Chairman        
JEFF FLAKE, Arizona                  BARBARA BOXER, California
CORY GARDNER, Colorado               TOM UDALL, New Mexico
DAVID PERDUE, Georgia                TIM KAINE, Virginia
JOHNNY ISAKSON, Georgia              EDWARD J. MARKEY, Massachusetts

                              (ii)        

  















                            C O N T E N T S

                              ----------                              
                                                                   Page

Hon. Marco Rubio, U.S. Senator From Florida......................     1
Hon. Dick Durbin, U.S. Senator From Illinois.....................     4
Hon. Barbara Boxer, U.S. Senator From California.................     6
Hon. Catherine M. Russell, Ambassador-At-Large, Global Women's 
  Issues, U.S. Department of State, Washington, DC...............     7
    Prepared Statement...........................................     9
Hon. Anne Richard, Assistant Secretary, Bureau of Population 
  Refugees and Migration, U.S. Department of State, Washington, 
  DC.............................................................    14
    Prepared Statement...........................................    17
Suzanne Petroni, Ph.D., Senior Director, Global Health, Youth and 
  Development, International Center for Research on Women, 
  Washington, DC.................................................    28
    Prepared Statement...........................................    30
Lakshmi Sundaram, Executive Director, Girls Not Brides, London, 
  UK.............................................................    32
    Prepared Statement...........................................    34

              Additional Material Submitted for the Record

Responses of Ambassador Cathy Russell to Questions Submitted by 
  Senator Marco Rubio............................................    45
Responses of Assistant Secretary Anne Richard to Questions 
  Submitted by Senator Marco Rubio...............................    54
Responses of Assistant Secretary Anne Richard and Ambassador 
  Cathy 
  Russell to Questions Submitted by Senator Benjamin L. Cardin...    57

                                 (iii)

  

 
                    PROTECTING GIRLS: GLOBAL EFFORTS
                         TO END CHILD MARRIAGE

                              ----------                              


                     WEDNESDAY, SEPTEMBER 14, 2016

        U.S. Senate, Subcommittee on Western Hemisphere, 
            Transnational Crime, Civilian Security, 
            Democracy, Human Rights, and Global Women's 
            Issues, Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:30 a.m. in Room 
SD-419, Dirksen Senate Office Building, Hon. Marco Rubio, 
chairman of the subcommittee, presiding.
    Present: Senators Rubio [presiding], Gardner, and Boxer.
    Also Present: Senator Durbin.

                OPENING STATEMENT OF HON. MARCO
                RUBIO, U.S. SENATOR FROM FLORIDA

    Senator Rubio. Good morning. This hearing of the 
Subcommittee on the Western Hemisphere, Transnational Crimes, 
Civilian Security, Democracy, Human Rights, and Global Women's 
Issues will come to order.
    The title of this hearing is ``Protecting Girls: Global 
Efforts to End Child Marriage.''
    We will have two panels testifying today. The first panel 
will feature the Honorable Catherine Russell, Ambassador-at-
Large for Global Women's Issues at the U.S. Department of 
State, and I want to welcome back Ambassador Russell; and also 
from the Department the Honorable Anne Richard, Assistant 
Secretary for Population Refugees and Migration.
    The second panel will include Ms. Lakshmi Sundaram, the 
Executive Director of Girls Not Brides, a global partnership of 
more than 600 civil society organizations from over 80 
countries; and Dr. Suzanne Petroni, who is the Senior Director 
for Global Health, Youth and Development at the International 
Center for Research on Women.
    Thank you all for being here today.
    I would especially like to recognize the diverse array of 
civil society organizations working tirelessly on this issue, 
many of whom partnered with my staff and Senator Boxer's staff 
to make this hearing possible.
    Child marriage rarely receives the attention it deserves, 
especially given the frequency with which it occurs. There are 
roughly 250 million women alive today who were married before 
the age of 15, and the devastating impact it has on girls and 
sometimes boys is impossible to overstate. It perpetuates 
poverty, it has lasting maternal and infant health 
ramifications, and it often contributes to violence. It is not 
limited just to distant lands. It happens even in our own 
hemisphere. Child marriage cuts across countries, regions, and 
cultures.
    In our own hemisphere, Brazil and Mexico are fourth and 
ninth, respectively, in the world in terms of absolute numbers 
for child brides. India ranks first in the world, followed by 
Bangladesh and Nigeria, according to data from the Council on 
Foreign Relations.
    In many countries, child marriage is a systematic problem 
inextricably linked to other developmental issues which this 
committee has focused on--for example, girls' education, which 
I chaired a hearing on in June. Leaving school early makes 
girls more vulnerable to child marriage, and marrying young 
often prevents girls from furthering their education. I hope we 
can further explore the nexus between education and child 
marriage during the course of today's discussion.
    Cultural traditions, poverty and gender inequality also 
play a role. Given the manifold contributing factors, there is 
no single solution. Legislative and legal fixes, while 
important, will not alone provide a solution. Consider, for 
example, that a Human Rights Watch report released this month 
found that one in three girls in Nepal are married before they 
reach the age of 18 despite the fact the legal age for marriage 
is 20. But the absence of simple answers must not lull us into 
complacency. The stakes are too high.
    In addition to the factors I have just described, there are 
contexts where insecurity, instability, violence and war have 
exacerbated this problem. This reality prompted us to invite 
Assistant Secretary Richard to contribute to today's hearing, 
and I am particularly interested in better understanding how 
refugee and otherwise displaced communities impact child 
marriage.
    Early assessments are cause for alarm. The Syrian crisis 
has been described as the single biggest humanitarian and 
refugee crisis of our time. Approximately 7.6 million Syrians 
are forcibly displaced, including many within Syria. More than 
4.8 million have fled to neighboring countries like Jordan, 
where civil society groups reported growing incidents of child 
marriage. A May 2013 piece in the Atlantic featured the story 
of a 14-year-old Syrian refugee, Maya, who had just recently 
been engaged to a wealthy Lebanese man, age 45. The piece 
quotes Maya's mother as saying, quote, ``I am marrying my 
daughter so they can be safe and we can be secure.'' Maya 
herself, understandably inconsolable, laments--and this is her 
quote--``The man I am marrying tells me I am the one who 
protects you. I am the one who feeds you. You have to do what I 
say or I will throw you in the street.'' She says, ``I am 
disgusted by him, but I am doing this for my family so we can 
live in security,'' and she continued by saying, ``He's right, 
he is the man who feeds us and protects us, and I would rather 
be violated by one man than by every man in town.''
    There are many reports of wealthy men from surrounding Gulf 
countries further exploiting vulnerable refugee populations and 
essentially out there shopping for child brides, enticing 
families like Maya's with promises of material security and 
physical protection. These sobering realities were reflected in 
the findings of a recent Interfaith Humanitarian Assessment 
Mission led by the Lutheran Immigration and Refugee Service, 
which observed that more underage Syrian girls are being 
married, and at younger ages. Some of these early marriages are 
entered into for economic reasons. It is one less mouth to feed 
for families living in dire poverty.
    However, the group issued a report which found that other 
child marriages are intended to protect the girl from sexual 
abuse directed towards unattached girls or to provide an 
alternative to idleness resulting from not being in school. In 
some cases, early marriage is also occurring to assist men in 
gaining access to countries whose borders are, for the most 
part, closed to single men. A September 2016 story in a 
prominent German newspaper found that government officials have 
reportedly encountered hundreds of married minors among the 
refugee population. This phenomenon is not limited to Germany. 
Similar reports have now emerged from Denmark and Norway. 
According to one news report, at least 61 minors were married 
when they sought asylum in Norway last year. The youngest was 
an 11-year-old girl.
    Child and forced marriage is also being employed as a 
weapon of war by groups like the Islamic State and Boko Haram. 
Yazidi girls have reported being captured, separated from their 
families, and sold into sexual slavery. One victim recounted 
being taken to a wedding hall with dozens of other girls and 
women and told by ISIS fighters, ``Forget about your relatives. 
From now on, you will marry us. You will bear our children.''
    In some contexts, girls who are also religious minorities 
are especially susceptible to this abuse. This is true in 
Pakistan, which is the country with the sixth largest number of 
child marriages in terms of absolute numbers. Civil society 
organizations, especially those working in the area of 
religious freedom, note that forced marriage and conversion are 
prevalent among Christian and Hindu girls, particularly in 
Punjab and Sindh districts. Similarly in Egypt, there have been 
reports for many years of Coptic Christian women and girls of 
being abducted and forced to marry and convert to Islam.
    While today's hearing will focus on global dimensions of 
this issue, a domestic component comes into play when a U.S. 
citizen who is a minor is taken to another country, typically 
their parents' country of origin, and compelled into a forced 
marriage. It is my understanding that civil society 
organizations have for several years now engaged the State 
Department, particularly the Office of Overseas Citizen 
Services, to propose ways to improve protections and to support 
U.S. victims. However, it is unclear to what extent the 
Department has taken action. I hope we can address that today.
    As a father of four, with two school-age girls, these 
statistics are particularly sobering as each number represents 
a girl denied the opportunity to live up to her God-given 
potential. It represents a bride whose wedding day is not a 
celebration but rather a memorial as she marks what could only 
be described as the death of her childhood.
    I look forward to hearing from our Administration witnesses 
about the scope of the U.S. Government's work in this arena, 
about trends, about areas where we are doing things right, and 
areas where there is room for improvement. I am also keen to 
hear from our panel of private witnesses. You have experience 
in the field, and that will contribute greatly to what can too 
easily become an abstract policy discussion.
    I would now like to recognize our ranking member and ask if 
she would like to recognize--do you want to go first or have 
Senator Durbin, who I know ----
    Senator Boxer. I am happy to yield to my colleague because 
I know he has things on his agenda.
    Senator Rubio. Senator Durbin, I appreciate you taking the 
time to come here. You have taken a leadership role on this 
issue for many years now, and you are more than welcome, 
obviously, to stay for the duration of the hearing, but we 
understand that you may be leaving after your remarks because I 
know you have a full schedule ahead of you as well. But thank 
you so much for your work and for being here.

                STATEMENT OF HON. DICK DURBIN, 
                   U.S. SENATOR FROM ILLINOIS

    Senator Durbin. Senator Rubio and my friend Senator Boxer, 
and my colleague Senator Gardner, I want to sincerely thank you 
for this hearing, really. I do not know how often we have had 
hearings on this subject. We should have many, and the fact 
that you have taken time from your schedule and made it a 
priority is very, very important.
    I was thinking about this on the way over here, and there 
is something troubling about the title ``child marriage,'' 
because when you think about it, marriage, by conventional 
wisdom and human experience, is a consensual agreement. It is a 
social contract freely entered into. In fact, it is one of the 
few contracts we enter into that we do publicly: Do you take 
this person to be your wife? Do you take this person to be your 
husband?
    But what we are discussing today is not consensual. It 
cannot be. One of the parties is a child, legally incapable of 
making a binding, legal agreement. And it is not free. It is 
the product of coercion. We know that.
    This publication, which I hope you will get a chance to see 
that I was just handed, on page 18, from our State Department 
on the subject, in one photograph it shows the story as clearly 
as possible: ``Here in Yemen, two grown men with 8-year-old 
brides.'' That is not marriage. What we are discussing is no 
more marriage than rape is love, or slavery is an employment 
contract. It is not. I wish we had a better word. We tend to 
give this a legal definition, a legal status which it does not 
deserve.
    Worldwide, more than 700 million women alive today and more 
than 150 million men were married as children. Many were girls 
married before the age of 15, some as young as 7 years of age. 
An average 15 million such girls are married annually. We know 
what happens to these girls. They are more likely to not go to 
school or drop out, experience domestic violence, face great 
risk of sexually transmitted disease, and experience 
complications and even death in childbirth. In fact, pregnancy 
is consistently among the leading cause of death for girls age 
15 to 19.
    Now, it has been in decline in recent years, but girls 
living in developing countries or in poor households are almost 
twice as likely to marry before age 18. Progress is not 
happening fast enough.
    In 2006, 10 years ago, I introduced the bipartisan 
International Protecting Girls By Preventing Child Marriage 
Act, which set out to reduce this harmful practice. I believe, 
and I think many here agree, child marriage poses a direct 
threat to investments in education, HIV/AIDS prevention, 
poverty reduction and, most critically, the basic human rights 
and safety of girls around the world.
    Seven years later my bill passed--that is, by Senate 
standards, a pretty quick response--as part of the 2013 
Violence Against Women Reauthorization Act. It required the 
Secretary of State to establish and implement a multi-year, 
multi-sectorial strategy to prevent child marriage, making it a 
clear policy of the government. I am told this publication is 
part of the response.
    Let me thank Senators Boxer, Cardin, and Isakson for being 
original co-sponsors of the legislation, and for the support of 
Senator Lindsay Graham and Pat Leahy for including funding in 
the Foreign Operations Appropriations bills.
    In the years since the legislation passed, our government 
has made a commitment to ending this practice. Last fall USAID 
published its Child Early and Forced Marriage Resource Guide, 
building off its 2012 Vision of Action. The annual State 
Department Country Reports on Human Rights now include data on 
child marriage, as it should.
    These efforts are changing lives. In Ethiopia, USAID-
supported community-based programs have helped educate girls 
and women on their rights and build skills for becoming peer 
educators. In Fiscal Year 2013 alone, over 1,000 early 
marriages were deferred or cancelled just in Ethiopia as a 
result of this work. In Bangladesh, USAID-funded programs have 
helped promote girl-friendly educational environments.
    But in today's world, girls continue to face the sustained 
practice of early forced marriage, not just because of the 
ongoing cycle of poverty but because, as you mentioned, Mr. 
Chairman, of humanitarian crises and terrorism.
    We need to do more. We must continue to focus in areas 
where this practice is most prevalent. We need to utilize a 
government-wide approach, and I am going to do what I can to 
help.
    I want to thank you again, Mr. Chairman, as well as Senator 
Boxer, Senator Markey, who is not here at the moment, as well 
as Senator Gardner. I am happy that several of you have joined 
me in co-sponsoring the bipartisan Education for All Act, which 
aligns with the goal of reducing child marriage.
    This measure--incidentally, I commend to your attention 
that Congresswoman Nita Lowey has been a great champion and 
partner on this bill. She passed it in the House of 
Representatives. It is now before your committee.
    I am going to make a call to the chairman today and ask him 
to make this a priority. We do not have much time left this 
year, but this I think can be something that we work on. 
Education is a key to lifting the lives of girls and thwarting 
the route of terrorism.
    I look forward to all the progress we can make together on 
this issue, and thanks for this hearing.
    Senator Rubio. Thank you, Senator, for being here.
    The ranking member.

               STATEMENT OF HON. BARBARA BOXER, 
                  U.S. SENATOR FROM CALIFORNIA

    Senator Boxer. Thank you.
    Senator Durbin, thank you so much. I know you as a 
colleague, as a friend for so many years, more than we both 
care to admit. That is how long our family friendship goes 
back. You have a heart, and you have brought it to so many 
issues, including this one.
    I want to thank the chairman for this hearing. And before 
you leave, I just want to say two quick things. First of all, 
when you look at a world in which there are child soldiers, in 
which there are child prostitutes, in which there is child 
marriage, there is something wrong. As I wind down my days in 
the Senate but not my days in this world, hopefully not, people 
say what are you most proud of, and you try to come up--there 
are a lot of things that we do that we really are pleased that 
we could accomplish.
    But one of them is the day that I talked to then-chairman 
John Kerry about setting up a subcommittee that focused on 
women's issues, because there was never any committee here, 
subcommittee, that looked at global women's issues. And he said 
yes, and our ranking member said yes, and Senator Corker kept 
the subcommittee intact. This gives us a platform to talk about 
these things.
    So before you have to leave, and I know you have to go to 
the floor, I want to thank you for your leadership on this. All 
right.
    Well, Mr. Chairman, I really again want to thank you for 
this hearing. Child marriage is more than a human rights 
concern. It is a violation of an individual's freedom. I think 
Senator Durbin made an excellent point. Marriage has been an 
institution that has been celebrated throughout the world, and 
here we have it being used to exploit and destroy, frankly, a 
little girl's life, and her life forever.
    You know, it is an epidemic of global magnitude. It 
perpetuates cycles of poverty and violence and inequality, and 
it affects economies, public health and security. So making our 
case, we not only can make it on the level of the cruelty of it 
but also the impacts of it on whole economies.
    The statistics are staggering. Roughly one of every three 
girls in the developing world is married before the age of 18. 
That is about 15 million girls a year. That amounts to 41,000 
girls every single day, and the consequences are clear for 
global health.
    For instance, girls who give birth before the age of 15 are 
five times more likely to die in childbirth than women in their 
early 20s. So child marriage is killing girls. Let us just say 
it like it is. Infants born of child brides are 50 percent more 
likely to be stillborn or die within the first few weeks of 
life. Child brides are at a much higher risk of contracting 
HIV/AIDS, and the economic consequences are equally clear. 
Girls that are forced to marry are more likely to be forced out 
of school. A single year of primary school can increase a 
woman's wages later in life up to 20 percent, and secondary 
school can increase a woman's future wages by up to 25 percent. 
This means that she has a chance to live a life.
    And child marriage is closely linked with violence and 
instability in households and at a national level. Girls who 
marry before 18 are far more likely to experience physical and 
sexual abuse than their unmarried peers, and they are more 
likely to believe that a man is justified in abusing his wife 
than women who marry later. So they are in the situation, 
taking this abuse, just taking it, just taking it.
    The vast majority of the 25 countries that have the highest 
rates of child marriage are also classified as fragile states, 
extremely prone to war or natural disasters. By exacerbating 
poverty, illiteracy and poor health, child marriage contributes 
to a country's insecurity over the long term.
    So given the breadth of the problem, its severe 
consequences, it is clear we can and have to do more, and I 
hope that we can all--Senator Gardner, you, and Senator Rubio, 
myself and others--can speak with Senator Corker and Senator 
Cardin. Maybe we can take that bill off the desk and get it 
done before we leave here.
    But I do want to thank so much all of our witnesses, both 
from our State Department and also our non-profits, our 
witnesses, for adding some light on a very dark subject. What I 
was going to say is I have a bill on the floor with Senator 
Inhofe, so I am going to stay here as long as I possibly can 
before I get called down to the floor. But my heart is here, 
and this is an issue I will continue to work on whether I am 
here or I am not here.
    With that, I yield back.
    Senator Rubio. Thank you.
    So we are going to begin with our first panel, Ambassador 
Cathy Russell and Assistant Secretary Richard for the State 
Department. Thank you for being here. Thank you for your 
testimony.
    Ambassador Russell.

STATEMENT OF THE HONORABLE CATHERINE M. RUSSELL, AMBASSADOR-AT-
    LARGE, GLOBAL WOMEN'S ISSUES, U.S. DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Ambassador Russell. Thank you very much, Mr. Chairman. It 
is nice to be back before this committee. Senator Boxer, thank 
you so much for your continued leadership on this. Senator 
Gardner, it is nice to see you as well.
    Every 60 seconds, an average of 27 girls under the age of 
18 are married around the world. That means that over the 
course of this hearing alone, 400 girls will get married 
someplace in the world. As child brides and likely child 
mothers, these girls often drop out of school, their economic 
opportunities are limited, and they have an increased risk, as 
Senator Boxer just said, of very serious health concerns from 
violence and sexually transmitted disease, especially HIV/AIDS.
    This does not bode well for U.S. foreign policy objectives. 
The United States is working so hard to increase the 
participation of women across the board, including in the 
formal workforce, because we know that women's full 
participation is good for women, it is also good for their 
families, and it is really important for their countries and 
the stability of their countries.
    But child marriage is a major barrier to that 
participation. It strips girls of their ability to learn and 
contribute to their societies and their economies. In fact, 
this issue does the exact opposite of what we would like to see 
around the world. Married girls are less likely to send their 
own children to school and to get them immunized. That means 
that instead of advancing prosperity, this practice fuels 
cycles of poverty that we are trying to address.
    When you consider that child marriage is a reality for more 
than 700 million women and girls alive today, it is clear this 
issue matters to policymakers, to development practitioners, 
and to foreign policy experts alike. In short, if our goal is 
to promote peace, security, and prosperity in countries around 
the world by empowering women, then ending child marriage is an 
absolute imperative.
    In order for us to tackle this problem, it is important to 
understand why it happens in the first place. Traditional 
gender roles, poverty, violence and insecurity all fuel this 
practice, and each of these drivers, whether it is economic, 
cultural, or social, can be made worse by state fragility, 
conflict, and humanitarian emergencies. As my colleague, 
Assistant Secretary Richard, will go into this in a little bit 
more detail, I would like to underline the point that the 
problem of child marriage is often exacerbated by armed 
conflict and instability.
    In conflict settings, families may view marriage as a way 
to keep their daughter safe as in the example, Mr. Chairman, 
that you talked about, or to lessen economic distress, and we 
see that violent actors, including rebel or insurgent groups, 
can force women and girls into marriage. For terrorist groups 
like Da'esh and Boko Haram, child marriage is a depraved 
tactic. They use it to terrorize and control entire populations 
and to recruit new fighters.
    Reports indicate that Da'esh has abducted more than 3,000 
women and girls, including those from Iraq's religious 
community of Yazidis and other minority groups. Girls as young 
as 12 or 13 have been forced to marry violent extremists or 
sold to the highest bidder, sometimes repeatedly, like cattle 
at an auction. And in Nigeria, more than 200 schoolgirls 
kidnapped by Boko Haram in Chibok are still missing.
    Which brings us to the question of how we can end this 
harmful practice once and for all. The fact is, there is no 
single driver of child marriage, and that means there is no 
single solution, no silver bullet that can address this issue 
once and for all. It is why the United States takes a holistic 
approach to address the range of challenges that influence this 
issue, from health and safety to education and economic 
opportunity, to the rights of women and girls around the world.
    The policy foundation of this work is strong. Child 
marriage is addressed in the three interagency policies that we 
can talk about today, and that includes the first-ever strategy 
on adolescent girls that Senator Durbin referred to earlier and 
that we discussed in the previous hearing. That strategy was 
made possible by the strong support of civil society and by 
members of Congress, and we are very proud that other agencies, 
including USAID, the Peace Corps, Millennium Challenge 
Corporation, as well as PEPFAR, are an important part of this 
effort.
    These agencies are also part of the Let Girls Learn 
initiative, because while there is no simple answer, we do know 
and we believe strongly that the single most important thing we 
can do is keep girls in quality education for as long as 
possible. Under this initiative, President Obama launched a 
Challenge Fund to design new holistic programs for adolescent 
girls. These programs will be created, funded, tested and 
implemented by the USAID and the State Department, in 
partnership with a full spectrum of stakeholders in select 
focus countries. Again, I would like to thank members of the 
committee for their support of this effort.
    We are starting in Malawi and Tanzania, and the other day 
the President announced that we would also take this approach 
in Nepal and Laos. This initiative is an opportunity to bring 
the full weight of the U.S. Government to bear on the issue of 
adolescent girls and to do it in a way that is smart, 
comprehensive, and coordinated.
    But I do want to emphasize that our efforts are also 
community focused, because we will not adequately address this 
challenge without partnering on the local level with political 
and tribal leaders, families and, most importantly, the girls 
themselves.
    Earlier this year I met a young filmmaker named Tinda 
Daniel from Ethiopia, which is a country with one of the 
highest rates of child marriage in the world. Tinda created an 
animated series that shows strong men in respectful 
relationships with women. She is using art to combat gender-
based violence, and she is not alone. She is part of a growing 
movement of young people who are rewriting their own story of 
their generation. They are working so that young men are seen 
as more than perpetrators of violence, and young women are seen 
as more than victims.
    That is the kind of future we can create when everyone, 
girls and boys, men and women, have the freedom, the rights, 
and the tools they need to reach their full potential. The 
State Department is committed to making this a reality for 
girls around the world because we know that when these girls 
are empowered, their communities are safer, their economies are 
stronger, and their countries are more likely to reach their 
full potential.
    So thank you again very much for your leadership on this 
issue. It is critical to our efforts, and we really very much 
appreciate it and look forward to the conversation this 
morning.
    [The prepared statement of Ambassador Russell follows:]

            Prepared Statement of Hon. Catherine M. Russell

    Good morning Chairman Rubio, Ranking Member Boxer, Members of the 
Subcommittee. Thank you for inviting me to testify today on this 
critical issue of child, early and forced marriage. It is a pleasure to 
be here with you again after our last session in June on girls 
education globally, and it is an honor to be asked to speak on an issue 
that is central to our efforts to empower women globally.
                     scale and scope of the problem
    Child, early and forced marriage (CEFM) is a widespread, global 
phenomenon, with one in three girls worldwide married before the age of 
18, one in nine married before the age of 15, and some girls married as 
young as 8- or 9-years old. Child, early and forced marriage 
disproportionately affects girls: approximately 156 million men 
currently alive were married before the age of 18, as compared to 
approximately 720 million women--a figure equivalent to 10 percent of 
the world's population, with an additional 15 million married each 
year. Girls are also more likely than boys to be married to 
significantly older spouses--especially in marriages involving girls 
under 15 and in polygynous marriages where an adolescent girl may be a 
second or third wife.
    The persistence and prevalence of this practice is one of the key 
human rights, security, and development crises of our time because the 
systemic impact of child, early and forced marriage is dramatic and far 
reaching. Through the Sustainable Development Goals, over 190 
governments share the view that ending harmful practices, such as 
child, early and forced marriage and female genital mutilation and 
cutting, is essential for advancing gender equality globally.
                              consequences
    CEFM forces a girl into adulthood and motherhood before she is 
physically and mentally mature and before she completes her education, 
limiting her future options, depriving her of the chance to reach her 
full potential, and preventing her from contributing fully to her 
family and community.
Reduced Educational Attainment
    In almost every context where it occurs, CEFM has a strong negative 
correlation with educational attainment and political participation. In 
line with social norms portraying marriage and school attendance as 
incompatible, parents may pressure girls to discontinue their 
educations. At the same time, pregnancy and expected domestic 
responsibilities also present formidable challenges to pursuing an 
education. Schools may have policies that dictate that pregnant girls 
or young mothers be expelled, and even absent such policies, pregnant 
girls and mothers may face stigma and bullying by peers and teachers 
that cause them to drop out. Child brides not only face difficulty 
completing secondary school--they may also have trouble making the 
transition to secondary school, particularly if they enrolled in 
primary education late. In some areas, girls reach the median age of 
marriage in their society before they have even finished primary 
school.
Risks to Health and Wellness
    CEFM has devastating health consequences as married adolescents are 
more likely to experience psychological, physical and sexual violence 
and exposure to sexually transmitted illnesses. Approximately 16 
million adolescent girls aged 15-19 years old give birth each year, 
comprising about 11 percent of births globally. Early pregnancy and 
childbirth have severe consequences for adolescent girls as compared to 
young women, including an increased risk of miscarriage and 
complications during labor, obstetric fistula, and death. Despite 
progress in overall rates around the world, maternal mortality remains 
a leading cause of death among girls aged 15-19, taking the lives of 
nearly 70,000 girls each year. Girls under 15 are five times more 
likely to die in childbirth than adult women.
    Research in sub-Saharan Africa has shown that married girls have a 
50 percent higher rate of HIV infection as compared to their unmarried, 
sexually active peers. Overall, sub-Saharan adolescent girls are two to 
six times more likely than adolescent boys to be HIV positive, because 
they are so often married to older, more sexually experienced men. 
Additionally, adolescent girls often lack access to healthcare or 
health information when they are married at an early age and become 
socially isolated within their husbands' households.
    All of these risks--abuse, HIV, early and frequent pregnancy, 
poverty, and isolation--may be intensified when there is a large age 
difference between a girl and her husband, a situation that is most 
common in countries with high rates of early marriage. Since older men 
are more likely to have had a number of sexual partners and to be HIV-
positive, marrying a significantly older husband dramatically increases 
a girls' risk of contracting HIV and other sexually transmitted 
diseases.
Reduced Economic Potential
    Early marriage locks a girl into traditional gender roles that 
limit development and access to a basic education, opportunity for 
employment in the formal economy, or other basic foundations for full 
citizenship. Child, early and forced marriage undermines economic 
productivity, perpetuate health risks for girls, and threaten 
sustainable growth and development. It hijacks a girl's agency to 
decide her future and hinder individual growth and development while 
systematically holding her children back as well. The children of young 
mothers have higher rates of infant mortality and malnutrition and are 
less likely to be educated than children born to mothers older than 18. 
This is a costly and tragic cycle.
                            drivers of cefm
    While child, early and forced marriages can take place for a myriad 
of different reasons in different settings, the core drivers are 
usually economic and social, and often perpetuate, gender inequality. 
The practices can be rooted in systems that hold women and girls in 
subordinate roles and accord them less value than men and boys. Under 
these conditions, parents see limited roles for girls and little 
incentive to invest in their education.
Poverty
    Child, early and forced marriage is rooted in poverty, 
displacement, or societal pressures. It is both a driver of and symptom 
of poverty and limited economic opportunities for women and girls. More 
than half of girls from the poorest families in the developing world 
are married as children. Lack of economic opportunity for women, 
ownership over assets, and economic mobility makes marriage the 
perceived safest choice for girls and their families. In communities 
where a dowry or `bride price' is paid, it is often welcome income for 
poor families; in those where the bride's family pays the groom a 
dowry, they often have to pay less money if the bride is young and 
uneducated.
    In Jordan, I met Syrian refugee women who simply could not pay 
their rent or feed their families. One woman told me that her 15-year-
old daughter was receiving marriage proposals. She was refusing, but 
the pressure to relieve some of the family's burden was palpable. But 
the girls are not the only victims. Entire countries lose out on the 
productive potential of girls who are subjected to early and forced 
marriage, which weakens their economic output, cultural creativity, and 
political stability. Across that region, we have heard countless 
stories of girls married to ease pressure on strained family finances.
State Fragility and Conflict
    State fragility, conflict, and humanitarian emergencies exacerbate 
drivers of CEFM by aggravating economic insecurity, eroding social 
safety networks, and limiting girls' freedom of movement and access to 
educational and economic opportunities. In such contexts, families may 
perceive marriage as a means to increase a daughter's safety, 
particularly from violent extremist groups and other combatants who 
often force girls into marriage; however, girls married under these 
circumstances are more vulnerable to violence from husbands and 
families and are unlikely to remain in school. Forced marriages are a 
pervasive feature of armed conflicts around the world, perpetrated by 
violent actors, including rebel or insurgent groups. Abduction and 
forcible marriage is a common tactic among non-state actors, often 
leading to sexual slavery and prolonged forced labor.
    It is important that we understand how conflict exacerbates forced 
marriages. Last year in Jordan, I met Huda, a Sunni Muslim woman from 
Mosul. As a widow, Huda felt she had increasingly fewer options to save 
her sons and daughter from Da'esh's clutches. She decided to flee her 
home, selling everything to fund the dangerous trip from Iraq to Amman, 
Jordan. Huda is one of the many Iraqi women who told me how Da'esh 
makes life unlivable for women and girls. The situation is especially 
grim for minorities. Reports indicate that Da'esh has abducted more 
than three thousand women and girls, including those from Iraq's 
religious community of Yezidis and other minority groups. Girls as 
young as 12 or 13 have been forced to marry violent extremists or sold 
to the highest bidder--like cattle at an auction. These are young 
girls, mothers, and sisters facing imminent rape, trafficking, and 
forced marriage. Through emergency assistance programs, we have been 
able to help provide medical, psycho-social, and livelihood support for 
over 150 women and girls who survived Da'esh captivity. However, there 
are still thousands of girls that are held captive and will need 
assistance.
    It is important that we speak about Huda, and her Iraqi sisters. We 
must not accept such stories as casualties of a war thousands of miles 
away and beyond our consciousness. In the situation I described, child, 
early and forced marriage is, plain and simple, an aspect of terror, a 
horrific violation of human rights with a lifetime of consequences. It 
is a tactic of terrorist groups like Da'esh and Boko Haram to control 
entire populations and to recruit new fighters. And it must be stopped. 
As Secretary of State John Kerry and others have said, preventing this 
kind of brutalization of women and girls in conflict zones preserves 
our common humanity. It also protects the national security interests 
of the United States and our allies. We must come together to ensure we 
end it.
                         addressing the problem
    Women and girls around the world are leading the charge in their 
communities to take a stand to change the harmful practice of child, 
early and forced marriage. Recently, I joined Secretary Kerry in 
Nigeria. We spent a morning with a group of adolescent girls benefiting 
from STEM programs and the efforts of organizations devoted to 
empowering adolescent girls and changing their families' perspectives 
about the value of girls' education. In Nigeria, I met Amina. She is 
one of those rare girls who completed 12 years of schooling. She told 
me that girls drop out of school ``after a certain age to move to their 
husband's house.'' She told me that girls are generally married by the 
age of 13, and they usually immediately start having children. Amina's 
life has been different because her parents prioritized her education, 
rather than her marriage.
    Fortunately, we are seeing effective efforts to confront and end 
this practice around the world in even the most remote villages where 
early and forced marriages are the norm. One such leader is Memory 
Banda, a young woman from Malawi. In Memory's community, it's not 
unusual for girls to get married and have children at very young ages. 
But Memory refused to get married. Instead, she organized literacy 
classes for other girls. She got involved in local advocacy. And she 
went to college. Her story is more than inspiring. It's also a reminder 
that girls around the world are not asking for our pity. They are 
asking for our partnership. And when we partner with them, we will be 
successful. Memory is proof of that: thanks to her efforts, and the 
work of other activists in Malawi, Malawi has adopted laws against 
early marriage.
    That's not to say that our work in Malawi is done. While 
commendable, Malawi, like many other similarly-situated countries, has 
difficulty enforcing these laws. As of 2010, legal prohibitions against 
child, early and forced marriage were in effect in 158 countries, and 
146 of those granted exemptions in the case of parental consent. In 
many countries, existing laws are weakly enforced, especially when they 
conflict with local customs. For this reason, I was impressed by the 
efforts of Malawi's ``child marriage terminator'' senior chief Theresa 
Kachindamoto. Chief Kachindamoto has banned CEFM and told the chiefs 
under her that they must also stop all sexual initiation rituals, like 
sexual cleansings, or she will dismiss them. During her tenure, she has 
annulled some 850 marriages. Her efforts are testament to the fact that 
ending CEFM requires a multi-faceted approach.
                u.s. government efforts to address cefm
    The United States is taking a whole-of-government approach to 
addressing CEFM and has undertaken several key actions to combat this 
practice. The United States has co-sponsored resolutions on ending CEFM 
at the U.N. Human Rights Council and in the U.N. General Assembly's 
Third Committee. In 2012, the State Department began including 
reporting on the minimum age of marriage and the rate of marriage under 
the age of 18 in its annual Country Reports on Human Rights Practices 
and adopted new guidance and training for consular officers to assist 
U.S. citizens living abroad who are forced into marriages. That same 
year, USAID released Ending Child Marriage and Meeting the Needs of 
Married Children: The USAID Vision for Action, which set goals to 
mobilize communities to shift norms that perpetuate CEFM, address the 
unique needs of married children, and cultivate partnerships with host 
governments and the private sector.
    The U.S. Government addresses child, early and forced marriage 
through three core interagency policies.

  <bullet> The U.S. National Action Plan on Women, Peace, and Security 
        (2011) commits the USG to strengthen efforts to prevent and 
        protect women and children from harm, exploitation, 
        discrimination, and abuse, including sexual and gender-based 
        violence and trafficking in persons. By ensuring that women's 
        perspectives and considerations of gender dynamics are woven 
        into the DNA of how the United States approaches peace 
        processes, conflict prevention, the protection of civilians, 
        and humanitarian assistance, the National Action Plan affirms 
        that matters of gender equality are fundamental to our national 
        security interests. Importantly, the Plan recognizes that the 
        protection and empowerment of girls is part of a comprehensive 
        approach to preventing and responding to conflict.
  <bullet> The U.S. Strategy to Prevent and Response to Gender-based 
        Violence Globally (2012) identifies CEFM as a form of gender-
        based violence and emphasizes the need for increased 
        programming to address the practice in countries where it is 
        most prevalent. The strategy also calls on U.S. agencies to 
        address root causes of violence as a means to raising the value 
        of girls while developing best practices, programs, and 
        policies.
  <bullet> To address the range of challenges facing adolescent girls, 
        Secretary Kerry launched the interagency U.S. Global Strategy 
        to Empower Adolescent Girls in March 2014. Bringing together 
        the efforts of the Department of State, USAID, the Peace Corps 
        and The Millennium Challenge Corporation (MMC), the goal of the 
        strategy is to ensure adolescent girls are educated, healthy, 
        socially and economically empowered, and free from violence and 
        discrimination. The United States is the first country in the 
        world to develop a strategy focused on the protection and 
        advancement of adolescent girls globally, and addressing child, 
        early, and forced marriage will be a central focus of U.S. 
        government efforts to implement this strategy. The Department 
        of State has prioritized addressing child, early and forced 
        marriage as one of the three key objectives specified in its 
        implementation plan.
                          interagency programs
    These policies are being implemented through a range of initiatives 
and programs. In particular, Let Girls Learn--a presidential initiative 
championed by the First Lady--is a central part of the United States' 
implementation of the U.S. Global Strategy to Empower Adolescent Girls. 
In July 2015, President Obama announced the Let Girls Learn Challenge 
Fund to design new, holistic programs that address the range of 
challenges preventing adolescent girls from attaining a quality 
education that empowers them to reach their full potential.
    Malawi and Tanzania were selected in 2015 as the first two focus 
countries under the Let Girls Learn Challenge Fund. In these countries, 
USAID and the Department of State are working with an array of USG 
agencies, multilateral and bilateral partners, and civil society and 
the private sector to co-create, co-fund, pilot, and implement 
innovative programs through a multi-sectoral approach. Nepal and Laos 
were also just recently announced as additional countries for the USG 
to engage with as well.
                      department of state programs
    While the U.S. Government has many programs that address child, 
early and forced marriage through economic empowerment, access to 
health, educational programs and legal reform, the Department of State 
also has programs aimed at understanding and responding to child, early 
and forced marriage.

  <bullet> In March 2016, Secretary Kerry announced $7 million in 
        programming to empower adolescent girls in Afghanistan, where 
        the Department of State will fund efforts to change perceptions 
        about child, early and forced marriage at the district and 
        community level through grants for girls to go to school and 
        support for counseling, networks for girls, and training on 
        life and vocational skills.
  <bullet> Through the Global Women Peace and Security Initiative, the 
        Gender Based Violence Initiative, and the ``Voices Against 
        Violence'' global program, the Department provides emergency 
        assistance to support survivors of extreme forms of GBV and 
        harmful traditional practices. We have been able to provide 
        funds for girls who were threatened with forced marriage, 
        through small, short-term emergency assistance funding for 
        expenses including medical expenses, psychosocial support or 
        counseling, emergency shelter or other safe accommodation, 
        relocation expenses, livelihood and dependent support, and 
        legal assistance. The program is meant to provide assistance to 
        those in urgent situations with little to no alternatives for 
        support.
  <bullet> Through our Voices Against Violence program, we will engage 
        with actors who have influence over the community's attitudes 
        and behavior, this includes judges from civil and religious 
        courts, and grassroots organizations on the ground to educate 
        families. By working with local experts, advocates, and 
        stakeholders, we will create meaningful, long-term changes.
  <bullet> The Department is also supporting a 3-year, $5 million 
        collaborative effort with USAID and UNICEF aimed at reducing 
        the prevalence of school-related gender-based violence and 
        establishing child and adolescent-friendly procedures to 
        respond to incidents of GBV when they occur. Through training, 
        mapping of services for GBV victims, advocacy and awareness 
        raising activities, school actors are gaining knowledge of the 
        impact of GBV, including on early marriage and its legal and 
        social consequences. This project is developing a systematic 
        reporting and referral mechanism to monitor and respond to 
        incidents of school-related GBV.
USAID Programs
    USAID invests in both research to expand our knowledge on effective 
interventions to prevent CEFM and programs to address the needs of 
married adolescents in regions where the practice is most prevalent. 
Guided by rigorous project evaluations and the latest research 
findings, USAID's interventions include promoting girls' education, 
supporting married children, strengthening the enactment and 
enforcement of laws and policies that delay marriage, and building 
community outreach efforts to shift attitudes that perpetuate the 
practice. In FY 2015, USAID doubled its investment to prevent CEFM and 
support married children, building on decades of engagement on these 
issues, including addressing the needs of more than 50 million girls 
and boys who are already married but have limited access to education, 
health services and economic opportunities.

  <bullet> The USAID Vision for Action to Ending Child Marriage & 
        Meeting the Needs of Married Children provided health care and 
        access to education to married children and adolescents and 
        educated students, teachers, parents, and community leaders, 
        through programs including the Safe Schools program in Nepal, 
        focusing on the importance of delaying marriage and the harmful 
        effects of CEFM.
  <bullet> USAID also conducted research to study the effectiveness of 
        programs to delay child, early, and forced marriage in 
        Ethiopia, Tanzania, and Burkina Faso. Based on the findings of 
        this research, the programs were later expanded to additional 
        high-prevalence regions. Data on the impact of programs in 
        Tanzania and Ethiopia data was shared through a global 
        dissemination of results (available here: http://
        www.popcouncil.org/research/building-an-evidence-base-to-delay-
        marriage-in-sub-saharan-africa) in the fall of 2015.
  <bullet> In Bangladesh, the Protecting Human Rights program supports 
        the development and momentum on amendments from the Ministry of 
        Women and Child Affairs (MOWCA). A divisional level workshop on 
        child marriage was held and one immediate outcome was the 
        announcement of an annual national day on prevention of child 
        marriage, to be observed every 29th of September in Bangladesh.
  <bullet> In addition, in September 2015 USAID released a resource 
        guide on preventing and responding to CEFM. This resource guide 
        provides information on how partners and USAID sectors, 
        missions, and staff can integrate CEFM prevention and response 
        into their programming. USAID will continue to work in 
        partnership with lawmakers, international organizations, the 
        private sector, and change agents at the national, local, and 
        community levels to address the practice of CEFM
                               conclusion
    While the statistics can seem grim, in every country I travel to, I 
meet innovative, resilient women, men and youth who are working hard to 
lead their countries toward gender equality and away from harmful 
practices like child, early and forced marriage. They know that with 
their hard work and community building, change will come in their 
countries. It is the tenacity of these individuals that keep us going, 
and I see it as key part of my job to raise up these leaders. As a 
matter of fact, just yesterday, we learned that Nadia Murad, Iraq's 
Nobel Peace Prize Nominee who is an outspoken survivor of Dae'esh, has 
just been named as a 2016 U.N. Goodwill Ambassador for the Dignity of 
Survivors of Human Trafficking. Her appointment will take place on 
September 16th, the International Day of Peace, at U.N. Headquarters in 
New York. Nadia has bravely testified before the U.N. Security Council, 
U.S. Congress, U.K. Parliament, and other important international 
forums as a survivor of Da'esh violence and trafficking. She is just 
one example of the kind of grass-roots strength and will that inspires 
me to keep pressing forward every day.
    On behalf of the State Department and the Office of Global Women's 
Issues, I'd like to thank the committee for their leadership in 
shedding light on this global economic, development, and human rights 
issue.

    Senator Rubio. Thank you.
    Secretary Richard.

 STATEMENT OF THE HONORABLE ANNE RICHARD, ASSISTANT SECRETARY, 
BUREAU OF POPULATION REFUGEES AND MIGRATION, U.S. DEPARTMENT OF 
                     STATE, WASHINGTON, DC

    Ms. Richard. Thank you, Chairman Rubio, Ranking Member 
Boxer, and other members of the committee for convening this 
important hearing on the plight of millions of girls around the 
world who are subjected to early and forced marriage.
    I just want to say, Senator Rubio, Senator Boxer, Senator 
Gardner, and also for Senator Durbin, we are very well aware 
how busy and compressed the Senate schedule is, and it is so 
heartening for all of us that you are carving out time to talk 
about this issue right now. It really just speaks volumes about 
how much you care, and it really is a morale boost for us. So, 
thank you very much.
    Ambassador Russell has outlined the scope of the problem. I 
want to focus my remarks on early and forced marriage among 
people who are refugees, internally displaced or stateless.
    As you know, my bureau aids refugees and others uprooted by 
conflicts and crises. Thanks to the U.S. Congress, we are 
funded to provide assistance around the world in hot spots and 
crisis zones to bring relief to people who suffer. And as part 
of this, we see time and time again how these emergencies 
exacerbate the threat of early and forced marriage, not only in 
the war zones but also, unfortunately, in the places where 
families seek safety and take refuge.
    Boko Haram and ISIL outrage the world by enslaving girls 
and forcing them into marriage. But these are not the only 
places where abuses are being perpetrated. Tragedies also 
unfold every day around the globe, as combatants in conflicts 
use attacks on women and girls to terrorize, subjugate, and 
scatter innocent civilians.
    Families forced to flee may splinter. Some may lose members 
through death or separation, including losing adult men who are 
traditional heads of the household. Families also lose their 
livelihoods, their dignity, and their legal and social status. 
Instead of being able to work, they must rely on aid. Many find 
themselves living in poverty, in the close quarters of slums or 
tents, feeling adrift, uncertain about their fate and 
understandably fearful for their future. Having escaped war, at 
this point they ought to be able to breathe a sigh of relief 
and resume normal life. But life in exile is not normal and, 
regrettably, it is not always safe.
    So in the chaotic background to these situations, parents 
may feel that they must do whatever it takes to safeguard their 
daughters' reputations and their family's honor, and families 
may be afraid of what will happen to their young unmarried 
daughters as they flee and find themselves in these new, 
unfamiliar environments. So early and forced marriage becomes a 
so-called ``negative coping strategy.''
    Syrian refugees in Jordan point to worries over safety and 
sexual harassment as reasons for arranging marriages for their 
young daughters. Some parents also hope marrying a local man 
will help them stay in the host country legally.
    Families marry off daughters because they are running out 
of money. In some cultures, families see their daughters as a 
burden, one that grows heavier when there are no opportunities 
for further education or work. That is especially true when the 
family is struggling to put food on the table. And some 
families see early and forced marriage as preferable to other 
alternatives open to girls with no other source of income.
    For all these reasons, more girls are forced into marriage. 
After 2 years in exile in Jordan, the rate of child marriages 
among Syrian girls there was twice the pre-war Syrian average. 
Before the war, about 13 percent of Syrian girls under 18 were 
married. But by 2013, the share of married girls among refugee 
families jumped to 1 in 4. And nearly half of those girls 
married men at least a decade older than they are.
    Even though parents may think they are shielding their 
daughters from abuse and sexual assault, early and forced 
marriage can have the opposite effect. Girls married young, 
especially those married to much older men, are more likely to 
suffer physical and emotional abuse and sexual violence than 
unmarried girls.
    I am conscious of the time, so I trust you will put my 
written remarks into the record. What it goes on to talk about 
is that it is physically dangerous for girls to become young 
mothers. It is dangerous for their own bodies, and it is not 
good for the health of their babies. This, in a way, is taking 
the scourge of child marriage and passing it on to another 
generation, and there is a similar passage to the next 
generation that happens in terms of legal documentation, 
statelessness. If a girl is too young to be married, if legally 
she should not be married, if she is living in an uncertain 
situation, her baby may not get registered. It may not have a 
birth certificate, and this can provide problems, then, for the 
rest of their lives.
    Then our testimony goes on to talk about the remedies, how 
we need to strengthen laws against early and forced marriage, 
how we have to make it easier to document marriages and births, 
how the United States is cosponsoring, did cosponsor at the 
U.N. Human Rights Council a resolution on the right to a 
nationality, and particularly women's equal nationality rights, 
which is so important in terms of helping women around the 
world.
    We are also supporting UNHCR's Global Campaign to End 
Statelessness within the next decade. Cathy has already 
mentioned the U.S. Global Strategy to Empower Adolescent Girls, 
and we are certainly putting a big focus all year this year on 
trying to get more girls educated, more kids in school 
generally, more refugee children in school, and especially 
refugee girls.
    I would love to also draw your attention to the Safe From 
the Start initiative that was launched around this time of year 
in 2013. This is the third year now that it has existed, and it 
is not just to respond to bad things happening to women and 
girls overseas but to prevent them from happening in the first 
place. This is where U.S. leadership has the potential to 
really make a big difference.
    Then I have a couple of examples in here from overseas.
    Next week at the U.N. General Assembly, we will be doing a 
number of things that are very related to this. One is the Call 
to Action on Protection from Gender-Based Violence and 
Emergencies. There is an annual meeting that will be held. It 
will be chaired by Sweden this year, but in the past it has 
been chaired by the U.S., and we are very much a partner with 
the Swedes in doing this.
    Also, the President has organized and will be holding a 
Leaders Summit on Refugees. A piece of that is to encourage 
countries that host refugees to allow more children to go to 
school and to allow more countries to permit refugees to work. 
Both of those are potential solutions to this problem of 
refugees feeling they have no alternative but to marry off 
their daughters.
    Thank you.
    [The prepared statement of Ms. Richard follows:]

   Prepared Statement of Assistant Secretary of State Anne C. Richard

    Thank you Chairman Rubio, Ranking Member Boxer and other members of 
the committee, for convening this important hearing on the plight of 
millions of girls around the world who are subjected to early and 
forced marriage, and thank you for inviting me to testify.
    Ambassador Russell has outlined the scope of the problem. I want to 
focus my remarks on early and forced marriage among people who are 
refugees, internally displaced or stateless.
    My bureau aids refugees and others uprooted by conflicts and 
crises, and we see, time and time again, how these emergencies 
exacerbate the threat of early and forced marriage--not only in 
warzones but also in places where families seek safety and take refuge.
            early and forced marriage among uprooted people
    Boko Haram and ISIL outrage the world by enslaving girls and 
forcing them into marriage. But these are not the only places where 
abuses are being perpetrated. Tragedies also unfold every day around 
the globe, as combatants in conflicts use attacks on women and girls to 
terrorize, subjugate, and scatter innocent civilians.
    Families forced to flee may splinter. Some lose members through 
death or separation, including adult men who are traditional heads of 
the household. Families also lose their livelihoods, their dignity and 
their legal and social status. Instead of being able to work, they must 
rely on aid. Many find themselves living in poverty, in the close 
quarters of slums or tents, feeling adrift, uncertain about their fate 
and fearful for their future. Having escaped war, at this point they 
ought to be able to breathe a sigh of relief and resume normal life. 
But life in exile is not normal and, regrettably, is not always safe.
    Ambassador Russell described the tangle of deeply rooted beliefs, 
traditions, and problems that can lead to early marriage. These include 
poverty, pervasive discrimination, the absence of opportunities and 
choices, and the misconception that early marriage will keep girls 
safe. Parents may feel they must do whatever it takes to safeguard 
their daughters' reputations and their family's honor.
    Crises and conflicts can make these fears and dilemmas more urgent 
and make the lives of girls more precarious. Families may be afraid of 
what will happen to their young, unmarried daughters as they flee and 
find themselves in new, unfamiliar environments. Early and forced 
marriage becomes a so-called ``negative coping strategy.''
    Syrian refugees in Jordan point to worries over safety and sexual 
harassment as reasons for arranging marriages for young daughters. Some 
parents also hope marrying a local man will help them stay in the host 
country legally.
    Families marry off daughters because they are running out of money. 
In some cultures, families see their daughters as a burden, one that 
grows heavier when there are no opportunities for further education or 
work. That is especially true when the family is struggling to put food 
on the table.
    And some families see early and forced marriage as preferable to 
other alternatives open to girls with no other source of income.
    For all these reasons, more girls are forced into marriage. After 2 
years in exile in Jordan, the rate of child marriages among Syrian 
girls there was twice the pre-war Syrian average. Before the war, about 
13 percent of Syrian girls under 18 were married. But by 2013, the 
share of married girls among refugee families jumped to one in four. 
Nearly half of these girls married men at least a decade older than 
they are.
    Even though parents may think they are shielding their daughters 
from abuse and sexual assault, early and forced marriage can have the 
opposite effect. Girls married young, especially those married to much 
older men, are more likely to suffer physical and emotional abuse and 
sexual violence than unmarried girls.
    They are also far more likely to die in childbirth than older 
women, and to develop severe complications like obstetric fistula. I 
have seen how devastating this can be.
    In Burkina Faso I visited a hospital supported by the United 
Nations Population Fund and spoke with women who had developed 
obstetric fistula because they gave birth before their bodies were 
ready. Some had suffered for decades, rejected by their families and 
ostracized by their communities, before learning that hospitals like 
this one can repair fistulas. They were there recovering from surgery.
    The perils of early and forced marriage and child-bearing cross 
generations. Babies born of under-aged mothers suffer higher rates of 
infant mortality, prematurity, low birthweight and malnutrition.
    Another risk is that these children will be born--and spend their 
entire lives--stateless, because underage marriages may not be legal, 
so children's births cannot be registered. In 27 countries around the 
world, discriminatory laws prohibit women and girls from passing their 
citizenship to their children, and strip these children of legal rights 
and protections they will need in life, including the right to attend 
school, get medical care, work legally or own property. Stateless 
people are more vulnerable to trafficking, sexual and physical 
violence, exploitation, forced displacement, and other abuses--such as 
early and forced marriage.
                                remedies
    Let's now discuss possible remedies. Strengthening laws against 
early and forced marriage could help. Most nations prohibit marriage 
below a certain age. But awareness of these laws is limited and 
enforcement is spotty--especially when laws clash with prevailing 
customs. Violations against displaced girls can be especially hard to 
address through legal means.
    One solution is to make it easier to document marriages and births. 
Universal birth registration can reveal a girls' age and help enforce 
laws against underage marriage, and it can prevent statelessness among 
children. At the most recent session in June, the United States 
cosponsored a U.N. Human Rights Council resolution ``The Right to a 
Nationality: Women's Equal Nationality Rights in Law and in Practice'' 
with more than 100 cosponsors including all African states.\1\ This 
resolution galvanized international support for granting equal 
nationality rights to women and addressing the issue of statelessness. 
The United States is also supporting UNHCR's global campaign to end 
statelessness within the next decade.
    We also need to change incentives, attitudes and the value placed 
on girls. Keeping girls in school is key. Girls with no education are 
up to six times more likely to marry as children than girls who have 
received secondary education. In sub-Saharan Africa, 66% of women with 
no education were married before age 18 compared to only 13% of those 
with secondary education.
    The ``U.S. Global Strategy to Empower Adolescent Girls,'' launched 
by Secretary Kerry this past March, will strive to make education safe, 
free, and compulsory throughout the world, and keep girls enrolled in 
school, even if they are married and have children. It also aims to 
boost the numbers of adolescent girls who benefit from comprehensive 
health services and education.
    Curbing gender-based violence in crises and conflicts can also 
discourage families from resorting to early and forced marriage. This 
is the focus of an initiative we launched in 2013 called Safe from the 
Start. Under it, we are channeling or have channeled approximately $55 
million to programs designed both to help survivors and to prevent 
attacks from happening in the first place.
    We have provided new staff and training so that aid workers can 
identify risk factors and take countermeasures, make camps physically 
safer, provide medical treatment, legal counseling and psycho-social 
services, and help vulnerable women and girls earn money to support 
themselves. The initiative also supports education and awareness 
raising programs and wellness centers--safe spaces in refugee camps--
for women and girls.
    At Kenya's Kakuma refugee camp, where early and forced marriage is 
a stubborn problem, girls get counseling and support. Outreach workers 
go door to door and organize community gatherings to raise awareness 
about the rights of women and girls.
    In Nigeria and Uganda aid workers also distribute leaflets, put up 
billboards about the need to prevent forced marriages and let girls go 
to school. Aid workers say it is making a difference. Mothers and girls 
are coming forward to report that they, their daughters, or friends are 
being pressured into early forced marriage and want help to stop it.
    Preventing early and forced marriage and other forms of gender-
based violence is a focus of our diplomacy as well as the humanitarian 
assistance we provide through U.N. agencies and other international and 
non-governmental organizations. We have worked hard to rally support 
for the Call to Action on Protection from Gender-based Violence in 
Emergencies, a unique initiative to mobilize and coordinate efforts to 
strengthen protection for women and girls caught up in emergencies. As 
the Call to Action lead in 2015, the United States created a roadmap 
that outlined concrete and meaningful steps all concerned governments 
and humanitarians can take over the next 5 years to do a better job of 
keeping women and girls safe and holding one another accountable.
    When more girls have the chance to make their own, informed choices 
and reach their full potential, the world will be a better place, not 
just for them but for all of us.
    Thank you and I would be happy to answer any questions.

----------------
Notes

    \1\ A/HRC/32/L.12

    Senator Rubio. Thank you.
    Let me, Secretary Richard, begin by asking kind of a big-
picture question. If you look at the list, the top five--India, 
Bangladesh, Nigeria, Brazil and Mexico--I know that in the top 
10, 9 of the 10 are viewed as fragile states. But nonetheless, 
if you look at this list, the top five, they have state 
entities. When you interact with your counterparts in India or 
in Mexico or in Brazil or in some of these other countries, at 
the government-to-government level, what is their view 
generally of this issue? Is it we know we have a problem but we 
have so many other problems we have to deal with? Or is it more 
along the lines of this is our culture and our society, this is 
how things work over here, and you guys cannot impose some of 
your views on us because this is the way we do it in this 
society? What is the government-to-government--
    Ms. Richard. I think when we talk diplomat to diplomat, 
there is general agreement that this is not in the best 
interest of girls. The problem is that they are embarrassed 
that this is happening in their own countries, and also it is 
happening to people who are not in the elites of society. They 
are people who are poor people or displaced people, as we just 
focused on.
    What helps is when we raise the issue because that puts it 
on the agenda of national security foreign policy concerns that 
the U.S. cares about.
    Senator Rubio. But beyond being embarrassed, is your sense 
that it is a priority for these governments? Is it something 
that, all things being equal, it is a priority for them or--
    Ms. Richard. I suspect that what you said is correct, that 
for some of these governments they have such a long list of 
issues that while this is on the list, it is not at the top. By 
our raising it, though, it does certainly push it up the 
priority list. It gets it much more attention than were we not 
to raise it.
    We also are making it a priority by raising it in these 
international conferences. I know mentioning international 
conferences probably sounds deadly dull, but what we do is, at 
the World Humanitarian Summit, at a child protection conference 
I attended in the UAE, for example, at the U.N. General 
Assembly meetings next week, we show up at very senior levels 
and we bring attention to these issues, and we engage with very 
senior levels of these other governments. So it becomes part of 
the conversation, and we get across how much we care, and then 
we back it up by providing funds to make a difference.
    So I think the U.S. has a very smart approach on this.
    Senator Rubio. I do not want to pick on any one country in 
particular, but two of these five countries are in the Western 
Hemisphere, which is also the overview of this committee. In 
Mexico and Brazil, is a marriage between a 14-year-old and a 
30-year-old legal under their laws?
    Perhaps Ambassador Russell--
    Ambassador Russell. I am happy to respond to that. I think, 
just in terms of the way we approach it, we try to put it in a 
broader conversation, which is to say that almost every 
country--and I have just found that in the course of my work, 
that the most successful approach for us is to talk about how 
it is in their interest to do things that we are encouraging 
the countries to do. They are not really so excited when I come 
in and say, you know, you should not do this, you should not do 
that. Sometimes I have to do that. But what I talk about 
generally is that all countries will be stronger if women are 
able to participate. It is just a fundamental principle, and it 
is the driving force for our work. It is why it is a State 
Department issue, because we think these countries--we know 
they will be more economically secure, and we believe that they 
will be more stable.
    Part of the trick about this is how do women participate 
when girls are falling off in really alarming numbers. So what 
we talk about is, look, this is really in your interest to 
figure out a way to try to address these issues more 
aggressively, and we also put it in the context of the 
sustainable development goals, where if all of these countries 
are pushing to develop more fully, how do they do that.
    Early and forced marriage is a specific target under the 
goals, under Goal 5, which is the gender goal, and it is 
because there is a recognition that child marriage, FGM, that 
these are practices that hold girls back. If we want them to 
participate, they need to be able to do that--
    Senator Rubio. I guess just to get back to the point I am 
making about the Western Hemisphere, if you have a 45-year-old 
man married to a 15-year-old in Brazil or in Mexico, I do not 
know whether that is even legal under their laws, but that 
person tries to travel to the United States with his 14- or 15-
year-old wife, do our laws allow them--do we recognize them 
when they come in on a visa as married?
    That is why I am trying to understand the legal status of 
it in those countries, because they stand out only because--I 
am not minimizing the tragedy of displaced communities and some 
of the other countries that are mentioned in this list, and I 
am not saying there are not severe poverty issues in both 
Brazil and in Mexico. But I think it is startling that two of 
the five countries in the top list here are in our hemisphere, 
and they do not have massive--they do not have the same issues 
as we have seen in the Middle East.
    So either these marriages are being recognized by their 
laws, and ultimately when they come to us and say we want to 
come into your country as tourists on a visa, and I am here 
with my 14-year-old or 15-year-old wife, what is our--
    Ambassador Russell. We can follow up--and I am sorry that I 
do not know the answer to that--with Consular Affairs, how they 
treat that issue in particular. I know that there is a lot of 
concern about American citizens going abroad and getting 
married, and our Consular folks are being trained on that and 
have worked very closely, actually, with some of the witnesses 
that you have here today on civil society to think about how we 
can do a better job making sure that they are looking for that, 
of Americans who are going back to their home countries, 
typically, and getting married and coming back.
    But as to how we would handle that coming in, I honestly do 
not know the answer to that. But we can get that and get back 
to you on it.
    Ms. Richard. One step removed from the border, I can talk 
about how we are engaging now very productively with Mexico and 
the UNHCR to make sure that any children coming up from Central 
America through Mexico are treated humanely, that their cases 
are quickly analyzed, that Mexico add asylum experts to 
determine what is going on with these children that they are 
walking alone through Mexico. Are they safe? Are they being 
trafficked? Have they been abused? Are they in peril? Because 
children should not be--I cannot talk directly to the situation 
of child marriage among Mexicans, but a piece of this, which is 
to look at the migration flows through Mexico, we are doing a 
lot more than we have, and it shows the importance of having a 
good relationship with Mexico so that we can be encouraging, 
supporting, prompting through this dialogue that is partly 
bilateral and partly with UNHCR and other government--
    Senator Rubio. Yes. My curiosity about Mexico and Brazil is 
basically I do not know how much of that is due to people who 
are from Mexico and how much of it is due to transitory 
populations that are coming through for multiple reasons. I am 
really curious about that aspect of it. Again, I am just 
envisioning a young girl who has just entered the U.S. with her 
husband and decides this is not a real marriage, I wish I could 
come in. I am curious, do we help her get out of that 
situation, and is there an asylum status for someone like that, 
trapped in a marriage of that nature?
    We can go into depth. I know the ranking member is ready to 
go, so I wanted to let her--
    Ms. Richard. And we will follow up with you, Senator, on 
that question. Thanks.
    Senator Boxer. I am going to follow up with this, just pose 
it a little differently. Suppose a child came in running away 
from this abusive marriage, 15, winds up--either comes from 
Mexico, Brazil, or any of these countries that allow this. This 
is an important question, following up to my friend's question, 
which is also important, which is I would assume if a marriage 
is legal in another country, I would assume we recognize it 
here. I cannot be sure about that.
    But if the woman ran away from her husband and she comes 
in--woman, girl, child--and she winds up in one of these 
places, I say to Ambassador Richard, would that be a reason for 
asylum? I would assume it is. And if it is not, we ought to do 
something about that.
    Ms. Richard. You know, one of the rationales, one of the 
legal reasons to become a refugee, which is part of 
international conventions but also there are U.S. laws based on 
this, is that you are fleeing oppression or persecution. One 
reason for it is called membership in a social group. So it 
really is up to asylum judges in the U.S. I am getting out of 
my lane on this. We will have to talk to DHS about it. But I 
think a case could be made--a case is certainly made that a 
form of gender-based violence is child marriage.
    So we can say that girls showing up at the border who have 
been forced into early marriage have suffered from gender-based 
violence and that that should be taken into consideration when 
they make a claim for asylum, and would be a rationale for 
granting them asylum.
    Senator Boxer. Well, I would like to see an even stronger 
statement, because if a girl runs away from a 50-year-old 
husband, she is 15 or 14 or 16, I agree with you completely, it 
is gender-based violence. It is a violation of her being. So 
could you get back to us with a little bit more specificity? It 
should be just clear to me, and I think I speak for everyone on 
the panel, a child running away from this kind of a marriage. 
So, thank you for that.
    South Asia has the highest prevalence of child marriage out 
of any region in the world. In Bangladesh, 52 percent of 
girls--52 percent of girls--are married by their 18th birthday, 
and 18 percent by the age of 15. In India, 47 percent of girls 
are married as children. In Nepal and Afghanistan, more than a 
third are married before the age of 18.
    So in September 2014, the cabinet of Bangladesh approved 
language in the draft Child Marriage Restrain Act of 2014 to 
lower the minimum age, to lower the minimum age of marriage--
this gets to the Chairman's point--from 18 to 16. This has gone 
in the wrong direction, 18 to 16, a major step backwards in our 
efforts to end child marriage.
    How is the U.S. Government working with the government of 
Bangladesh? What have we done, Ambassador? What actions are we 
taking? What is it? Have we had an official response to that? I 
would like to know your answer.
    Ambassador Russell. Thank you, Senator. It has been an 
ongoing discussion with Bangladesh. I have traveled there. I 
talked to the government when I was there. We had a U.S.-
Bangladesh dialogue in June where the government reaffirmed 
that they would not try to reduce the legal age from 18 again. 
So as of right now, we are in a position where they have been 
very clear. They stated on the record in the course of this 
dialogue that we held at the State Department. But I think it 
is a broader--
    Senator Boxer. Did you say they did not do it, or they 
did--
    Ambassador Russell. They did not. They have said that they 
will not change the law from 18 to 16. This has been an issue 
that has been churning--
    Senator Boxer. Good.
    Ambassador Russell. So we are good for now, but I will say 
this. I think it is something that we really have to stay on 
top of. Our diplomats there are certainly aware of it. They 
have a really strong civil society there that is very, very 
active and very engaged on this issue. I met with them when I 
was there. So I think for now we are in a good place, but I 
think you are really pointing to an important point, which is 
the notion that any country would even consider this is 
something that is very disturbing for us.
    Senator Boxer. Right.
    Ambassador Russell. And in that region in particular, we 
have got to really stay on it as much as we can because the 
numbers are so huge, and when we see that girls are really not 
doing well and falling out of school in alarming numbers, that 
is where we are trying to say you have got to keep these girls 
in school and avoid this problem from the outset.
    Senator Boxer. Well, Mr. Chairman, maybe we could work 
together with our committee in a bipartisan way, either write a 
letter to the ambassador from Bangladesh, have a meeting and 
just say please, this would not be looked on favorably. It is a 
step way backwards.
    But I have other questions. May I submit them to the 
record?
    Senator Rubio. Absolutely.
    Senator Boxer. Thank you very much.
    Ambassador Russell. Your leadership helps, and the more 
attention on all of these issues that you all bring to this, 
when you remind ambassadors, when you remind other people who 
work in the Government of the United States that these issues 
are important, that helps tremendously, and that these issues 
are interconnected, and that Bangladesh, they will never move 
into the world they want to be in if they do not take care of 
their girls and make sure that they get educated and that they 
are not getting married early. It is a simple reality. The more 
they hear that, not just from the gender person but from 
leaders in our country, the better off we all are.
    Senator Boxer. And for men and women combined.
    Ambassador Russell. Yes.
    Senator Boxer. And I think from both parties here.
    Ambassador Russell. Absolutely.
    Senator Boxer. It is rare that we can find these sweet 
spots. We do it once in a while, and we can do it on this one. 
So maybe the Chairman and I--and I am so appreciative that 
Senator Gardner is here--we can move forward.
    I would just close my comments--and then I am going to run 
to the floor--with this. Bernard Lewis, who is known as a very 
conservative historian, has said without equivocation what we 
have all said here in our own words, and he said this 20 years 
ago, that if you could try to find the one silver bullet that 
could help us in the world to bring more prosperity, it is the 
way countries treat their girls and women, because all of that 
talent or potential talent and brains and everything that women 
bring--I have always argued that women are not better, we are 
equal. So to keep us out of the thing, out of these governments 
and force us into these situations, it is really a crime 
against humanity and, I think, a crime against God.
    So I am hopeful before I leave--and we have this 
partnership in the subcommittee--that maybe we can do something 
with Bangladesh, we can write some letters to the 
Administration about how they treat these children when they 
either escape a marriage or come with a husband. I think that 
is helpful. And anything we can do to help what you are doing.
    I know it is a lonely deal there because, as our Chairman 
said, there are so many issues that are on the agenda for 
America, including getting these countries to turn against 
terror and getting them to a place where they can trade. They 
are so important. But, at the same time, I think we all believe 
this is just as important.
    So thank you so much, and again I thank our witnesses that 
will come, and thank you, Mr. Chairman.
    Senator Rubio. Thank you.
    I am going to just add to that that the humanitarian, moral 
aspect to this I think is clear for everyone to see, and I 
think what you are alluding to is the deeper argument that the 
fact that nine out of these ten states that are on this list 
are unstable is probably the cause of it, but it is also the 
result of it.
    You are basically saying that this is a country where over 
half your population, unless they come from a wealthy family 
that can position them for success, is never going to be a part 
of civil society, is never going to be a part of government, is 
never going to be a part of your economy. They are not going to 
be innovators, they are not going to be producers, and their 
only hope is to get married to somebody who will take care of 
them. It goes deeper into this argument that they are a burden 
on the family's finances, so let us figure out a way to move 
our girls as young as possible into the care of someone else.
    I mean, it is interrelated with the fact that a lot of 
these countries fail, both economically and geopolitically. In 
fact, I do not know of any advanced economy in the world that 
is successful marginalizing over half its population. It just 
does not work. And it is actually more than half because even 
among men in those countries, if they do not come from the 
right families and with the right education, they too are 
marginalized. So you add that together, that could be 80 
percent of your population, or more. But certainly over 50 
percent.
    So these things are interrelated.
    I do want to get to Senator Gardner's questions.
    Senator Gardner. Thank you, Mr. Chairman. And thank you, 
Senator Boxer, for your words today. I have two daughters, a 
challenge that we have to address, two daughters. One of them 
is 12. I dropped her off at the volleyball game just this past 
weekend, and to think that not everybody is going to--it is 
just an incredible crisis that we have to address. This is just 
overwhelming when you think about what is happening to so many 
girls, women around the world.
    Ambassador Russell, I think you note that the 720 million 
women figure is equivalent to 10 percent of the world's 
population, 15 million married each year. In your testimony you 
stated that. That is just a stunning figure.
    I would also like to receive the information that you 
provide to Senator Boxer and Chairman Rubio about this gender-
based violence issue and the determination, the criteria that 
is being used, perhaps in a refugee status of some kind. Is 
that a uniform standard? Is it across everyone? Do they weigh 
it the same? Is it just sort of a subjective factor? Is it a 
contributing factor? How does this equate? I would be very 
interested in receiving that information as well.
    I wanted to step back a little bit. The testimony talks 
about programs. It talks about partnerships and where you are 
working with other nations. Could you maybe give us a case 
study, so to speak, of a nation where, from start to finish, 
that had a significant problem, walk through some of the 
programs that you have worked through and then state where it 
is today? I do not care if it is Secretary Richard or 
Ambassador Russell, but just give us a study of how we have 
been effective and what it was that was a common theme between 
taking that effectiveness and being able to apply it in other 
places where we have not quite had the results yet.
    Ambassador Russell. What I would like to do is talk a 
little bit about how--I cannot point to a country where it has 
been perfect. There is no such thing. What we have learned 
through the course of our work is that the key is to try to 
address these issues in a comprehensive way. It sounds sort of 
intuitively right, and it sounds easy, but it is really 
difficult. It is very challenging. And where we are doing it 
now, where we have started is in Malawi, which is a very 
interesting country.
    It is poor. We went through a long analysis with USAID to 
try to figure out where was the best place to try this 
comprehensive approach. So we are starting there. They have a 
lot of work to do. A lot of girls get married early. The 
country is desperately poor, and they do not have mandatory 
secondary education.
    So the challenge is how do we help them move forward, and I 
think it is an important point that the United States is not in 
a position to fix any of these problems or any of these 
countries. We really cannot do it. What we try to do is find 
countries, find people in these countries who are working on 
behalf of women and girls who understand the interconnectedness 
of this issue and are working to try to address it, and we try 
to support them.
    I think Malawi is going to be a really good example of the 
United States--so it is USAID, PEPFAR, State Department. We are 
working with MCC. We are working with Peace Corps. Now we have 
USDA working with us. Department of Labor is talking with us 
about what they do. We are also working with our bilateral 
partners and with our multilateral partners and saying, okay, 
this is the scope of the problem, and let us see if we can 
coordinate and work better so at the end of the day you cannot 
really address child marriage in a vacuum. It does not exist in 
a vacuum. It exists in a circumstance where girls are not 
valued. That is basically the problem. Girls and women are not 
seen as valuable members of society who should be able to 
finish school and participate in the economy. They are just 
not.
    So how do we try to lift them up, lift up the way they are 
perceived in the society? It takes a lot of effort. We as an 
international community--this is not just the United States--
have not really been able to do this as effectively in the past 
as we would like to do. You can certainly point to developed 
countries where, as the Chairman said, women are treated better 
in those countries generally. We know if we can lift up women 
and girls, have them participate fully, they will add to their 
societies, they will make them better.
    How do we figure out how to do that? I think the most 
important thing is to try to get them, keep them in school, in 
a quality education, try to protect them from violence, try to 
move them to a point where they can participate in the economy 
and participate in the civic life of their country. So, for 
example, they can run for office. The more women leaders we get 
in these countries, the better.
    It is not something you can do piecemeal. I believe this 
strongly. We are testing the proposition; we will see. But to 
me, it is the only thing that really makes sense. We are kind 
of bending the frame of this a little bit, because it is not 
really the way we have worked in the past.
    Senator Gardner. Thanks. And just going back to the first 
issue that we talked about, do we track the numbers of people 
who come into the United States seeking some asylum status or 
refugee status, trying to get away from the situation of forced 
marriage? Is that something that we track?
    Ms. Richard. We track asylum seekers in the U.S. That is 
DHS.
    Senator Gardner. In terms of this particular--
    Ms. Richard. And we track the number of refugees that 
arrive. But I do not know if we track these subsets.
    Ambassador Russell. We track people who make gender-based 
violence claims. We consider early and forced marriage a form 
of gender-based violence. Whether that is pieced out, I do not 
know. DHS would know that.
    Ms. Richard. But I would like to know the answer, and I am 
embarrassed I do not have it for you today, so we will get 
that.
    Senator Gardner. Thank you very much.
    Thank you very much, Mr. Chairman.
    Senator Rubio. And my final question for the panel--and we 
have a second panel waiting, and you have been generous with 
your time, both of you have--is, and I think you alluded a 
little bit to it in your answer to Senator Gardner's questions, 
what is the best thing we are doing right now? If we were to 
say this is the one place where we really need to be involved 
in terms of turning this around, my sense is the programs that 
create an alternative to child marriage for girls growing up 
and young women growing up in economically challenged or 
displaced families, but where could we best get results that 
would help us toward this goal of wiping this out in a 
generation?
    Ms. Richard. You know, what we are doing that I think will 
get good results is that we are working with strong support at 
the community level in these countries to change the acceptance 
of child marriage, and we support programs where there is a lot 
of talking to young people and talking to men and talking to 
boys, backed up by education for girls. So that is very much at 
the grassroots level.
    And at the diplomatic level, we are very much--I do not 
know how to diplomatically say ``in your face.'' We are very 
much pushing and encouraging and making issues around 
empowerment of women and prevention of gender-based violence, 
including early and forced marriage, part of our platform of 
discussions. We are not doing it once. We keep coming back and 
doing it over and over and over again.
    I do not know what diplomats think when they see us coming, 
and our boss, and he is going to talk about these issues. They 
probably want to run and hide. But, yes, we keep coming back 
and talking about them.
    I just wanted to mention on Bangladesh specifically, we 
have a very close relationship, working relationship, with the 
foreign secretary of Bangladesh on migration issues and on, 
because of the Rohingya, refugees coming across, and because so 
many poor Bangladeshis leave. So it is very easy. Next week I 
promise I will raise this issue with him. Thank you.
    Senator Rubio. Well, I want to thank you both for--oh, did 
you have an answer?
    Ambassador Russell. I was just going to say one quick 
thing, which is I think when you look broadly at child 
marriage, what we see in these conflict settings is an 
exacerbated situation. In a way, it has to be treated somewhat 
differently, right? It is such a crisis, and in any crisis, 
whatever is happening is going to get worse. We see increased 
rates of domestic violence. We see increased early and forced 
marriage for different reasons, and sometimes parents literally 
will say, look, I am trying to protect my daughter. I do not 
want her out wandering around. She is vulnerable to other men, 
so we want to get her married so somebody is taking care of her 
and she is protected.
    So I think, in a way, these conflict settings bring up a 
discrete set of issues. From our perspective, just stepping 
back more broadly, if you ask me one thing to do, I think it is 
to try to keep these girls in school. If we can do that, which 
is very challenging, and the relationship of why they drop out 
of school and get married is complicated. Sometimes they drop 
out of school to get married. Sometimes they drop out of school 
and they get married. But regardless, if we can keep them in a 
quality education where we can talk to them about your value 
and make sure their parents understand that they will 
contribute to their families and their communities if they have 
the opportunities, I think over time that is how we are going 
to address it.
    Having said that, these numbers are alarming, as you say, 
and even though the numbers of child marriages are declining 
around the world, when you look at the population coming up, we 
are going to barely be treading water unless we get ahead of 
this, and I think we have got to work with other countries to 
encourage them to do more, and I think we have got to do this 
work which we are trying to do at the State Department, which I 
am grateful again for your support, of really trying to address 
these issues that women and girls face in a more comprehensive 
way.
    I think at the end of the day, it is the only way we are 
really going to solve the problem. But thank you very much for 
your attention.
    Senator Rubio. Thank you for your work and for your time 
here today, and for your testimony.
    We are now going to move to our second panel.
    As they are transitioning here, join me in welcoming Ms. 
Lakshmi Sundaram, the Executive Director of Girls Not Brides; 
and Dr. Suzanne Petroni, who is the Senior Director for Global 
Health, Youth and Development at the International Center for 
Research on Women.
    Dr. Petroni, are you ready?

 STATEMENT OF SUZANNE PETRONI, PH.D., SENIOR DIRECTOR, GLOBAL 
    HEALTH, YOUTH AND DEVELOPMENT, INTERNATIONAL CENTER FOR 
               RESEARCH ON WOMEN, WASHINGTON, DC

    Dr. Petroni. Chairman Rubio, Ranking Member Boxer--I wish 
you were here--and esteemed members of the committee, thank you 
so much for the opportunity to provide testimony on the human 
rights abuse that is child marriage.
    My organization, the International Center for Research on 
Women, has been building the evidence base regarding child 
marriage for the better part of two decades now, and during 
that time we have worked to raise awareness of this important 
issue across the globe. We have also worked with so many in the 
U.S. Government, including Ambassador Russell and Assistant 
Secretary Richard, to expand evidence-based policies and 
programs to prevent this harmful practice. So I am so proud to 
testify before you today along with such committed advocates, 
and thank you for continuing to advance this cause.
    You have already heard today that we know quite a lot about 
child marriage, but we are still learning. So I would like to 
speak today on some of the emerging evidence that ICRW is 
generating on the causes, consequences, and potential solutions 
to ending the practice.
    Nearly everywhere where child marriage is prevalent, social 
and community norms around sexuality and around gender play a 
tremendous role. Where girls are valued only for their 
positions as wives and mothers; where viable economic 
opportunities are available only to men; where even talking to 
men and boys, aside from your brothers or fathers, is 
forbidden; where girls, but not boys, are taken out of school 
to help with household chores because girls' education is seen 
as having no value; child marriage will continue. So gender 
inequality in itself is a significant driver of child marriage, 
wherever it happens.
    Now, much of the early evidence that we have on child 
marriage came from India, Bangladesh and Ethiopia. These are 
places where parents or community leaders were--and still are, 
in many cases--the main decision-makers around marriage. Girls 
in these contexts are often taken out of school and married off 
by an adult, and often to an adult. In contexts like these, 
targeting these decision-makers and shifting social norms 
regarding the value of the girl, some of the solutions that you 
have heard already today, are of utmost importance.
    But we now have more evidence from different contexts, 
including evidence that my organization is releasing today from 
Kenya and Zambia, where girls are forced to drop out of school 
not because of marriage but because the practical costs of 
attending school outweigh the bleak economic prospects that 
girls and young women have for their futures. And once they are 
out of school, girls may be forced to marry either because it 
is socially unacceptable to be an out-of-school, unmarried 
girl, or because marriage may be their only means of financial 
support.
    We also know from ICRW's research in sub-Saharan Africa and 
from the work of Promundo in Latin America, and Tahirih Justice 
Center in the United States, that many girls are dropping out 
of school and becoming child brides because they become 
pregnant, and this is seen as something incompatible with 
formal education in many contexts.
    So, while understanding the different drivers of child 
marriage is important in helping us identify the most 
appropriate solutions, our research has shown there are some 
solutions, and I am glad that after talking about the 
challenges, that we are able to think about some solutions. You 
can find more about these solutions in ICRW's report called 
Solutions to End Child Marriage.
    But, in short, they include empowering girls with 
information, skills and support networks; educating and 
engaging parents and community members; enhancing girls' access 
to quality formal education, as we have just discussed; 
providing economic support and incentives to girls and their 
families; and lastly, encouraging supportive laws and policies 
and their implementation; and again, interventions that use 
several of these approaches are most effective.
    Given our very latest research findings, I would add to 
these solutions that providing adolescents with education about 
their bodies and their rights, starting with basic information 
about fertility and pregnancy, can also be an important 
solution to curtailing both teen pregnancy and child marriage.
    I would like to close by making a few recommendations for 
your consideration.
    First, it cannot be assumed that child marriage will 
adequately be addressed as part of the increasing and very 
worthy efforts to advance the broader health, rights, education 
and welfare of adolescent girls. We need to ensure that child 
marriage prevention receives the dedicated attention it 
deserves.
    So I recommend the Senate consider commissioning a report 
by the Administration that details where, how, and how much the 
Administration is investing in child marriage prevention. And 
once we have that information, let us commit to doubling these 
efforts. It may sound like a lot, but I think you may find that 
the U.S. is still behind other countries when even that is 
added.
    Second, do not let married girls get lost in the shuffle. 
There are 15 million girls who marry each year. They are among 
the neediest and hardest to reach individuals in the world. So 
even as we work to better understand their needs, we can 
provide them with education, life skills, and appropriate 
health care.
    Third, support research to better understand what will work 
to end child marriage in some of the under-studied regions like 
the Western Hemisphere, where child marriage rates are high but 
attention to these issues is still low.
    And finally, continue to support girls' empowerment and 
rights. We cannot overcome this challenge without ensuring that 
girls have viable alternatives to marriage, that they know 
their rights and are equipped to advocate for them.
    Mr. Chairman, I know of no other government in the world 
that has articulated as solid a commitment to advancing the 
rights of adolescent girls as the U.S. has this year, and there 
is no stronger foundation on which to build truly 
transformative change. So as we move into a new administration 
in the coming months, it will be incumbent upon Congress to 
ensure that we build on this foundation and advance the welfare 
of girls worldwide.
    Thank you.
    [The prepared statement of Dr. Petroni follows:]

               Prepared Statement of Dr. Suzanne Petroni

    Chairman Rubio, Ranking Member Boxer, and esteemed members of the 
Committee: Thank you for the opportunity to provide testimony today on 
the important issue of protecting girls around the world from the 
pernicious--yet not insurmountable--human rights abuse of child 
marriage.
    Our colleagues from the State Department provided an excellent 
summary of U.S. efforts to empower girls around the world and to 
protect them from numerous rights abuses, including child marriage. My 
organization, the International Center for Research on Women--ICRW--has 
been building the evidence base regarding child marriage for the better 
part of two decades. During that time, we have worked to raise 
awareness of this important issue across the globe, and we have worked 
with so many in the U.S. government--including Ambassador Russell, 
Assistant Secretary Richard, Senator Collins, Senator Durbin and 
Senator Boxer--among others, to expand evidence-based policies and 
programs to prevent this harmful practice. So I testify before you 
today with no small amount of pride that our government is now leading 
the world in prioritizing girls in its foreign policy and development 
assistance. For that I commend you and your colleagues like Senator 
Durbin, who have been tireless advocates for girls around the world.
    You have also just received an excellent overview of the practice 
of child marriage from our good colleague Lakshmi Sundaram, who sits at 
the secretariat of the Girls Not Brides global partnership, of which 
ICRW co-chairs the U.S. National Partnership, Girls Not Brides U.S.A. I 
could not agree more with her recommendations as to what should be next 
for U.S. leadership on this issue.
    I'll focus my brief remarks today on some of the emerging evidence 
ICRW is generating that we hope will shed more light on not just the 
drivers and consequences of child marriage, but also on solutions that 
can unlock real and sustainable progress, so that we can end this 
practice within a generation. As harmful as this challenge is, it is 
not without solutions.
            understanding structural drivers and root causes
    While there are some common underlying factors, the drivers of 
child marriage are different from region to region, country to country, 
and even girl to girl. Indeed, as we learn more about the practice, we 
learn more about the diverse, and often complex, drivers of it, both 
across and within countries. And understanding these drivers is 
critical if we are to develop solutions to end the practice.
    In nearly all contexts where child marriage is prevalent, social 
and community norms around sexuality and gender play a tremendous role. 
Where girls are valued only for their roles as wives and mothers; where 
viable economic opportunities are available only to men, but not women; 
where having sex outside of marriage--or even talking to men other than 
your brother or father--is forbidden; where girls, but not boys, are 
taken out of school to help with household chores because girls' 
education is seen as having no value; child marriage will continue. 
Gender inequality is, in itself, a significant driver of child 
marriage, no matter where it happens.
    Much of the early evidence we had on child marriage came from 
India, Bangladesh and Ethiopia, where parents or community leaders 
were--and still are, in many cases--the main decision-makers around 
girls' marriage. Girls here are often taken out of school and married 
off by an adult, often to an adult, often an adult they may not even 
know. In contexts like these, targeting these decision-makers and 
shifting social norms regarding the value of the girl--solutions that 
you've heard already today--are of utmost importance.
    But we now have more evidence from contexts where girls are forced 
to drop out of school, not because of marriage, but because the 
practical costs of attending school outweigh the bleak economic 
opportunities that girls and young women have in their communities. And 
once out of school, girls may be forced to marry, either because it is 
socially unacceptable to be an out-of-school, unmarried adolescent, or 
because marriage may be their only means of financial support.
    We also know--from our recent research in Senegal, Uganda, Kenya 
and Zambia, and that of groups like Promundo in Latin America, and 
Tahirih Justice Center in the United States--that many girls are 
dropping out of school and becoming child brides because they become 
pregnant, something that is seen as incompatible with formal education 
in many contexts.
    So, while it may add a great deal of complexity to the issue, it is 
vital that we understand the different circumstances that contribute to 
child marriage, so that we may implement the most appropriate solutions 
to it. That said, there are some broad solutions that can be 
implemented across contexts.
    One of the most important pieces of research ICRW has produced on 
this issue is our Solutions to End Child Marriage paper. This was a 
systematic review, in which we reviewed more than 150 programs to 
determine what works best to end child marriage. We identified five 
commonly employed solutions, which are also reflected in the U.S. 
Global Strategy to Empower Adolescent Girls that you heard about 
earlier today. These are:

    I. First, empower girls with information, skills and support 
networks. Having girls learn basic skills like literacy and numeracy, 
how to communicate and negotiate, to stay healthy, to solve problems, 
and to earn and manage money, can help girls can become more 
knowledgeable and self-confident. Engaging with peers and mentors can 
also help alleviate the social and economic isolation many girls 
experience.
    II. Second, educate and rally parents and community members. As 
you've heard, these adults are often the ones responsible for deciding 
when and whom a girl marries. We have seen powerful examples of how 
educating these key stakeholders about how child marriage impacts a 
girl's health and future can spark significant change.
    III. Third, enhance girls' access to quality formal education. 
Girls with no education are three times as likely to marry before 18 as 
those with secondary or higher education. Providing incentives--such as 
uniforms or scholarships--or the necessary skills and support for girls 
to enroll and remain in school can help delay marriage. Programs aimed 
at improving the safety and girl-friendliness of schools, strengthening 
school curricula and making school lessons relevant to girls' lives 
also are effective. When girls are in school, they are also less likely 
to be seen as ready for marriage, and they can develop social networks 
and skills that allow them to advocate for themselves and their 
futures.
    IV. Fourth, provide economic support and incentives to girls and 
their families. Some parents may see a short term financial benefit 
from marrying their daughter early, by gaining a bride price, lowering 
the price of dowry or simply having one less mouth to feed. And some 
girls may find themselves without any financial support from their 
families, and thus turn to boyfriends and potential husbands. Providing 
a girl or her family with a loan or an opportunity to learn an income-
generating skill, can provide economic relief for struggling families. 
And daughters who learn skills that enable them to earn an income in 
the future may be seen as adding more value to the family.
    V. Lastly, encourage supportive laws and policies--and, 
importantly, their implementation. Many countries with high rates of 
child marriage have legislation on the books to prohibit the practice. 
Advocating for the implementation of such laws, and raising awareness 
about them among government officials and community leaders and 
members, can help strengthen and/or better enforce existing initiatives 
around girls' rights. Where such legislation is not on the books, 
advocating for legal and policy reform is a critical first step. We 
know that while laws themselves can't solve the problem, they are a 
necessary part of the solution.

    I should note that the most effective approaches are those that 
employ several of these strategies, often in combination with others. 
And we also know that siloed interventions do not always work. Recent 
research conducted by ICRW, and funded by USAID, for example, 
demonstrates this very point. In a rigorous evaluation, we found that a 
large-scale conditional cash transfer program that was intended to 
delay marriage in India did not work, largely because there was no 
corresponding effort to educate families, communities or girls on the 
value of girls as their own, independent beings, endowed with rights to 
choose if, when and whom to marry. The intervention was thus perceived 
by many as the government defraying the economic burden that having 
girls placed on poor families. In many cases, that money was even used 
for the girl's dowry as soon as she turned 18.
    New research we recently conducted in Zambia and Kenya--the 
findings of which we are actually publishing today, and which reflect 
some of our other recent research in sub-Saharan Africa--indicates that 
the main drivers of marriage in these contexts are school dropout and 
early pregnancy. So here, interventions to delay marriage would need to 
target both of these drivers. In particular, providing adolescents with 
sexuality education--starting with basic information about fertility 
and pregnancy, as well as youth-friendly reproductive health services, 
can also be important solutions to curtailing both adolescent pregnancy 
and child marriage.
                            recommendations
    I would like to close with a word about the importance of U.S. 
leadership in ending child marriage.
    While we all recognize the harms that child marriage does to girls, 
we should also understand that child marriage is also actively 
undermining American investments in broader goals of global health, 
education, democracy and governance, and so much more.
    ICRW is currently engaged in a multi-year, global research project, 
in partnership with the World Bank, in which we are calculating the 
economic impacts of child marriage. While the research is ongoing, our 
initial findings show that, in addition to the harmful effects on 
girls' health, education, rights, and wellbeing that we've heard about 
today, the economic costs of child marriage, from the individual to the 
national levels are very significant. In Niger, which has the highest 
child marriage rates in the world, for example, eliminating child 
marriage today would translate into savings and benefits of about $25 
billion by the year 2030, if we consider just the education sector. The 
cumulative savings to governments and societies will likely be in the 
trillions of dollars. There's much more to this study, and if you 
invite me back in about six months, I'll be able to tell you more.
    For now, however, we have sufficient evidence to confidently 
recommend the following:

    1. It cannot be assumed that child marriage will be adequately 
addressed as part of the increasing and very worthy efforts to advance 
the broader health, education and welfare of adolescent girls. To 
ensure that child marriage prevention receives the dedicated attention 
it deserves, I recommend the Senate commission a report that details 
where, how, and how much the Administration is currently investing in 
ending child marriage. Once we have that information, let's double 
these efforts. Even then, I suspect the U.S. may still find itself well 
behind many other countries in addressing this issue. But it would be a 
good start.
    2. Don't let married girls get lost in the shuffle. We critically 
need robust investments to delay the age of marriage. But at the same 
time, those 15 million girls who still marry each year are among the 
neediest and hardest to reach individuals in the world. Even as we work 
to more fully understand their needs, we know that they should be 
provided with educational opportunities and with critical health care 
services, including youth-friendly family planning, maternal health, 
HIV screening and treatment, and mental health care.
    3. Continue to invest in research to better understand what will 
work to prevent child marriage in regions where we don't know as much--
starting with the Western Hemisphere and the Middle East and North 
Africa, where child marriage rates are high, but attention to and 
funding to combat the challenge are low. Let us also implement and 
evaluate new interventions, so that we can develop scalable models that 
are most effective across different contexts.
    4. Finally, continue and expand the growing emphasis on girls' 
rights and empowerment. As the research demonstrates, we cannot end 
this problem without ensuring that girls have viable alternatives to 
marriage, know their rights and are equipped to negotiate them with the 
gatekeepers of their lives: parents, teachers, community and religious 
elders.

    I know of no government in the world that has articulated as solid 
a commitment to girls in their foreign policy as the United States has 
this year. There is no stronger foundation on which to build truly 
transformative change. As we move toward a new Administration, it will 
be incumbent upon Congress to ensure that we build on this foundation 
and continue to advance opportunities for adolescent girls around the 
globe. Thank you for your leadership in this regard.

    Senator Rubio. Thank you.
    Ms. Sundaram.

           STATEMENT OF LAKSHMI SUNDARAM, EXECUTIVE 
             DIRECTOR, GIRLS NOT BRIDES, LONDON, UK

    Ms. Sundaram. Chairman Rubio, Ranking Member Boxer, and 
esteemed members of the committee, thank you so much for the 
invitation to provide testimony today. I am Lakshmi Sundaram, 
and I am the Executive Director of Girls Not Brides, The Global 
Partnership to End Child Marriage. We are a global civil 
society partnership bringing together over 600 organizations, 
working in 80 countries, dedicated to ending child marriage. 
Our members are diverse. They range from tiny community groups 
to some of the large international NGOs that you will have 
heard from before. And we are represented here in the United 
States by our U.S. national partnership, Girls Not Brides USA. 
I would urge you to consider their excellent testimony that 
they have submitted for the record which contains a 
comprehensive view of U.S. efforts on this issue to date, and 
recommendations for future action.
    Now, for those in the room who are married, I want you to 
think back to your wedding day. Hopefully, it was a day of joy 
and love and promise. Hopefully, it was a day that opened up 
new horizons and opportunities.
    For the 15 million girls around the world who are married 
every year, their wedding day represents a closing down of 
horizons. As you said, Chairman Rubio, child marriage is not 
linked to any specific region, tradition, or religion. It 
happens all over the world. You mentioned Brazil and Mexico as 
being two of the countries with the greatest number of child 
brides. Other countries that you may find surprising are 
Indonesia and Nigeria.
    I would like to spend a few minutes to talk about why it 
happens, and it is important to remember as we discuss child 
marriage that the vast majority of parents love their daughters 
and want to do what is best for them.
    But most fundamentally, child marriage happens to girls 
because they are girls, because girls have less value than boys 
in society, and there is an out-sized value that is placed on 
their virginity.
    Child marriage is linked to poverty. Parents may feel that 
giving a daughter in marriage will reduce family expenses, and 
in some communities there may even be a financial transaction 
involved, like a dowry or a bride price.
    Many parents marry off their daughters young in areas where 
girls are at high risk of physical and sexual assault, as you 
heard earlier. Parents see marriage as a way of ensuring their 
daughters are protected without necessarily thinking about the 
significant violence that they will encounter within marriage.
    And why should we tackle child marriage? We should because 
ensuring girls have the right to choose if, when, and whom to 
marry can create long-term change for girls themselves, their 
families, and their countries.
    But what is more, child marriage is at the heart of many of 
the challenges we want to overcome as an international 
community. Think about it. Our efforts to reduce child and 
maternal mortality will be hindered as long as girls are giving 
birth as children. Our efforts to ensure every child can finish 
school are undermined when girls have to leave to get married. 
Our efforts to end violence against women are held back as long 
as so many girls are trapped in marriages where they have no 
voice.
    As my colleague Dr. Petroni said, we now know what it will 
take to end child marriage. It will take working with girls 
themselves to ensure that they know and are able to exercise 
their rights. It means changing community attitudes that 
devalue girls and hold them back, including by engaging with 
parents, boys, Christian, Muslim, Hindu priests, and 
traditional leaders as well. It means ensuring that we have 
education, health, and legal services that are available, high-
quality and accessible to girls, both through government and 
civil society. And it also means ensuring that we have a 
supportive policy and legal framework in place.
    We have seen some amazing progress over the last few years. 
For example, in the international arena, ending child marriage 
was included as a global development priority in the Global 
Goals for Sustainable Development. And we have seen a number of 
countries take leadership and strengthen their legal frameworks 
and develop national action plans to end child marriage.
    But this is not a problem that we can legislate our way out 
of. We need far, far more investments in programs as well. In 
this country, as has been mentioned before, we saw the launch 
earlier in the year of the U.S. Global Strategy to Empower 
Adolescent Girls. This strategy enshrines a commitment to 
girls' rights in U.S. foreign policy and assistance, bringing 
much-needed attention and, I hope, resources to the diverse and 
urgent needs of adolescent girls, including the right to choose 
if, when, and whom to marry.
    The U.S. is poised to be a leader in the fight to end child 
marriage and has already done so much towards this end, but I 
urge you to escalate this work to improve the lives of 
adolescent girls globally. So to that end, Chairman Rubio, if I 
may, I would like to respectfully make a few recommendations 
for some initial measures that you can take.
    First, please use the powers of Congress, of the purse, and 
of oversight to make sure the Global Strategy to Empower 
Adolescent Girls is robustly institutionalized and implemented. 
Do not let child marriage get lost in larger efforts to promote 
girls' health and education. Mandate regular progress reporting 
so that Congress and civil society know exactly what is being 
done to end child marriage and meet the needs of married girls, 
how successful these efforts have been, and where more 
investment is needed.
    And show your full support for this issue on the 
international stage by investing fully in achieving the target 
to end child marriage under the Sustainable Development Goals.
    Chairman Rubio, one of the most motivating things for me in 
my work is hearing the stories of girls who have actually been 
able to avoid marriage and are now fulfilling their potential 
and doing amazing things around the world. I do hope that you 
will join us in creating that positive world for girls all over 
the world.
    Thank you.
    [The prepared statement of Ms. Sundaram follows:]

                 Prepared Statement of Lakshmi Sundaram

    Chairman Rubio, Senator Boxer, and esteemed members of the 
committee; thank you for the invitation to provide testimony today. I 
am delighted that the Senate Foreign Relations Committee has decided to 
hold a hearing on the important issue of child marriage. As the 
Chairman alluded, I am Lakshmi Sundaram and I am the Executive Director 
of Girls Not Brides: The Global Partnership to End Child Marriage. We 
are a global civil society partnership bringing together over 600 
organisations from 80 countries dedicated to ending child marriage in 
our lifetime. Our members range from tiny community groups to large 
international NGOs, and include amazing organisations you have heard 
from before, such as the Kakenya Center for Excellence or World Vision. 
We are represented in the United States by our U.S. National 
Partnership, Girls Not Brides U.S.A.--who is here today and has been a 
tireless leader working with Congress and the Executive Branch to 
develop and cement U.S. leadership to end child marriage. The efforts 
of Senator Durbin and other champions merit recognition in that regard. 
And so before I begin my testimony I would like to commend to you the 
testimony that was submitted for the record by our U.S. National 
Partnership, which contains a comprehensive view of U.S. efforts on 
this issue to date and recommendations for future action, many of which 
I will highlight for you today.
    But first, for those of you who are married, I want you to think 
back to your wedding day. Hopefully, it was a day of joy and love and 
promise. Hopefully, it was a day that opened up new horizons and 
opportunities.
    For millions of girls around the world, their wedding day is the 
opposite. Rather than a joyous event, marriage is linked to dropping 
out of school and focusing on children and household chores; it 
represents a closing down of horizons.
                      how many girls are affected?
  <bullet> Approximately 15 million girls are married every year before 
        they reach 18 years.\1\ That is, approximately 41,000 every 
        day, or one girl every two seconds.
  <bullet> In the developing world, 1 in 3 girls is married by age 18, 
        and 1 in 9 is married by age 15, some as young as eight or 
        nine.\2\ And, while we lack reliable data for developed 
        countries, we know that the practice happens there too, 
        including in the U.S.
  <bullet> If there is no reduction in the practice, 1.2 billion women 
        will have married as children by 2050--that's the equivalent of 
        the entire population of India. These girls and women face 
        distinct challenges and need assistance so they, their children 
        and communities can thrive.
  <bullet> Child marriage affects boys too, but the overwhelming 
        majority of those who marry as children are girls, reflecting 
        the roots of gender inequality that drive the practice. It is 
        therefore fitting that this hearing is convened in the 
        subcommittee tasked with global women's issues.
                         where does it happen?
  <bullet> Child marriage is not linked to any specific region, 
        tradition, or religion. It happens all over the world. You 
        might be surprised to hear that, of the top ten countries with 
        the highest absolute number of girls married before 15, four 
        are in Africa, three in South Asia, one in East Asia/Pacific 
        and two in Latin America.
  <bullet> 45% of girls under age 18 are married in South Asia; 40% in 
        sub-Saharan Africa; 29% in Latin America and the Caribbean; 18% 
        in the Middle East and North Africa; and in Europe and North 
        America too.\3\
              what is the impact, and why does it happen?
    When a girl becomes a bride, the consequences are lifelong and 
devastating--for the girl, for her family and, indeed, for her nation. 
My colleague Dr. Suzanne Petroni will walk you through some of those 
macro-level impacts in her testimony. Child marriage is a gross human 
rights violation that deprives girls of their rights to health, 
education, freedom from violence and the right to choose if, when and 
whom to marry.
    Child marriage traps girls, their families and societies in a cycle 
of poverty, limits millions of girls from fulfilling their potential 
and leading happy, safe and productive lives. Child marriage spells 
disastrous effects for our shared goals of prosperity, maternal and 
child health, education and democracy. It means the end of school for 
girls, a lifetime of domestic servitude, increased risk of violence and 
sexually-transmitted infections like HIV, increased complications and 
even death in pregnancy and childbirth.
 child marriage is linked to maternal and child mortality and morbidity
  <bullet> Countries with high rates of child marriage typically have 
        high rates of maternal mortality. Investing in child marriage 
        could dramatically improve the health outcomes of both mothers 
        and babies.
  <bullet> Child brides are under intense social pressure to prove 
        their fertility, which makes them more likely to experience 
        early and frequent pregnancies.\4\
  <bullet> Early pregnancy endangers child brides' health because many 
        become pregnant before their bodies can safely carry or deliver 
        children.
  <bullet> Complications in pregnancy and childbirth are the second 
        leading cause of death in girls aged 15-19 globally.\5\
  <bullet> Child marriage is a major driver of adolescent births: 95% 
        of the world's births to adolescents occur in developing 
        countries and 90% of these births are to girls who are already 
        married.\6\
  <bullet> Furthermore 65% of all cases of obstetric fistula occur in 
        girls under the age of 18 resulting in long term physical, 
        emotional and psychological consequences for girls who go 
        untreated.\7\
  <bullet> Early childbearing also increases the risks to newborns. In 
        low and middle income countries, babies born to mothers under 
        20 years of age have a 50% higher risk of being stillborn or of 
        dying within the first few weeks of life than those born to 
        older women.
         child marriage undermines a child's right to education
  <bullet> Child marriage often denies children of school age their 
        right to the education they need for their personal 
        development, their preparation for adulthood, and their ability 
        to contribute to their family and community. Married girls who 
        would like to continue schooling may be both practically and 
        legally excluded from doing so.\8\
  <bullet> There is a complicated causal relationship between child 
        marriage and education, as child marriage is both a driver and 
        consequence of poor educational attainment.
  <bullet> Girls tend to drop out of school during the preparatory time 
        before marriage, or shortly afterwards when their marital and 
        domestic demands increase. For example, almost 30% of young 
        women who left secondary school before completion in Chad and 
        Nigeria cited early marriage as the main reason.\9\
  <bullet> Girls with higher levels of schooling are less likely to 
        marry as children. With half of the world's population under 
        the age of 25, educating youth is crucial to ensuring a 
        sustainable and prosperous future.
 child marriage is linked to poverty and impacts national productivity
  <bullet> Child marriage is most common in the world's poorest 
        countries and is often concentrated among the poorest 
        households. It is closely linked with low levels of economic 
        development.
  <bullet> Girls from poor families are nearly twice as likely to marry 
        before 18 as girls from wealthier families, as marriage is 
        often seen as a way to provide for a daughter's future.\10\ 
        However, girls who marry young are more likely to be poor and 
        remain poor.\11\
  <bullet> Girls who marry young do not receive the educational and 
        economic opportunities that help lift them out of poverty and 
        which are necessary to build a sustainable and prosperous 
        future for their communities and countries.\12\
         child marriage is linked to violence and hiv infection
  <bullet> Child brides have little say in whether, when or whom they 
        will marry. In many cases their husbands are much older.
  <bullet> Girls who marry before the age of 18 are more likely to 
        experience violence within marriage than girls who marry 
        later.\13\
  <bullet> Child marriage exposes girls to a high risk of violence 
        often from their partners or their partners' families. The 
        greater the age difference between girls and their husbands, 
        the more likely they are to experience intimate partner 
        violence.\14\
  <bullet> Women exposed to intimate partner violence are one and a 
        half times more likely to acquire HIV in regions with high HIV 
        prevalence.
   child marriage increases during humanitarian crises and conflicts
  <bullet> Growing evidence shows that in times of humanitarian crisis, 
        child marriage rates increase, with a disproportionate impact 
        on girls.\15\ Yet adolescent girls continue to be left behind 
        in humanitarian response efforts.
  <bullet> Seven out of the ten countries with the highest child 
        marriage rates are considered fragile states. We cannot ignore 
        child marriage in such contexts.\16\
  <bullet> Child marriage rates have increased in some crisis 
        situations. While gender inequality is a root cause of child 
        marriage in both stable and fragile contexts, often in times of 
        crisis, families see child marriage as a way to cope with 
        economic hardship exacerbated by crisis and to protect girls 
        from increased violence. But in reality, it results in a range 
        of harmful consequences.
  <bullet> For example, in Syrian refugee communities in Jordan, the 
        proportion of registered marriages for girls under 18 years has 
        rapidly increased. Between 2011 and 2014, the rates of 
        registered child marriages almost tripled, from 12% to just 
        under 32%.\17\ Protection of family honour and control of 
        girls' sexuality were major drivers of child marriage in this 
        context.\18\
  <bullet> Child marriage is not being adequately addressed in 
        situations of crisis. It is a cross-cutting issue which 
        requires coordinated action across all sectors from the 
        earliest stage of crises. More research is needed to understand 
        how different types of crises affect child marriage, how 
        programmes which tackle child marriage can be adapted for these 
        settings, and how child marriage can be integrated into 
        humanitarian response efforts. However, research must support 
        interventions to address child marriage, and the need for more 
        research should not be used as an excuse for inaction.

    What you may not know is why. Why, in the year 2016, do 15 million 
girls marry as children each year? It is important to remember that the 
vast majority of parents want to do what is best for their children. 
They love their daughters. There are many drivers of child marriage 
that vary significantly from one context to another:

  <bullet> First and foremost, gender inequality: child marriage 
        happens to girls because they are girls. Girls are accorded 
        little value in many societies. They are second-class citizens 
        or perhaps commodities to be bought, sold or exchanged in 
        marriage. It is because girls have less value than boys in 
        society, and outsize value is placed on her virginity.
  <bullet> Poverty: Where poverty is acute, parents may feel that 
        giving a daughter in marriage will reduce family expenses by 
        ensuring they have one less person to feed, clothe and educate. 
        In communities where a dowry or `bride price' is paid, it is 
        often welcome income for poor families.
  <bullet> Security: Many parents marry off their daughters young 
        because they feel it is in her best interest, often to ensure 
        her safety in areas where girls are at high risk of physical or 
        sexual assault. However, they do not realise the significant 
        violence she will encounter within marriage.
                  why should we tackle child marriage?
    Ensuring girls have the right to choose, if, when and whom to marry 
can create long term change for girls themselves, their families and 
their countries--and I'd argue it's one of the best returns on 
investment that you can hope for in your foreign assistance efforts.
    What's more, child marriage is at the heart of many of the 
challenges we want to overcome as an international community. It is a 
barrier to achieving many development goals, including those on poverty 
eradication, nutrition, health, education, gender equality, economic 
growth and reduction of inequality.
    Our efforts to reduce child and maternal mortality will be hindered 
as long as girls are giving birth as children. Our efforts to ensure 
every child can finish school undermined when in some communities more 
than 75% of girls have to leave to get married. Our efforts to end 
violence against women are held back as long as so many girls are 
trapped in marriages where they have no voice.

  <bullet> Investing in delayed marriage and childbearing is 
        recommended as a smart investment by the High Level Task Force 
        for the International Conference on Population and Development, 
        which will have ``high pay offs for improved wellbeing and 
        quality of life, poverty eradication, economic growth and 
        sustainable development, with multiplier and inter-generational 
        effects that will yield benefits for decades to come.'' \19\
  <bullet> The World Bank has highlighted that ``delays in marriage are 
        strongly associated with greater education, higher earnings and 
        health-seeking behaviour.'' \20\

    And addressing child marriage can be an entry point. It's also a 
way to address the more aspirational goal of ensuring equality for 
girls and women. By tackling child marriage, we are necessarily 
addressing the way that girls and women are viewed in society.
    We can break this cycle, because when a girl is able to avoid 
marriage as a child she is less likely to marry off her own daughters 
as children.
              so, what will it take to end child marriage?
    In 2014, over 150 experts, organisations and researchers came 
together to develop a global Theory of Change on child marriage, which 
identified four areas where we should focus our efforts to accelerate 
change:

  <bullet> Empower girls, and make them aware of--and able to 
        exercise--their rights and alternatives to marriage through 
        programmes that invest in girls.
  <bullet> Work with traditional leaders, fathers, boys, communities to 
        change the attitudes that devalue girls and hold them back. We 
        have seen interesting programmes working with Christian 
        priests, Muslim imams and Hindu clerics, as well as traditional 
        leaders, where they are now champions for change.
  <bullet> Provide services, like education, legal and health services, 
        both through government and civil society.
  <bullet> Enact and enforce effective laws and policies that put in 
        place a minimum age of marriage at 18 and don't allow loopholes 
        for traditional or customary laws, and make sure these laws are 
        enforced.
                          where are we today?
    In the past few years, there has been unprecedented global action 
to end child marriage, notably:

  <bullet> New global and regional commitments: Child marriage was 
        included as a global development priority in target 5.3 of the 
        Sustainable Development Goals. Resolutions at the U.N. General 
        Assembly and Human Rights Council have mobilised political 
        support and strengthened the global normative framework. Other 
        regional and intergovernmental bodies, including the African 
        Union and the South Asian Association for Regional Cooperation, 
        have set out plans of action to end child marriage.
  <bullet> Strengthened legal and policy frameworks: National 
        strategies have been developed or are being developed in at 
        least 14 countries. Many countries have also taken steps to 
        strengthen their laws to address child marriage and put in 
        place a minimum age of 18. I would encourage the U.S. to follow 
        suit. Currently, in every American state, children under the 
        age of 18 can marry.
  <bullet> But we cannot legislate our way out of this practice. Urgent 
        and sustained investment is needed to support new programmes: 
        the number of programmes addressing child marriage has grown 
        dramatically, with increased action from international NGOs, 
        community based organisations and many others. UNICEF and UNFPA 
        have launched a new Global Programme to Accelerate Action to 
        End Child Marriage in 12 countries. Yet this represents just a 
        fraction of what is needed. The U.S. has been a leader in many 
        regards, although it is unclear how much money you have 
        actually invested to end the practice and meet the needs of 
        married girls.
  <bullet> Earlier this year Secretary of State John Kerry released the 
        U.S. Global Strategy to Empower Adolescent Girls, the first 
        foreign policy in the world geared toward protecting the rights 
        of, and providing pathways of opportunity for, adolescent 
        girls. This strategy enshrines a commitment to girls' rights in 
        U.S. foreign policy and assistance, bringing much-needed 
        attention--and I hope, resources--to the diverse and urgent 
        needs of adolescent girls, including the right to choose if, 
        when and whom to marry. The release of this strategy marked the 
        culmination of years of intense work by those in government and 
        civil society, including Girls Not Brides U.S.A., to shape 
        foreign policy and foreign assistance around the needs of 
        girls. This is a great accomplishment.

    But releasing a strategy and living the spirit of it are two 
different things. As much as we want to point to the strategy as an 
triumph in and of itself, the real, critical issue is how robustly it 
is institutionalized and implemented--and that is where Congress can 
help. I urge you to use your powers--of the purse, and of oversight--to 
ensure this important piece of foreign policy is not just words on 
paper, but truly directs the diplomatic and development might of the 
U.S. to transform girls' lives. I hope you will work with whoever comes 
into office next year to ensure that child brides and those at risk of 
marriage will not be left behind.
    The U.S. is poised to be a leader in the fight to end child 
marriage and has already done so much toward this end, but I urge you 
to escalate this work to improve the lives of adolescent girls 
globally. Through U.S. foreign assistance, your leadership and 
influence both bilaterally and in multilateral arenas, and through the 
strength of Congressional action, I respectfully recommend the U.S. 
take three initial measures to end child marriage:

    1. Ensure U.S. commitments to end child marriage are honoured by 
giving those efforts the full force of the U.S. government, in terms of 
policies, programmes and, of course, funding;
    2. Don't let child marriage get lost in larger efforts to promote 
girls' health and education. Mandate regular progress reporting so that 
Congress and civil society know exactly what is being done to end child 
marriage and meet the needs of married girls, how successful those 
efforts have been, and where more investment is needed; and,
    3. Show your full support for this issue on the international stage 
by investing fully in achieving the target to end child marriage under 
the Sustainable Development Goals.
                               conclusion
    Chairman Rubio, Senator Boxer and members of the committee, I 
thought I would end with a more personal story. It is the story of 
Laxmi Sargara, an 18 year-old girl from Rajasthan, India. Laxmi was 
married when she was just one year old, to a boy named Rakesh who 
himself was only three. She knew nothing of this betrothal until the 
moment, 17 years later, when her parents announced that the time had 
come to leave home and live with her husband. Laxmi was upset because 
this was not the future she wanted.
    Laxmi's story stands out for me, not only because she has the same 
name as me, but because she did something remarkable. In what is 
thought to be the first case of its kind in India, Laxmi turned to the 
courts and had her marriage annulled. Laxmi is a disruptive woman who 
was brave enough to stand up against a centuries-old tradition, 
determined to build a brighter future for herself.
    If I had been born in a different context, Laxmi's fate may have 
been mine. Indeed, child marriage may have been the future facing my 
own rambunctious two year old daughter. In the work that I do, I am 
grateful every day that I was spared the experiences of girls like 
Laxmi. And I hope we can work together to ensure that we end this 
practice for girls everywhere.
    Thank you.


----------------
Notes

    \1\ UNICEF, Ending Child Marriage: Progress and Prospects, 2014
    \2\ UNICEF, Progress for Children: A report card on adolescents, 
2012
    \3\ UNICEF, The State of the World's Children, Table 9: Child 
Protection, 2015
    \4\ Levine, R., Lloyd, C., Greene, M., & Grown, C., Girls Count: A 
Global Investment and Action Agenda, Center for Global Development, 
2008
    \5\ WHO, Adolescent Pregnancy Fact Sheet, No.364, September 2014
    \6\ UNFPA, Motherhood in Childhood, 2013
    \7\ WHO, Fact Sheet, Why is giving special attention to adolescents 
important in achieving the millennium development goals? 2008 available 
at; http://www.wiredhealthresources.net/resources/NA/WHO-
FS_PregnancyAdolescent.pdf
    \8\ UNICEF, Early Marriage: Child Spouses, UNICEF Innocenti 
Research Centre, 2001
    \9\ Lloyd and Mensch, `Marriage and childbirth as factors in school 
exit: an analysis of DHS data from sub-Saharan Africa', Population 
Studies, 62(1): 1-13, 2008
    \10\ International Center for Research on Women, How to End Child 
Marriage: Action Strategies for Prevention and Protection, 2007
    \11\ International Center for Research on Women, Child Marriage 
Factsheets: Child Marriage and Poverty, 2007
    \12\ IPPF and the Forum on Marriage and the Rights of Women and 
Girls, Ending child marriage: a guide for global policy action, 2006; 
International Center for Research on Women, Too Young to Wed: Education 
& Action towards Ending Child Marriage: Seeking Policy Solutions, 2005
    \13\ Kishor, S. & Johnson, K., Profiling Domestic Violence--A 
Multi-Country Study, ORC Macro, Calverton, Maryland, 2004
    \14\ UNICEF, Hidden in Plain Sight: A Statistical Analysis of 
Violence against Children, 2014
    \15\ See Girls Not Brides list of useful resources on child 
marriage in humanitarian crises.
    \16\ Niger, Central African Republic, Chad, Mali, South Sudan, 
Guinea and Bangladesh are listed as fragile states as defined by OECD. 
See definition in States of Fragility 2015: meeting post-2015 
ambitions. Revised edition, 2015.
    \17\ UNICEF, A Study on Early Marriage in Jordan, 2014.
    \18\ Op.cit. CARE U.K., To Protect Her Honour: child marriage in 
emergencies, the fatal confusion between protecting girls and sexual 
violence, 2015.
    \19\ High Level Task Force for ICPD, `Smart Investments for 
Financing the Post 2015 Development Agenda', January 2015, available 
at; http://icpdtaskforce.org/wp-content/uploads/2015/01/
FinancingBriefSmartInvestments2015.pdf
    \20\ World Bank, World Development Report, Gender Equality and 
Development, 2012

    Senator Rubio. Thank you, and thank you for your testimony. 
It is why we are here today, to try to figure out the way 
forward both in our existing programs--I mean, the purpose of 
these hearings are three-fold. One, to call attention to the 
fact that this is happening. It gets lost in the broader 
stories about everything else that is going on in the world. 
The second is to look at what we are doing and make sure it is 
efficient in terms of dollars. And the third is are they 
actually programs that work.
    So let me start out with the first part, a question for 
both of you. Part of the issue here in both your testimony and 
what I have heard here today as well is the decision-makers in 
these cases are not the girls. The decision-makers are often 
either their families and/or the community or religious 
leaders.
    Number one, how do you influence what programs--what is a 
realistic and positive way to influence better decision-making 
by families and religious leaders, and are there examples of 
programs that have been successful at doing that anywhere in 
the world?
    Anyone can go first.
    Dr. Petroni. So, as I said, based on the evidence that we 
have seen in many contexts, you are absolutely right, it is the 
parents, it is religious leaders and community leaders who are 
driving that decision in the context where girls are not 
valued. There are some excellent examples out there where 
educating and rallying and engaging these adults have been 
successful once they understand the harms that child marriage 
can pose to the girl herself, as well as to their family and 
their community in terms of health outcomes, educational 
outcomes, economic outcomes. They can be very powerfully 
engaged in ending that practice.
    So there are very good examples from Senegal, from India 
where adults are leading the charge, religious leaders are 
leading the charge, parents are leading the charge for girls' 
education against child marriage that we can certainly emulate 
and expand.
    Senator Rubio. But are those programs that happened 
internally that they took upon themselves, or did someone help 
prod them, move them, resource them?
    Dr. Petroni. I think there is a combination of factors. I 
mean, there are some parents, fathers of daughters like 
yourself, who recognize that their daughters have value beyond 
just being a wife and a mother; their daughters should be 
educated, their daughters should be engaged in communities. 
Look at Malala as a terrific example. Her father was and still 
is a tremendous leader in ensuring that she was able to 
continue her education.
    At the same time, programs, including those supported by 
the U.S., have been very helpful in identifying for community 
leaders some of the challenges that can be faced if girls marry 
and helping parents to understand that there are alternatives.
    So I think we have seen a combination of efforts, and we 
certainly have not seen enough at scale to make the type of 
change that we need to.
    Ms. Sundaram. And if I could just add quickly to that, when 
we look at the membership of Girls Not Brides, a number of the 
organizations who we work with were set up either by former 
child brides or people who saw maybe their sister get married 
who are from the communities and who work directly with some of 
the decision-makers to help create that understanding of the 
negative impact.
    One of the things that has actually led to the creation of 
Girls Not Brides was that many of these efforts were taking 
place in isolation, and we have been trying through our work to 
create a platform where people can learn from one another, 
because the types of discussions that you need to foster are 
often the same whether it is in rural Pakistan or rural 
Cameroon or in Brazil, and actually finding a way to share what 
works, how it needs to be done, how it can be scaled up, is 
incredibly important.
    Senator Rubio. Can I just ask, is this largely a rural 
phenomenon, or do you find it even in large urban areas? In 
terms of around the world, do you see it everywhere where there 
are these characteristics?
    Ms. Sundaram. It really depends on the country. It 
definitely happens a lot in the rural areas, but it can also be 
seen very much as a coping mechanism in urban settings, 
particularly in areas where there is a high risk of violence to 
girls.
    Senator Rubio. The second question I have for both of you 
is along the lines of what I asked earlier, and that at the 
government end. We interact with a lot of these governments, 
and in many cases not just government but regional or local 
governments who have even more of an influence than the 
national government might have on an issue like this. I 
imagine, in my view or from what I have read, that they come in 
three strains. There are governments that actually think this 
is a priority and want to do something about it. There are 
governments who say this is a priority but it is not a priority 
for them in terms of action. And then there are those 
governments who, quite frankly, have accepted this as part of 
who they are, and even if some of them might be embarrassed by 
it, it is just not something they have time and interest, and 
maybe culturally think this is fine.
    Is that an accurate characterization of the governments we 
are interacting with, to the extent we are talking about places 
that have governments? In some cases there might be some 
ungoverned spaces. But is this the experience we have had, 
depending on the country, that you get varying degrees of 
cooperation and/or hostility from governments?
    Ms. Sundaram. Sure, yes. And actually, our members in a 
number of countries have come together to form national 
partnerships, just like in Girls Not Brides USA. There are 
Girls Not Brides Nepal or Girls Not Brides Zambia and in other 
countries.
    But one thing that our members find a lot is that when they 
work with government and when they have a progressive 
government that is actually interested in addressing this 
issue, there is a lot of openness to creating a national 
strategy, a national action plan, but often these governments--
take the case of Nepal that has developed a national action 
plan on child marriage--they do not have the resources to 
actually really implement that plan in any deep way because 
they have been facing so many other problems as well.
    So even in governments where there is a huge will, they 
need increased support from foreign friends, and this is where 
I think the United States could really play an incredibly 
important role.
    In some other countries, I think having the United States 
ask about what is going on within their country and how they 
are addressing child marriage is something that could also be 
incredibly helpful, because it highlights that talking about 
child marriage, talking about issues affecting girls is not 
just some nice-to-have thing in the ghetto of the women's 
ministry but is actually an issue that is of great interest to 
a foreign policy behemoth like the United States.
    Dr. Petroni. I can add that you heard from Ambassador 
Russell and Assistant Secretary Richard about the same point, 
that when they do raise in diplomatic discussions this issue 
with governments, it helps to draw their attention to it.
    We also have the State Department Human Rights Reports 
which now report on child marriage in each country, and that 
raises the level of diplomatic engagement and attention by 
governments to this issue.
    One of the things that we are trying to do to get some of 
those governments that are not yet on board with this is to 
help them understand the economic impacts of child marriage. So 
ICRW is working in collaboration with the World Bank to do a 
rigorous assessment of the economic costs of the practice with 
the idea that we know the health-related costs, we know the 
human rights challenges, we know the education outcomes for 
child brides. That gets us only so far, unfortunately, with 
some of those governments that are not as attuned to the issue.
    If we can share with them the economic impacts that the 
high prevalence of child marriage has not only at the level of 
the girl and the household but on up to the national level, and 
if we can help them understand that ending child marriage will 
save them literally billions and billions of dollars, that may 
help increase some of those finances that are needed to 
implement programs to end the practice.
    Senator Rubio. When I heard that and I did not have a 
chance to follow up, I understand how interacting with a 
diplomat from one of these countries, the diplomat might be 
embarrassed and say, yes, this is bad, because these diplomats 
travel the world, they are worldly and probably highly educated 
and exposed to the West and beyond the world. My concern is 
more those countries where, at the regional or local level, 
there really just is not a commitment, and really, quite 
frankly, an acceptance and/or perhaps even participation by 
some of these government officials in some of this. That is the 
point I am trying to drive. There are governments in the world 
who at least at the place where policy is truly driven and 
implemented, not discussed at an international forum but 
actually driven on the ground by the local police department, 
the local municipal authority and beyond, this is not only not 
an issue but, in fact, to them, this is none of our business, 
and this is the way things have been, and this is the way 
things are and so forth.
    Is that a fact? There are places where at their regional, 
local, and perhaps even at the national level, the policymakers 
who are implementing these things do not view it--would look at 
this conversation here today and strongly disagree. Am I 
accurate in stating that? And, if so, are you comfortable 
telling us who some of these places are?
    Ms. Sundaram. That is why just putting in place laws is not 
enough. It is not just a legislative fix. In a number of places 
there has been increasing amounts of work in working with a 
wide variety of actors. So parliamentarians, for instance, are 
getting together to really try and see what they can do to 
change the practice.
    But it is also about working on educating police 
departments and local and regional decision-makers so that they 
also see their role within addressing the challenge. It cannot, 
as you say, just be at the national level. That interest in 
tackling the issue is something that has to come down, and that 
is where it is really important to have that combination of 
local and national civil society pushing the decision-makers to 
really show this is not a concern that is coming from the 
outside, that is coming from the West, but that is really 
coming from the people who are most affected by it, with the 
enabling environment and the support that is coming from 
external countries.
    We are seeing change in a number of countries where five 
years ago, it was completely taboo to talk about child marriage 
in any sort of national, regional, international context. Last 
year there was at the African Union a big summit of heads of 
state. Some of the countries have been vying with one another 
to see--it is almost like a little competition of who can 
actually put in place a national strategy, who is making 
commitments to address child marriage, but it is not enough. 
There is still a huge amount to be done, but even starting to 
get that change of mindset in the heads of government is 
something that is a really good step in the right direction.
    Senator Rubio. Just my view. I have known of and have seen 
cases of local governments and regional governments in parts of 
the world that will not investigate rape charges. They just 
will not do it. They ignore it. They laugh about it. They 
sometimes insinuate that it is not a big deal or perhaps it was 
not rape at all. If that is how they feel about that, getting 
them to prioritize and actually do something about child 
marriage at that level of government I would imagine is a heavy 
lift. And I am not arguing that we should not try or do 
something about it. But ultimately it goes back to the argument 
you made in that these programs are important. We want to make 
sure which are the ones that work. But there has got to be a 
change in government culture in these places and leadership 
culture to actually view this as something that is wrong, not 
just that it is the way things have been done for a thousand 
years and that is how we are going to keep doing it.
    Dr. Petroni. You are absolutely right on that point. This 
is a challenge I think Ambassador Russell said. There is no one 
single solution to this challenge. We have to tackle it at 
different levels and in different ways. Certainly, getting the 
engagement at the national level is critical, and we are doing 
that increasingly and seeing some amazing examples out there. I 
think you mentioned Nepal and Zambia. Those are two tremendous 
leaders at the national level, and they are using that 
leadership to then work down through the regional and community 
levels.
    But at the same time, that engagement from the community on 
up is critical. So this is where the diplomacy and development 
connection is really important. We need the State Department to 
continue engaging at that high level, and we need USAID and 
other programs, the Peace Corps, Millennium Challenge 
Corporation, to work at the community level and to support 
those local organizations and local leaders who are willing to 
make change in various ways.
    Senator Rubio. Which brings me to my last point, and I hope 
that we can end on a high note here, and that is one of the 
best ways I think to achieve these goals, as you have argued, 
is to convince leaders that this is not just the right thing to 
do but that it is actually good for your country. So we would 
want to point to examples of places that have made these 
changes and as a result can point to economic progress, a more 
stable society, better governance, things that are good for 
everyone.
    I think you just mentioned one or two, but could you just--
let us just reiterate for the record the one or two countries, 
or more, hopefully, that are great examples in terms of the 
steps they have taken and the trajectory that they are on in 
terms of addressing this, and perhaps even eliminating child 
marriage in the context they are facing. Where is the good 
news?
    Ms. Sundaram. There is good news in a number of places, but 
we are still very much at the early stage of this work. So in 
countries like, as we said, Nepal and Zambia, there has been a 
huge amount of work that has already started. We are seeing 
change in the lives of individual girls, but we still need that 
great expansion of work to see a nationwide change. In places 
like Ethiopia, we have seen programs that have been taken from 
addressing the needs of a few hundred girls to now addressing 
the needs of a few thousand girls. That is incredibly 
important, and that has had a huge impact, but it is still not 
enough to meet the scale of the problem.
    So until we actually are able to massively scale up the 
work that is going on and that is showing promise, it is going 
to take a really long time to get to that answer of which 
country has been able to eliminate child marriage, because we 
know it can be done, and we have seen it happen in small 
pockets, but for it to happen at that nationwide scale we 
really need that massive increase in investment, in political 
support, and in policies.
    Dr. Petroni. I completely agree with Lakshmi. I would just 
add that this is a challenge that can be overcome, but it will 
take some time. We like to say--Girls Not Brides has this 
phrase that child marriage can be overcome within a generation. 
It will likely take that long. This is a practice that is 
deeply entrenched. It has existed for centuries, for millennia, 
and we have seen some tremendous examples of positive change--
Nepal, Zambia, Ethiopia. In Malawi, the latest figures are 
looking very promising. The more investment, the more 
attention, the more focused attention on advancing the rights 
of girls that we have in these countries, the multi-layered 
approaches that we implement, and the diplomacy, the continued 
discussions can help us overcome this challenge.
    Senator Rubio. Well, I want to thank both of you for being 
a part of that, for your testimony, both oral and in writing, 
for your time, and for your work and advocacy on this.
    The record on this hearing is going to remain open for 48 
hours.
    By the way, without objection, I want to submit for the 
record testimony provided by several other non-governmental 
organizations who are working on this issue.
    Senator Rubio. Again, I want to thank both of you for being 
involved. There might be some questions from members, even 
those who did not attend. To the extent possible, I ask that 
you get those, because this all becomes part of the record that 
could ultimately be in the future part of justifying or 
supporting legislation and/or correspondence on behalf of the 
Senate on this issue.
    I hope we will be able to revisit this again in a few 
months as we get into the funding cycles once again and really 
hope to incentivize resources towards not just spending so we 
can say we spent money on a line item called preventing child 
marriage but, in fact, on programs that are functioning and 
working that we can prove results, because it allows us to 
replicate that in other places and, quite frankly, convince our 
colleagues to continue to prioritize it.
    So again, I thank you both for being a part of this.
    And with that, this hearing is adjourned.
    [Whereupon, at 11:03 a.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


          Responses of Ambassador Cathy Russell to Questions 
                    Submitted by Senator Marco Rubio

    Question. Given that child marriage is a global issue which is 
prevalent even in our own Hemisphere, how does the U.S. handle cases in 
which a ``married'' couple applies for visas and one of the individuals 
is a minor? Do we recognize these unions as legal? Are U.S. consular 
officers given guidance in this regard? Are there channels whereby a 
girl can appeal for asylum or some other protected status should she 
find herself in this situation?

    Answer. In the context of immigration law, the marriage law in the 
place of the marriage celebration determines marriage validity. If the 
marriage complies with and is recognized by the place of celebration's 
law, then the U.S. Department of State typically deems the marriage 
valid for immigration purposes. However, there are exceptions. For 
example, for immigration purposes, the Department does not recognize 
marriages considered void under state law as contrary to public policy, 
such as polygamous or incestuous marriages, even if legal in the place 
of marriage celebration. In the case of a minor whose marriage is valid 
where it was celebrated, a consular officer refers to the law of the 
state in which the immigrant intends to reside to determine whether the 
marriage is considered void under state law as contrary to public 
policy. The legal minimum marriage age varies state by state. In cases 
where a consular officer suspects marriage invalidity for immigration 
purposes, the officer is instructed to contact the Department for 
guidance.
    We provide beneficiaries of an immigrant visa based on marriage 
with the International Marriage Brokers Act (IMBRA) pamphlet, which 
includes information about domestic violence, immigrant spouses' rights 
in the United States, and available resources for victims. The Bureau 
of Consular Affairs' website, www.travel.state.gov, dedicates a page to 
forced marriage, which explains victims' rights and provides links to 
advocates. Please contact the Department of Homeland Security for 
information on the availability of asylum or other protected status in 
these cases.

    Question. Many NGOs who work on this issue note that while child 
marriage is viewed as one of the forms of gender-based violence, U.S. 
Government programming on the issue has been sporadic at best. What 
programs are the U.S. currently implementing, and how much are we 
currently spending per year, on programs designed *specifically* to 
address child marriage and in which countries?

    Answer. The United States is taking a whole-of-government approach 
to addressing child, early and forced marriage (CEFM) and has 
undertaken several key actions to combat this practice across a broad 
range of government agencies. The Department of State, USAID, the Peace 
Corps, and the Millennium Challenge Corporation joined together to 
release and implement the U.S. Global Strategy to Empower Adolescent 
Girls in March of 2016, and that strategy places a strong emphasis on 
addressing CEFM and other forms of gender-based violence, in addition 
to the efforts already underway to address CEFM under the U.S. Strategy 
to Prevent and Respond to Gender-based Violence Globally and the U.S. 
National Action Plan on Women, Peace and Security.
    The Department of State's implementation plan for the U.S. Global 
Strategy to Empower Adolescent Girls Globally includes three specific 
objectives that the Department has prioritized, one of which is 
addressing CEFM. Enhancing and expanding comprehensive programs to 
empower adolescent girls is among the set of approaches that we are 
adopting in pursuit of this objective, along with diplomacy, public 
engagement, coordination, and integrating a focus on adolescent girls 
throughout the Department's operating structure. The Department has a 
number of programs in place to address CEFM in conflict affected and 
fragile states:

  <bullet> In November 2015, the White House announced that the 
        Department would undertake a new $1,500,000 effort in one or 
        more of Syria's neighboring countries impacted by the Syrian 
        refugee crisis to help prevent and respond to CEFM. Activities 
        will focus on increasing awareness of the benefits of delaying 
        marriage for both girls and their communities, countering the 
        perception that CEFM is a way to protect girls, and 
        underscoring the value of continuing access to education for 
        adolescent girls. Efforts will also aim to reach already 
        married girls with services, to support civil society 
        organizations working to protect at-risk girls, and to broaden 
        protection laws to support women and their children.
  <bullet> In March 2016, Secretary Kerry announced $7 million in 
        programming to empower adolescent girls in Afghanistan, where 
        the Department of State will fund efforts to change perceptions 
        about CEFM at the district and community level through grants 
        for girls to go to school and support for counseling, networks 
        for girls, and training on life and vocational skills.
  <bullet> Ensuring that girls stay in school and have continued access 
        to quality education are two effective ways of preventing CEFM. 
        The United States invests in education for refugees and host 
        communities through humanitarian and development assistance to 
        international and non-governmental organizations. As part of 
        the Leader's Summit on Refugees, the United States provided 
        nearly $37 million to UNHCR and $15 million to UNICEF to fill 
        funding gaps for refugee education through the end of 2016 and 
        to help reach our goal of one million more refugees in school.

    USAID invests in both research to expand our knowledge on effective 
interventions to prevent CEFM and programs to address the needs of 
married adolescents in regions where the practice is most prevalent. 
Guided by rigorous project evaluations and the latest research 
findings, USAID's interventions include promoting girls' education, 
supporting married children, strengthening the enactment and 
enforcement of laws and policies that delay marriage, and building 
community outreach efforts to shift attitudes that perpetuate the 
practice.
    In FY 2015, USAID doubled its investment to more than $10,000,000 
to prevent CEFM and support married children, building on decades of 
engagement on these issues, including addressing the needs of more than 
50 million girls and boys who are already married but have limited 
access to education, health services and economic opportunities. 
Although addressing CEFM globally, USAID has funded projects in 
Afghanistan, Bangladesh, Burkina Faso, Cameroon, Cote d'Ivoire, the 
Democratic Republic of the Congo, Ethiopia, Jordan, Kenya, Malawi, 
Mali, Mozambique, Nepal, Nigeria, Pakistan, Rwanda, Senegal, South 
Africa, Tanzania, and Uganda.

  <bullet> The USAID Vision for Action to Ending Child Marriage & 
        Meeting the Needs of Married Children provided health care and 
        access to education to married children and adolescents and 
        educated students, teachers, parents, and community leaders, 
        through programs including the Zero Tolerance-GBV-Free Schools 
        In Nepal Program, focusing on the importance of delaying 
        marriage and the harmful effects of CEFM.
  <bullet> USAID also conducted research to study the effectiveness of 
        programs to delay CEFM in Ethiopia, Tanzania, and Burkina Faso. 
        Data on the impact of programs in Tanzania and Ethiopia were 
        shared through a global dissemination of results (http://
        www.popcouncil.org/research/building-an-evidence-base-to-delay-
        marriage-in-sub-saharan-africa) in the fall of 2015.

    In addition, in September 2015 USAID released a resource guide on 
preventing and responding to CEFM. This resource guide provides 
information on how partners and USAID sectors, missions, and staff can 
integrate CEFM prevention and response into their programming. USAID 
will continue to work in partnership with lawmakers, international 
organizations, the private sector, and change agents at the national, 
local, and community levels to address the practice of CEFM.

    Question. How is the U.S. explicitly integrating prevention of 
child marriage and assistance to married children into U.S. support for 
programming in the areas of education, health, law reform and law 
enforcement, and local governance?

    Answer. CEFM occurs in response to a range of complex and 
interrelated factors, including lack of education, poverty, and 
discriminatory gender norms and legal and policy frameworks. 
Consequently, the evidence that we have seen suggests that this issue 
cannot be addressed through any one particular approach--there is no 
magic bullet--but is instead most effectively addressed through 
holistic, multi-sectoral interventions which aim to tackle the multiple 
drivers of the practice. Accordingly the United States is addressing 
CEFM both through targeted programs, as well as integrating it as a 
focus of our broader foreign assistance programs across a range of 
sectors.
    This includes engaging with communities and traditional leaders to 
change cultural norms; efforts to address household poverty and 
overcome the costs of schooling; working to improve the availability 
and quality of education and making schools safe and girl-friendly; 
providing skills and services directly to girls--especially married 
girls--to make them aware of the options and opportunities that are 
available to them, improve their self-confidence, and raise their 
aspirations for their lives; and working to ensure that the appropriate 
policy and legal frameworks are in place and are appropriately 
implemented and enforced.
    That is why we have adopted the approach that I have described in 
our Let Girls Learn Challenge Fund countries of Malawi, Tanzania, Nepal 
and Laos. We are designing and piloting comprehensive programs that 
incorporate all of these activities to ensure that girls are protected 
from CEFM and are able to attain a quality education that allows them 
to achieve their full potential. Through our work in these countries, 
we are engaging with host governments to identify areas where national 
legal and policy frameworks can be strengthened to promote the rights 
and empowerment of girls, including through improved implementation and 
awareness of the rights and protections adolescent girls are granted 
under the law, to include the prohibitions against CEFM. Our planned 
efforts in the Let Girls Learn Challenge Fund countries will also 
deliberately seek to work with local government officials and 
traditional and religious leaders to help them understand why CEFM is a 
threat to the health, well-being, and prosperity of everyone in their 
communities; improve local governance efforts around CEFM; and recruit 
these key stakeholders as allies in our work, thus promoting the 
sustainability and effectiveness of our investments.
    In addition, the United States invests in education for refugees 
and host communities through humanitarian and development assistance to 
international and non-governmental organizations. As part of the 
Leader's Summit on Refugees, the United States provided nearly $37 
million to UNHCR and $15 million to UNICEF to fill funding gaps for 
refugee education through the end of 2016 and to help reach our goal of 
one million more refugees in school. Our partners are committed to 
getting more refugee girls in school as we know that ensuring girls 
stay in school and have continued access to quality education are two 
effective ways of preventing CEFM.
    Globally, to address household poverty and empower women and girls 
to engage fully in their countries' economic growth, the Department of 
State recently launched the U.S. State Department Strategy for Women's 
Economic Development to assist the Department in creating greater 
economic independence and empowerment for women and girls across our 
foreign policy strategies and programs. In humanitarian contexts, Safe 
from the Start is an important initiative to build the capacity of the 
humanitarian system to reduce risk of gender-based violence (GBV), 
ensure quality services for survivors through timely and effective 
humanitarian action, and hold the humanitarian community accountable to 
a higher standard of addressing the risks faced by women and girls 
consistently in emergencies. It seeks to transform the international 
system for humanitarian response so that the needs of women, girls, and 
others affected by GBV, including CEFM, are a priority in emergencies.
    As part of the Department's implementation of the U.S. Strategy to 
Empower Girls Globally, we have also pledged to promote legal and 
policy frameworks that empower girls across all of our work, including 
through U.S. Department of State programs. Promoting the enactment of 
laws and broader awareness of laws to protect girls against CEFM is a 
key priority, and will become an even greater focus as the strategy 
continues to be implemented.
    The enforcement of laws against CEFM is something that must be 
approached thoughtfully and with great caution. At the extreme this 
could result in the criminalization of parents--who often marry their 
daughters in response to dire poverty and who may believe that they are 
acting in their child's best interests. This would ultimately 
exacerbate that driver for the rest of the family, including 
potentially increasing the rates of CEFM in that family to compensate 
for the loss of their income.
    That said, through both our programs and our diplomatic efforts, we 
are working to identify and stop officiants who perpetuate this 
practice and to deter local government officials from attending illegal 
marriage ceremonies, which has the effect of sanctioning these events. 
We are also working to support the efforts of high-level tribal leaders 
who annul marriages and hold accountable the lower-level tribal leaders 
that have allowed them to happen.
    The Department of State is funding projects in Afghanistan and 
Syria's neighboring countries that are specifically focused on 
addressing CEFM. The project in Afghanistan is just starting, but will 
engage with elders and religious leaders to prevent CEFM through 
awareness-raising on the negative health, economic and social 
consequences of this practice for both girls and their families. It 
also intends to raise their awareness of the customary, religious, 
traditional, and civic laws that protect the rights of children and 
protect them against CEFM. The project in Syria's neighboring countries 
will also work with communities, including local government officials 
and traditional and religious leaders, to counter the perception that 
early and forced marriage is a way to protect girls, and to underscore 
the value of continuing access to education for adolescent girls.

    Question. What are the next steps for implementing the U.S. Global 
Strategy to Empower Adolescent Girls? How will implementing agencies 
measure and report on progress?

    Answer. As outlined in the U.S. Global Strategy to Empower 
Adolescent Girls, an interagency working group will measure the 
progress of the implementation of the strategy. The working group, in 
consultation with the National Security Council, will meet regularly to 
coordinate the strategy's implementation. Additionally, implementing 
agencies will hold consultations with civil society to discuss ongoing 
efforts and preview future plans for implementation. These 
consultations will be an opportunity for civil society to continue to 
provide feedback and inform prospective implementation of the strategy.
    For the Department of State, the implementation of the U.S. Global 
Strategy to Empower Adolescent Girls will be led by the Secretary's 
Office of Global Women's Issues (S/GWI). Since the release of the 
strategy in March, S/GWI has worked to develop toolkits for our 
colleagues in embassies around the world that succinctly explain why 
the strategy was launched and what it intends to achieve, and outline 
the specific outcomes that the Department of State will pursue in its 
implementation of the strategy. Importantly, they also provide specific 
recommendations on the kinds of actions officers can take to advance 
the Department's implementation of the strategy and examples of what 
other embassies have done in this regard. These toolkits were recently 
soft launched to test their effectiveness and S/GWI is working to 
distribute the toolkits more broadly.
    In addition to the toolkits, S/GWI is also working to assemble 
existing tools and resources online for overseas diplomats and officers 
across the Department to highlight and address the challenges facing 
adolescent girls. We are integrating discussion of adolescent girls 
into ongoing gender working groups that will feed into the interagency 
working group outlined into the strategy. We have also begun to hold 
meetings with regional and functional bureaus to explain the intent of 
the strategy, discuss how the strategy is relevant to their work, and 
explore specific entry points for increased efforts to empower 
adolescent girls.
    The Department also educates diplomatic personnel on the U.S. 
Global Strategy to Empower Adolescent Girls--as well as the National 
Action Plan on Women, Peace and Security (NAP), the U.S. Strategy to 
Prevent and Respond to Gender-based Violence Globally, and other gender 
policies--through a devoted online and in-person course on gender 
equality and foreign policy at the Foreign Service Institute.
    The Department of State's implementation plan for the U.S. Global 
Strategy to Empower Adolescent Girls includes a number of illustrative 
indicators that embassies and bureaus can use to demonstrate and track 
their efforts to implement the strategy. S/GWI will integrate its 
request for information on the Department's implementation of the 
strategy into the ongoing annual reporting process already underway 
around efforts to advance women and girls' empowerment through the NAP 
and GBV Strategy.

    Question. Following the Girl Summit held in London in July 2014, 
the United Nations and donors have been encouraging countries with a 
high prevalence and/or high burden of child marriage to each develop a 
national action plan on how they will achieve the Sustainable 
Development Goal of ending child marriage by 2030.
    Could you describe how, and in which countries, the U.S. government 
is supporting the development of national action plans to end child 
marriage?
    Could you also describe how on the political level, the U.S. is 
encouraging countries with high rates of child marriage to make it a 
priority to develop and implement such a plan?

    Answer. The United States is an active proponent at United Nations 
and in other multilateral fora for resolutions condemning CEFM and 
calling on other states and stakeholders to address this practice. 
Department officials also raise the issue of CEFM, as appropriate, in 
meetings with government officials and in bilateral strategic 
dialogues. S/GWI in particular engages strategically with host 
government officials to intervene in cases where governments appear to 
be stagnating or even backsliding on this issue.
    The legal status of CEFM in most U.S. states complicates the 
efforts of the Department of State to promote the enactment of laws 
internationally establishing the minimum age of marriage. However, the 
Department's implementation plan for the U.S. Global Strategy to 
Empower Adolescent Girls outlines the intent to encourage governments 
to develop and implement strategies to prevent CEFM and address its 
consequences, including protecting girls who have already been married, 
and to offer policy collaboration and technical support as appropriate 
in supporting countries who have demonstrated political will to address 
CEFM.
    In developing and implementing the U.S. Global Strategy to Empower 
Adolescent Girls, the Department has worked closely with Girls Not 
Brides, a global partnership of more than 600 civil society 
organizations from over 80 countries committed to ending child 
marriage. That organization has developed a toolkit to help governments 
draft national action plans to address child marriage, and local civil 
society organizations that comprise its local chapters are working 
closely with governments, including those like Ghana and Mozambique, to 
help them develop such plans. Under the new strategy, the Department 
expects to continue to support the efforts of such local organizations 
and encourage governments to collaborate with them.
    Where legal frameworks exist against CEFM, the Department of State 
engages through programs, diplomacy, and public engagement to promote 
broader awareness of the laws that are in place. We find often that 
citizens of countries where CEFM is prohibited under the law are 
unaware that this practice is criminalized. Simply educating them on 
their rights and those of their children can be a powerful tool in 
deterring this practice.
    As outlined in the U.S. Global Strategy to Empower Adolescent Girls 
Globally, the United States believes that one of the best ways to 
address CEFM is to ensure girls stay in school. Under the Let Girls 
Learn initiative, the Department, along with interagency counterparts, 
has worked to secure a range of commitments from our international 
counterparts--including the United Kingdom, Korea, Japan, Canada, 
Mexico, Denmark, Norway, Sweden, Iceland, and Finland--to coordinate 
efforts and jointly support international diplomacy to improve girls' 
access to education and address the range of barriers that cause them 
to drop out of school, including CEFM. These commitments currently 
total $600 million dollars. Finally as part of our efforts in the Let 
Girls Challenge Fund countries of Malawi, Tanzania, Laos, and Nepal--
which were selected in part because of their high prevalence of CEFM, 
as well as the demonstrated political will to address these and other 
challenges faced by girls in their countries--the United States designs 
and implements holistic programs to empower adolescent girls, we are 
working closely with other international donors to ensure that our 
efforts are closely coordinated, are based on country-specific best 
practices, and achieve maximum geographic coverage.
    In addition, the United States remains actively involved in the 
Call to Action on Protection from Gender-based Violence in Emergencies 
(Call to Action), now lead by Sweden, including by encouraging States 
and other organizations that did not sign the communique to join the 
initiative. We are working hard to bring more partners, particularly 
governments, on board not only to join the Call to Action but also to 
make commitments in line with the Road Map in order to expand 
international coordination and prioritization of violence against women 
and girls, including CEFM.

    Question. I was the lead Senate sponsor of the Girls Count Act 
which seeks to address the lack of birth registry systems around the 
world that leaves approximately 51 million children annually without 
proper registration, most of whom are girls. Proof of birth verifies 
citizenship, nationality, parentage and age, which are critical to 
ensuring that children remain a part of society and do not fall victim 
to various forms of exploitation to include child marriage.
    This is now the law of the land. Can you please provide an update 
on its implementation?

    Answer. USAID will respond to this Question for the Record 
directly.

    Question. My understanding is that many civil society groups have 
made recommendations for improving responses when U.S. victims are 
taken abroad for forced marriages. Please share with the committee what 
further steps the Department of State has taken since that February 
2016 roundtable to better protect U.S. citizens from forced marriages 
abroad and to improve the Department's ability to respond when they are 
alerted to such cases, as well as to more closely and regularly 
coordinate with U.S. NGO stakeholders on these issues.

    Answer. To improve the Department's ability to respond to forced 
marriage cases, the Bureau of Consular Affairs' Overseas Citizens 
Services directorate (CA/OCS) expanded training opportunities for 
consular staff. CA/OCS offers a 3-day victim assistance course designed 
to equip consular staff with the skills needed to effectively assist 
victims of violent crime. Since January 2016, CA/OCS has incorporated 
new modules on support for victims of crime, including forced marriage, 
into the crime victim assistance course and other relevant training 
programs. Such training programs include the victim assistance courses 
in Dubai in January 2016 for Near East/South Central Asia region staff, 
as well as training conducted in Johannesburg in April 2016 for Africa 
region staff. The next overseas trainings will be offered in November 
2016 and February 2017. CA/OCS staff regularly consults with consular 
staff overseas who respond to these cases.
    CA/OCS also expands its reach to U.S. citizens who need assistance 
overseas through the creation of more customer-centric consular 
information products. CA/OCS works with stakeholders to make 
information available to the U.S. public more effective and user-
friendly. This includes information on forced marriage and other crime 
victim issues, travel safety, passport requirements, and additional 
consular topics.
    Given the complexity of forced marriage cases, consular staff 
tailor responses to individual cases. Factors that affect responses 
include: host country laws; availability and quality of local resources 
and support (e.g., shelters and shelter safety); local environment 
(e.g., the ease and efficacy with which victims can obtain help); 
logistics (e.g., a victim's distance from a U.S. embassy or consulate, 
law enforcement, etc.); a country's security environment; and other 
factors.
    CA/OCS values the critical work of foreign and domestic civil 
society groups in assisting victims of forced marriage, and will 
continue to work with them to provide the safest and most appropriate 
response to individual victims, and to discuss broader policy and 
resource issues.

    Question. In Pakistan, how would you describe the extent of the 
problem of forced marriage and conversion of Christian and Hindu girls 
particularly in the Sindh and Punjab regions? How is the U.S. 
government working with Pakistani counterparts to ensure Pakistan 
adheres to national and international legislation and agreements to 
protect children and to raise awareness among vulnerable communities 
who are targeted and victims of forced marriage of children?

    Answer. The Aurat Foundation, a non-governmental organization in 
Pakistan, estimates that there are 1,000 forced conversions of women 
and girls each year in the country, often as a result of forced 
marriage or bonded labor. The practice is an abuse of the rights of 
women and girls and we condemn it in no uncertain terms.
    We regularly engage with senior government officials on the 
importance of respect for religious freedom and human rights. We 
continue to urge the Government at all levels to protect religious 
minorities, bring the perpetrators of violence against religious 
minorities to justice, and fully implement the June 2014 Pakistani 
Supreme Court order on the rights of members of religious minorities 
under Pakistan's constitution and international commitments. We were 
encouraged when, on September 27, Pakistan's National Assembly 
unanimously passed a landmark bill giving the country's Hindu community 
the capability to register marriages for the first time. If enacted, 
the law has the potential to lessen the frequency of forced conversion 
of Hindu girls. The province of Sindh, where the majority of Pakistan's 
Hindus live, passed a similar law earlier this year.
    As in far too much of the world, Pakistani girls, including 
religious minorities, face a range of barriers that limit their 
opportunities to succeed, including gender-based violence. One of the 
most effective ways to overcome these barriers is by ensuring girls 
remain in school. Through the Administration's Let Girls Learn 
initiative in Pakistan, our Embassy in Islamabad is working closely 
with USAID to coordinate a comprehensive effort to help keep girls in 
school across the country, including by raising awareness of harmful 
and traditional practices and gender-based violence against women and 
girls. In May, the Embassy convened representatives from Sindh, Punjab, 
Balochistan, Khyber Pakhtunkhwa, Islamabad Capital Territory, the 
Federally Administered Tribal Areas (FATA), Azad Jammu and Kashmir, and 
Gilgit-Baltistan to discuss challenges to adolescent girls' education 
in Pakistan, steps currently being taken to overcome them, and areas to 
prioritize in supporting and promoting adolescent girls' empowerment 
and education. In the first phase of the comprehensive effort to help 
girls enroll and stay in school, Let Girls Learn will create a 
framework for the United States to engage Pakistani provinces and 
administrative areas on key barriers to girls' education, including 
gender-based violence.
    Our Bureau of International Narcotics and Law Enforcement Affairs 
(INL) is working to enhance the capacity of Pakistani women to preserve 
law and order, promote gender equality, and serve as role models in the 
justice system. INL-Pakistan (INL-P) employs a full-time gender advisor 
whose role is to design, coordinate, implement, and oversee INL-P's 
gender programming. Through its Gender Program, INL-P is working to 
improve the safety of women and girls by strengthening civilian law 
enforcement nationwide. According to Public Radio International, 
international women's organizations have long recognized the connection 
between increased women police officers and reducing violence against 
women, stopping rape, and preventing terrorism. INL programs are 
helping to strength the role of women police officers through training, 
infrastructure assistance and equipment, with over 900 women trained 
and over 1,100 pieces of equipment donated to date.
    In addition, INL recently signed an agreement with U.N. Women that 
will build the capacity of law enforcement, the justice sector, and 
social service providers to prevent and respond to violence against 
women in Balochistan, Sindh, and Punjab. INL-P is also supporting 
gender-sensitivity training as part of the overall human rights 
training for police, judges, and prosecutors in training academies.

    Question. South Asia has the highest prevalence rate of child 
marriage of any region in the world, with approximately 1 in 2 girls in 
the region married before the age of 18. The highest rates of child 
marriage in South Asia are in Bangladesh (52%), India (47%), Nepal 
(37%) and Afghanistan (33%). Can you please describe for us what 
actions the U.S. is taking in each of these four countries to help 
prioritize the eradication of child marriage?

    Answer. In South Asia, we have worked through U.S. diplomacy and 
programming to elevate and prioritize our engagement on CEFM. One of 
the most effective ways we can counter CEFM is by ensuring adolescent 
girls remain in school. Last month, President Obama announced Nepal's 
selection as a Challenge Fund country under the Let Girls Learn 
Initiative. Through the initiative, the Department of State will work 
with the Government of Nepal to ensure all girls have the opportunity 
to learn and thrive free from violence, coordinating closely with other 
Let Girls Learn partners--including USAID, the Peace Corps, and the 
Millennium Challenge Corporation--as well as the Department of Defense.
    In Nepal, we are also supporting a 3-year, $5 million collaborative 
effort with USAID and UNICEF through the Secretary's Full Participation 
Fund aimed at reducing the prevalence of school-related gender-based 
violence (GBV) and establishing child- and adolescent-friendly 
procedures to respond to incidents of GBV when they occur. Through 
training, mapping of services for GBV survivors, advocacy and awareness 
raising activities, school actors are gaining knowledge of the impact 
of GBV, including on CEFM and its legal and social consequences. This 
project is developing a systematic reporting and referral mechanism to 
monitor and respond to incidents of school-related GBV.
    The United States has raised the empowerment of adolescent girls as 
a key U.S. priority in India during several U.S.-India Strategic and 
Commercial Dialogues and Secretary Kerry's diplomatic outreach in 
India. We continue to urge the Government of India to reconvene the 
U.S.-India Women's Empowerment Dialogue, launched in 2009 to exchange 
lessons learned and best practices to address challenges facing women 
and girls, including CEFM, as one way to deepen our engagement and 
coordination on this key issue.
    In December, Embassy New Delhi will host a mission-wide training on 
gender integration with focus on preventing and responding to GBV, 
including CEFM. The training will provide mission staff with culturally 
specific, gender-sensitive strategies as well as tools and resources to 
address gender based violence through U.S. diplomacy and programs.
    Embassy New Delhi is partnering with Save the Children to combat 
GBV, including CEFM, in North India through a public advocacy caravan. 
The roadshow will travel to North India cities, stopping in each city 
for two days, and will be organized as part of a campaign to address 
the prevalence of GBV in this region. During each stop, a team of 
experts, working with local stakeholders and institutions, will hold a 
series of high-profile street plays, film screenings, and panel 
discussions.
    Since 2014, the Department of State has been in ongoing discussions 
with the Government of Bangladesh at all levels regarding its proposals 
to amend the Child Marriage Restraint Act to reduce its legal age of 
marriage. During the last U.S.-Bangladesh Partnership Dialogue in June, 
the Government of Bangladesh reaffirmed its commitment to uphold 18 as 
the legal age of marriage without exceptions. We will continue to 
engage with the government on its efforts to prevent and respond to 
early and forced marriage among other initiatives to foster women's 
empowerment and gender equality.
    The Public Affairs Section (PAS) elevates the status of women and 
girls in Bangladesh by offering cultural and educational programs and 
through federal assistance awards to civil society organizations 
working to promote women's rights. The American Center Girls' Club is 
the centerpiece of a female-focused engagement strategy that has nearly 
doubled the number of girls and young women ages 14 to 24 that benefit 
from PAS's educational and cultural programming, opportunities and 
resources. The club provides a safe space for girls and young women to 
exercise leadership, build confidence, recognize their value and power, 
and pursue academic and professional goals. With financial support from 
S/GWI's Full Participation Fund, PAS awarded a 2-year grant to the 
Bangladesh Legal Assistance and Services Trust (BLAST) to establish a 
mobile legal clinic that is increasing access to justice for young and 
working class women by focusing on divorce, maintenance, property and 
gender-based violence issues.
    The USAID program, ``Women and Girls Lead Global'' (www.WGLG.org) 
includes a Bangladesh specific campaign on Child Marriage and Girl's 
Education. Also, since its inception in 2011, USAID has supported the 
Protecting Human Rights (PHR) Program that has prevented more than 
1,300 child marriages in the program's working areas. The PHR has 
several activities planned to carry out should parliament pass a new 
Child Marriage Prohibition Act, 2015 replacing the Child Marriage 
Restraint Act, 1929. However, the PHR Program is scheduled to end in 
March 2017, so very little time remains to prepare.
    The United States has prioritized the promotion of gender equality 
and rights of women in all of our activities in Afghanistan. To this 
end, we support women's rights civil society organizations to develop 
their capacity to advocate for women's rights and to monitor the 
government's implementation of their rights. The Department also is 
advocating for the full implementation of the Law to Eliminate Violence 
Against Women (EVAW Law).
    One of our flagship programs is a new effort that was announced at 
the launch of the Adolescent Girl Strategy. In March 2016, Secretary 
Kerry announced $7 million for programming to empower adolescent girls 
in Afghanistan, where the Department of State will fund efforts to 
change perceptions about CEFM at the district and community level. The 
Afghanistan initiative will also increase adolescent girls' education 
through grants for girls to go to school and support for counseling, 
networks for girls, and training on life and vocational skills.

    Question. According to the NGO Girls Not Brides, Brazil ranks 
fourth in the world in highest absolute number of child marriages. 
Please describe how the U.S. government, working with our partners in 
the Western Hemisphere including countries like Brazil and Guatemala, 
is raising awareness among vulnerable communities who are targets for 
child marriage?

    Answer. According to UNICEF, Latin America and the Caribbean is the 
only region where CEFM is not declining. Girls are married or enter 
into informal unions for a variety of reasons, including because of 
traditional/indigenous practice, pregnancy, protection from violence, 
and poverty.
    Guatemala has one of the highest rates of CEFM in the Western 
Hemisphere. According to UNICEF, 30 percent of Guatemalan women 20 to 
24 years of age were first married or in union by age 18, and seven 
percent of them by 15 years of age. The practice is most common in 
indigenous, rural, and poorer populations and is particularly prevalent 
among Mayan communities, where rates of CEFM are as high as 40 percent. 
The minimum legal age for marriage in Guatemala is 18, and in November, 
the Guatemalan Congress eliminated a provision that previously allowed 
girls to marry at 14 and boys at 16 with parental consent.
    Brazil has the highest absolute number of girls who are married or 
in informal unions in the region. According to data from UNICEF, more 
than 11 percent of women age 20-24 were married or in informal unions 
before age 15, and 36 percent of women age 20-24 were married or 
informal unions before age 18. The legal minimum age of marriage in 
Brazil is 18 (age 16 with parental or legal representative consent). 
However, a recent study of this practice has highlighted that, in 
contrast to other regions, CEFM in Brazil often takes the form of 
informal unions rather than formal marriages. Girls are married for a 
variety of reasons including economic stability, early pregnancy, or 
lack of educational and economic opportunities.
    The Department of State and USAID address CEFM in the region 
through policy and programming engagements on the root causes of the 
practice. These include addressing poverty and gender-based violence, 
increasing access to education, and engaging vulnerable populations 
including indigenous and people of African descent. The Department 
utilizes the tools and resources of the interagency through the U.S. 
Global Strategy to Empower Adolescent Girls and the U.S. Strategy to 
Prevent and Respond to Gender-Based Violence Globally to share best 
practices with governments and ensure that women and adolescent girls 
in the Western Hemisphere can reach their full potential. The U.S. 
Strategy for Engagement in Central America aims to address GBV by 
increasing policing capacity, strengthening the judicial sector, 
assisting survivors, and facilitating enhanced messaging to increase 
public awareness of GBV and women's rights. Through the Secretary's 
Full Participation Fund, Embassy Brasilia is supporting a UNICEF 
project called ``Today a Girl, Tomorrow a Woman'' (Hoje Menina, Amanha 
Mulher) to empower adolescent girls and address issues that affect 
their lives such as violence and insecurity, health, and education. In 
Guatemala, USAID is supporting efforts through civil society to 
disseminate information about the recent law increasing Guatemala's 
marriage age to community leaders, parents, youth, judges, and mayors 
in rural areas.

    Question. In March, two Nigerian girls were kidnapped and subject 
to forced conversion and marriage in Northern Nigeria. Only after 
public outcry and unprecedented public pressure were they ultimately 
returned. Of course we've seen similar tactics employed by Boko Haram. 
Would you say this issue is prioritized in our dealings with the 
Nigerian government? In your view is the Nigerian government and its 
security forces taking sufficient steps to protect civilians, 
especially young girls, from this horrific human rights abuse?

    Answer. Through the U.S. government's Global Strategy to Empower 
Adolescent Girls, the Department prioritizes efforts to empower 
adolescent girls so that they are given opportunities to thrive, 
including in school. This is true for the Chibok girls, as well as the 
thousands of others affected and held by Boko Haram. We continue to 
engage and support Nigerian efforts to liberate hundreds of women and 
children forced into marriage, indoctrinated, and impoverished by Boko 
Haram. The United States, through USAID's Office of U.S. Foreign 
Disaster Assistance (USAID/OFDA), provides life-saving protection 
services--including health care, livelihoods assistance, and 
psychosocial support--for displaced women and girls in northeastern 
Nigeria, particularly survivors of gender-based and those released by 
Boko Haram. We have also provided trauma counseling and essential 
humanitarian aid to refugees, internally displaced persons, and other 
populations of concern affected by this conflict in Cameroon, Chad, and 
Niger, as well.
    During my recent visit to Abuja in August, I met with the leaders 
of the #BringBackOurGirls Campaign, who are anxious for the Chibok 
girls to be returned. We expressed concerns that the International 
organizations are doing their best to assist, but the level of 
humanitarian need remains extremely high and insecurity complicates aid 
delivery. The U.N. is in the process of rapidly scaling up its 
response; turning this situation around will require the urgent and 
robust collective efforts of the Government of Nigeria and the 
international community.
    The Nigerian Defense Headquarters inaugurated a Defense Advisory 
Committee on Human Rights to monitor and investigate allegations of 
human rights abuses within the military. While these efforts appear to 
still be in the very early stages, they are steps in the right 
direction, we have advocated in addition to the effort outlined above, 
a nuanced and sustained communication strategy by the Government of 
Nigeria to the impacted communities, and we hope to see efforts such as 
these receive the necessary authority, staff, and funding to carry out 
their mandates.

    Question. There have been reports over the years of Coptic 
Christian women and girls in Egypt being abducted and forced into 
marriage and to convert to Islam. The State Department has often 
neglected to give this issue sufficient attention in either the annual 
TIP report or the IRF report citing insufficient evidence. However 
multiple NGOs have documented the phenomenon. To what extent is this an 
issue that the Department is following? Has the Department, including 
embassy staff, received similar reports of this human rights abuse?

    Answer. We closely follow reports of violence against women and 
religious minorities--including reports of forced marriages and forced 
conversions--and we consistently call on the Egyptian authorities to 
investigate and prosecute these crimes. We continue to highlight that a 
failure to do so has created an environment of impunity that 
exacerbates sectarian tensions and gender inequality, which hinders a 
transition to real democracy.
    During the past 5 years, the Department has received several 
reports of Coptic Christian women and girls in Egypt being abducted and 
forced to convert to Islam. When such reports come to our attention, we 
take them very seriously and make efforts to determine the details with 
the NGOs that made the report, church and community leadership in 
Egypt, and the government as appropriate. The majority of these cases 
occur in parts of the country that are difficult to access and in which 
there is frequent conflict within and among the local communities. 
Despite our efforts, we have not often been able to document or 
independently verify reports of abduction, although we continue to 
pursue relevant information and to raise our concerns as appropriate. 
Nevertheless, we have included reports of cases of abduction and forced 
marriage and conversion in the 2011, 2012, and 2014 International 
Religious Freedom Reports, and the 2015 Report covered the case of a 
Coptic Christian man who was abducted and forced to convert to Islam.
    Coptic Christians face legal and social discrimination, and reports 
of violence against them often go uninvestigated and unprosecuted by 
Egyptian authorities. At the same time, Egyptian women and girls of any 
religion often face deep familial and societal pressures that limit 
their choice of whom and when to marry as well as violence in their 
homes, which may motivate them to run away or elope. As we reported in 
the 2012 International Religious Freedom Report, ``Families sometimes 
claimed kidnapping when women or girls ran away for reasons ranging 
from abuse to voluntary conversion or elopement.''
    Forced conversions and forced or coerced marriages constitute a 
serious human rights abuse, but the Department only includes such cases 
in the Trafficking in Persons (TIP) Report when they amount to human 
trafficking as defined by the Trafficking Victims Protection Act 
(TVPA). Human trafficking and forced marriage intersect when marriage 
is used in conjunction with force, fraud, coercion, or abuse of power 
and as a means to subject people--most often women--to conditions of 
servitude, often in the form of domestic and/or sexual servitude. The 
2016 TIP Report acknowledged the heightened vulnerability to 
trafficking faced by members of religious minorities around the world, 
stating ``traffickers have been known to target women and girls from 
religious minorities and force them into religious conversions and 
subsequent marriages, in which they may be subjected to domestic or 
sexual servitude.'' We have not, however, received reports of such 
cases in Egypt that meet the definition of trafficking outlined in the 
TVPA.
                                 ______
                                 

      Responses of Assistant Secretary Anne Richard to Questions 
                    Submitted by Senator Marco Rubio

    Question. The Washington Post recently ran a piece titled ``The 
story of a girl married at 11 tracks the horrors of Yemen's War,'' 
which recounted the plight of a young pre-teen ``married'' to a 25-year 
old man and her attempts to flee the forced union. Other recent new 
stories detailed horrific accounts of refugee girls living in Lebanon, 
Turkey and Jordan, some as young as eight being married off to help 
their desperate families. What sort of programming is the U.S. 
undertaking to confront this issue?

    Answer. We are facing the greatest displacement crisis in history 
and three-quarters of the displaced are women and children. We know 
that early marriage is a practice that can increase during times of 
conflict and displacement. To reduce instances of early marriage, the 
State Department takes a multi-faceted and comprehensive approach, 
including funding programs carried out by multilateral and non-
governmental organizations.
    First, we provide assistance to ensure that the basic needs of 
vulnerable people--such as shelter, food, clothing, water and 
sanitation, and healthcare--are met. This helps them survive and also 
reduces the risk of exploitation and violence. Ideally, we also provide 
opportunities for vulnerable individuals to gain skills or earn a 
living. If basic needs are met, families are less likely to turn to 
other coping mechanisms, including early marriage.
    Second, we try to dissuade families and communities from marrying 
daughters early through education, as well as through programs that 
seek to provide services and support to girls and their families and to 
engage the broader community. Engaging families and whole communities 
is the most sustainable approach. For example, the White House has 
announced a $1 million program to help prevent and respond to early 
marriage in the countries neighboring Syria. This program will increase 
awareness of the benefits of delaying marriage for both girls and their 
communities, counter the perception that early and forced marriage is a 
way to protect girls, and underscore the value of continuing access to 
education for adolescent girls. Services will also be available to 
married girls and we will support civil society organizations working 
to protect at-risk girls.
    Third, we require partner organizations to assess the gender 
dynamics that exist in the countries where they work. We also encourage 
them to consult affected populations when developing programs.
    Fourth, because many refugees in the Middle East do not reside in 
camps and face additional challenges in obtaining services in cities, 
we provide programs in camps as well as in cities, where more and more 
refugees choose to live. Services supported by the United States are 
grounded in the needs and realities of girls in the places where they 
live.
    Additional examples include the following:

  <bullet> In Lebanon, we funded a non-governmental organization to 
        identify local agencies that specialize in assisting women and 
        girl survivors of violence in the north and in Bekaa valley. 
        These agencies are conducting training for two clinics so they 
        can appropriately receive and manage gender-based violence 
        cases.
  <bullet> In Jordan we support the agencies conducting the ``Amani'' 
        campaign to raise awareness of issues around gender-based 
        violence and child protection, including early marriage. The 
        multi-year campaign has developed materials that help initiate 
        conversations about these issues in Jordan. We also support 
        training judges and police to prevent and respond to early 
        marriage.

    Question. Nine of the top 10 countries with the highest rates of 
early marriage are considered fragile states. Given that the new U.S. 
Global Strategy to Empower Adolescent Girls includes specific attention 
to both child marriage and adolescent girls displaced by conflict and 
disaster. How is PRM tracking and reporting on its commitments under 
the Strategy with regard to programs focused on combatting child 
marriage in fragile and conflict affected states?

    Answer. The Department of State's implementation plan for the U.S. 
Global Strategy to Empower Adolescent Girls Globally includes three 
specific objectives that the Department has prioritized, and addressing 
early and forced marriage is one of these. Enhancing and expanding 
comprehensive programs to empower adolescent girls and address the risk 
factors that are the drivers of early and forced marriage is one 
approach that we are adopting in pursuit of this objective, along with 
diplomacy, public engagement, coordination, and integrating a focus on 
girls throughout the Department's operating structure.
    Through the Department's Bureau of Population, Refugees, and 
Migration (PRM), funding and support is provided to international and 
NGO partners to respond to gender-based violence (GBV) among refugee 
and conflict-affected populations. With our continued support, these 
organizations are delivering urgently needed food, shelter, water, 
health care, education, protection, and other services to people 
affected by conflict. We encourage these partners to ensure that 
protection responses, including addressing early and forced marriage, 
are integrated into their programs particularly education, reproductive 
health, and psycho-social care.
    This assistance has advanced programming, research, and innovation 
aimed at increasing girls' access to education, training, and skills 
development as separate from boys recognizing that girls' developmental 
and social needs are different during adolescence. These programs, 
alongside those that engage parents and entire families help to reduce 
girls' exposure to violence and exploitation. They also help girls to 
become valued participants in their communities and contribute to long-
term development outcomes.
    PRM staff works closely with partners to ensure their programs meet 
existing standards such as the Inter-Agency Standing Committee 
Guidelines for Integrating Gender-Based Violence in Humanitarian Action 
and meets with partners regularly to get updates, problem-solve 
challenges that may come up in the field, as well as feed in real-time 
learning, so that the work we fund is contextual and culturally 
appropriate to the country and response.
    All of PRM's efforts are guided by and informed by the Strategy to 
Prevent and Respond to GBV Globally, the new U.S. Global Strategy to 
Empower Adolescent Girls and the National Action Plan on Women, Peace, 
and Security (NAP). Those strategies have existing monitoring and 
reporting requirements including indicators that PRM feeds into on a 
regular basis. We work consistently and closely with our interagency 
colleagues including USAID to ensure we are coordinated and continuing 
to make progress on our collective effort to advance U.S. government 
policies.

    Question. What concrete steps is State Department taking to 
disseminate the strategy to our embassies in fragile and conflict 
affected states to facilitate ownership of the strategy and build 
capacity for its implementation at the country level?

    Answer. Since the release of the strategy in March, the Secretary's 
Office of Global Women's Issues (S/GWI) has worked to develop toolkits 
for colleagues in embassies around the world that succinctly explain 
why the strategy was launched and what it intends to achieve, and 
outlines the specific outcomes that the State Department will pursue in 
its implementation of the strategy. Importantly, it also provides 
specific recommendations on the kinds of actions officers can take to 
advance State's implementation of the strategy and examples of what 
other embassies have done in this regard. These toolkits were recently 
soft launched to test their effectiveness.
    To distribute this toolkit more broadly, S/GWI has prepared a cable 
that will go out to all embassies that will introduce the U.S. Global 
Strategy to Empower Adolescent Girls to a broader audience, explain how 
it intersects with our other gender strategies, and outline reporting 
expectations. This cable will request the designation of strategy leads 
at each post to facilitate communication and create a network of 
Department staff working across sectors.
    S/GWI is also working to assemble existing tools and resources 
online for overseas diplomats and officers across the Department to 
highlight and address the challenges facing adolescent girls. In 
addition to the toolkits mentioned previously, these includes one 
pagers with talking points and key statistics for use in op-eds and 
speeches, and a collection of research and resources related to 
adolescent girls empowerment.
    In Washington we are integrating discussion of adolescent girls 
into ongoing gender working groups that will feed into the interagency 
working group outlined into the strategy. We have also begun to hold 
meetings with regional and functional bureaus to explain intent of the 
strategy, discuss how it is relevant to their work, and explore 
specific entry points for increased efforts to empower adolescent 
girls.
    The strategy complements the NAP, which charts the course that the 
Department, USAID, and Department of Defense take to support women and 
girls' protection and empowerment in countries affected by war, 
violence, and insecurity. Together, these documents represent a 
fundamental shift in how we address conflict prevention and response. 
Of central importance to adolescent girls in crisis and conflict 
settings, the NAP outlines actions that increase women and girls' 
access to health, education, and economic opportunities.
    The Department educates diplomatic personnel on these strategies 
and other gender policies through a devoted online and in-person course 
on gender equality and foreign policy at the Foreign Service Institute. 
In addition, the Department has created toolkits for diplomats 
deploying to U.S. missions around the world on its gender priorities, 
including on adolescent girls and women, peace, and security. Annual 
reporting on efforts to advance women and girls' empowerment through 
the NAP is an additional vehicle through which the Department has 
socialized gender policies with U.S. in conflict-affected regions while 
also soliciting input on lessons learned, best practices, achievements, 
and challenges associated with engaging women and girls in conflict 
affected regions. PRM is also sharing the strategy and ensuring field 
staff and partners are familiar with it through orientations, regular 
communications, and proposal review processes.

    Question. What diplomatic efforts is State Department taking to 
encourage international counterparts to prioritize combatting child, 
early and forced marriage within their own foreign policy, and in what 
ways are you coordinating with other donors on policy and programmatic 
efforts in fragile and conflict affected states where child marriage 
rates are high?

    Answer. The United States is an active proponent at United Nations 
and in other multilateral fora for resolutions condemning child, early 
and forced marriage and calling on other states and stakeholders to end 
this practice. As the lead for this issue, the S/GWI along with other 
department officials also raise the issue of early and forced marriage, 
as appropriate in meetings with government officials and in bilateral 
strategic dialogues.
    PRM supports efforts to prevent and respond to early and forced 
marriage through assistance and diplomatic efforts. This includes 
bilateral conversations with other donors to share lessons, provide 
technical insight, and encourage them to adopt similar strategies that 
have proven to elevate and guide the U.S. government approach to women 
and girls. For example, PRM recently shared information with a group of 
European donors about our funding mechanisms and programs to engage men 
and boys in responding to GBV. We will continue these efforts with 
other donors, including those from the Global South, to emphasize our 
work, promote best practices, and encourage them to adopt similar 
policies like the U.S. Global Strategy to Empower Adolescent Girls to 
advance our collective effort around these issues.
    We also continue to engage in robust humanitarian diplomacy to:

  <bullet> Encourage more partners to join the Call to Action on 
        Protection from Gender-based Violence in Emergencies (Call to 
        Action) and make commitments in order to expand international 
        coordination;
  <bullet> Promote policies and programs that support access to and 
        provision of sexual and reproductive health services for 
        crisis-affected individuals;
  <bullet> Prioritize child protection, education, and youth engagement 
        in humanitarian emergencies;
  <bullet> Develop policies to better address the unique needs of 
        displaced women, children, and other at-risk populations 
        whether in or out of camps; and
  <bullet> Integrate the promotion of gender equality into the full 
        range of humanitarian partners and donor planning and 
        activities.

    Question. To what extent are you talking with our European allies 
as it relates to the incidence of child marriage among the refugee 
populations entering the continent? How are these governments 
responding to this emerging challenge?

    Answer. In 2013, the United Kingdom's Department for International 
Development (DFID) launched the Call to Action to mobilize donors, U.N. 
agencies, NGOs, and other stakeholders to protect women and girls in 
humanitarian emergencies. The Call to Action culminated in a high-level 
event, co-hosted by the U.K. and Sweden on November 13, 2013. That 
event produced a ground-breaking communique, in which donors and 
humanitarian agencies signed and committed to preventing violence 
against women and girls from the start of humanitarian emergencies.
    The Call to Action is an important framework to help coordinate 
efforts with other donors, affected countries, and non-government 
stakeholders to maximize our impact and change the nature of how we 
respond to GBV in humanitarian crisis. From 2014-2015, the United 
States assumed leadership of the Call to Action. Secretary Kerry hosted 
follow-on Call to Action events on September 22, 2014, and October 1, 
2015, in New York during the U.N. General Assembly. The October 2015 
event included the unveiling of the Call to Action Road Map which was 
developed under United States guidance and handover of Call to Action 
leadership to Sweden.
    The United States remains actively involved in the Call to Action, 
now led by Sweden, including by encouraging States and other 
organizations that did not sign the communique to join the initiative. 
We are working hard to bring more partners, particularly governments, 
on board not only to join the Call to Action but also to make 
commitments in line with the Road Map in order to expand international 
coordination and prioritization of violence against women and girls. In 
the last month, we have reached out to six governments to join the Call 
to Action in advance of the U.N. General Assembly. We also continue 
regular calls with the States and Donors working group to coordinate 
closely with other governments and donors on this issue of GBV in 
emergencies. This includes partners like the U.K. Department for 
International Development, the Swedish International Development 
Cooperation Agency, Irish Aid, European Community Humanitarian Office, 
Swiss Agency for Development and Cooperation, among others.
    Through ongoing conversations we aim to show European governments 
what has worked well, share lessons, and learn more about how to better 
address this issue. To date, the Call to Action is an important 
framework to help coordinate efforts with other donors, affected 
countries, and non-government stakeholders to maximize our impact and 
change the nature of how we respond to GBV in humanitarian crises, 
including those targeted towards girls and early and forced marriage. 
However, this is not the only forum that is used to influence other 
governments and track their responses to important issues like early 
and forced marriage. As an example, PRM and USAID/OFDA recently held a 
call with the European Commission on United States government 
programming to engage men and boys in the prevention of gender-based 
violence, including early and forced marriage, and address the issues 
boys face when they are survivors of sexual violence. In that call, the 
United States government shared best practices to date including 
learning and areas for programs to be taken to scale.
                                 ______
                                 

  Responses of Assistant Secretary Anne Richard and Ambassador Cathy 
      Russell to Questions Submitted by Senator Benjamin L. Cardin

    Question. When crisis strikes, refugee and internally displaced 
girls are the first to become ``invisible''--kept at home to manage 
more adult responsibilities or for their own protection. Lacking 
skills, information, and resources these girls are vulnerable to a 
multitude of risks, not limited to exploitation and child marriage. 
Because they are not ``seen'' or counted immediately following 
displacement, emergency programming does not adequately address their 
needs or concerns. The U.S. Global Strategy to Empower Adolescent Girls 
makes no explicit commitment to gather data, disaggregated by age and 
sex, to capture the full scope of the problem as it relates to 
displaced adolescent girls. I am concerned that because girls are 
``invisible'' during emergencies and that without timely and accurate 
data, girls will be ``lost.''

  <bullet> What steps are the Department of State and USAID taking to 
        assess the number and needs of displaced girls and adolescents? 
        Recognizing gathering data in an emergency is difficult, what 
        steps are being taken to ensure that State and USAID, as the 
        largest global donors to emergency, are setting high standards 
        for ensuring emergency assessments include disaggregated data 
        by age and sex?
  <bullet> Will this information be available publicly? Is there a 
        timeline (for example, within 30 days of a disaster 
        declaration) for when this disaggregated data can be collected? 
        If not, why not?
  <bullet> What efforts have the Bureau of Population Refugee and 
        Migration taken to encourage the U.N., especially UNHCR, as 
        well as other implementing partners to ensure this information 
        is being gathered and shared?

    Answer. The United States government provides support to 
international and NGO partners to respond to gender-based violence 
(GBV), including early and forced marriage of girls, and violence 
against children among refugee, natural disaster, and conflict-affected 
populations through GBV and child protection programs. With our 
continued support, these organizations are delivering urgently needed 
food, shelter, water, health care, education, protection, and other 
services to people affected by displacement. We encourage all partners 
to ensure that protection responses, including those which address 
early and forced marriage, are integrated into their programs 
particularly education, reproductive health, and psycho-social care. We 
do this in the following ways:

  <bullet> The Bureau of Population, Refugees, and Migration (PRM) and 
        USAID's Office of Foreign Disaster Assistance (USAID/OFDA) 
        require NGO partners to submit a gender analysis in program 
        applications submitted for funding.
  <bullet> PRM and USAID/OFDA ensure proposals and reporting submitted 
        with a gender component or gender-related indicators are 
        reviewed and evaluated by a Gender/GBV and/or Protection 
        expert.
  <bullet> USAID/OFDA subsequently requires that every proposal 
        submitted for funding has integrated and mainstreamed 
        protection across all of its proposed sectors to demonstrate 
        how their activities will address and mitigate risks, such as 
        those particularly faced by women and girls in crisis.
  <bullet> PRM and USAID/OFDA require NGO partners to submit quarterly 
        reports in line with their program design.
  <bullet> PRM and USAID/OFDA regularly monitor protection and gender 
        mainstreaming, GBV, and child protection programs through site 
        visits, phone calls, meetings, briefings, etc.
  <bullet> PRM encourages partners to provide gender and age 
        disaggregated data in their proposals for relevant and 
        appropriate indicators, as well as in their quarterly 
        reporting.
  <bullet> USAID/OFDA is also working with partners to develop tools to 
        better address the unique needs of adolescent girls in 
        emergencies, including mapping existing services, adapting 
        design and implementation of programming that addresses 
        critical needs across sectors for adolescents, particularly 
        adolescent girls.

    PRM and OFDA work closely with partners to ensure their programs 
meet existing standards such as the Inter-Agency Standing Committee 
Guidelines for Integrating Gender-Based Violence in Humanitarian Action 
(IASC GBV Guidelines) and meet with partners regularly to get updates, 
problem-solve challenges that may come up in the field, as well as feed 
in real-time learning, so that the work we fund is contextual and 
culturally appropriate to the country and response. At every stage, the 
United States government advocates and asks questions about sex-
disaggregated data and adherence to the IASC GBV Guidelines, which 
provides guidance as well as gender and GBV-specific indicators that 
can be incorporated into program design to address many of these risks. 
As per the IASC GBV Guidelines, United States government staff is 
trained and integrate into their monitoring of international and NGO 
partners the following considerations:

  <bullet> GBV prevention and response is a priority, as we know that 
        life-saving interventions should be included in the earliest 
        stages of any emergency.
  <bullet> Assessments should always build upon and never duplicate 
        existing data or information that is already available.
  <bullet> Assessments should be done at the outset of program planning 
        and at regular intervals for monitoring and evaluation 
        purposes. However, while the provision of data is critical in 
        informing programming, we should never use the absence of 
        ``data'' as an excuse for not prioritizing GBV response 
        activities at the earliest stages of an emergency.
  <bullet> All assessments, including those that focus on issues that 
        extend beyond GBV, should be done according to ethical and 
        safety standards, in a participatory nature, and never put the 
        beneficiaries at risk.
  <bullet> GBV Assessments should be undertaken to generate sex-
        disaggregated data and information that highlights the gaps and 
        needs of women and girls as well to inform new programming.

    The Department of State has a close relationship with the United 
National High Commissioner for Refugees (UNHCR), who receives funding 
to institutionalize and prioritize GBV from the outset of every 
emergency under Safe from the Start. The Department regularly 
encourages and supports UNHCR efforts to undertake safe and ethical 
emergency assessments in new and protracted conflicts. UNHCR, as part 
of the global task team, is also supporting the rollout and 
implementation of the GBV Information Management System (more 
information here: http://www.gbvims.com/). This system is the standard 
for collecting ethical GBV information in emergency contexts and has 
procedures for compiling and sharing that data with relevant 
stakeholders early in an emergency.
    All of the U.S. government's efforts are guided by and informed by 
the Strategy to Prevent and Respond to GBV Globally, the new U.S. 
Global Strategy to Empower Adolescent Girls and the National Action 
Plan on Women, Peace, and Security. These strategies have existing 
monitoring and reporting requirements including indicators that PRM 
feeds into on a regular basis. We work consistently and closely with 
our interagency colleagues inside the Department of State and USAID to 
ensure we are coordinated and continuing to make progress on our 
collective efforts to advance U.S. government policies. This includes 
assessing and responding to the needs of displaced women and girls.

    Question. Launched 3 years ago, the United States leadership on 
Safe from the Start is now losing momentum. One objective of Safe from 
the Start was to increase accountability within the international 
humanitarian architecture by prioritizing gender-based violence 
prevention. NGOs are required on the front end to conduct a gender 
analysis as part of their proposals. Why are NGOs not required to 
routinely report on GBV issues, such as in their quarterly reporting 
mechanism, during program implementation to ensure accountability in 
addressing GBV?
    Answer. Despite significant focus, attention, and investment in 
these issues over the last decade, gaps still remain in preventing and 
responding to GBV, particularly during the earliest, and often most 
critical, stages of an emergency. Recognizing these challenges, the 
Department of State Bureau of Population, Refugees, and Migration 
(PRM), together with USAID's Office of Foreign Disaster Assistance 
(USAID/OFDA) developed a framework for action in the spring of 2013 to 
analyze these challenges, identify solutions, and mobilize the 
humanitarian community to take concrete action to address GBV more 
effectively in emergencies. As a result of this framework, Secretary 
Kerry launched Safe from the Start in September 2013. Safe from the 
Start is a U.S. government initiative to build the capacity of the 
humanitarian system to reduce risk of GBV and ensure quality services 
for survivors through timely and effective humanitarian action, and 
hold the humanitarian community accountable to a higher standard of 
addressing the risks faced by women and girls consistently in 
emergencies. It seeks to transform the international system for 
humanitarian response so that the needs of women, girls, and others 
affected by GBV are a priority in emergencies. We do not believe that 
Safe from the Start is losing momentum; we actually believe significant 
strides have been made. The initiative has made important inroads in 
changing the way that humanitarian partners implement programming to 
ensure that GBV is prioritized in humanitarian emergencies. The impacts 
of these investments need to be assessed over time, given that these 
activities aim to help build the capacity of the system to change the 
way in which organizations respond--this does not occur overnight and 
is quite different from assessing the impact of a typical emergency 
response where one typically sees the impact more immediately.
    Approximately $55 million is being channeled by the U.S. government 
through this initiative since 2013 to build and strengthen the core 
capacity of humanitarian partners to address GBV from the earliest 
phases of an emergency. Given the focus on capacity building, 
institutionalization, and integration of GBV prevention and response 
into other programs efforts, it is too early to assess or evaluate the 
full impact of Safe from the Start. The United States government is 
currently preparing plans to evaluate Safe from the Start programs to 
date. This evaluation would assess what has worked, what has not 
worked, and what needs to be improved moving forward. We know from 
anecdotal information and program reports that there have been many 
successes under Safe from the Start, including the deployment of 
experts on protection and GBV at the onset of emergencies and the 
provision of core services to respond to the needs of survivors.
    In an effort to realize the objectives of Safe from the Start, 
USAID/OFDA is supporting the Real-Time Accountability Partnership 
(RTAP), a joint project between OFDA, UNHCR, UNICEF, UNFPA, OCHA, and 
the International Rescue Committee. The RTAP is a global, multi-agency 
initiative that aims to harness the collective power of the 
humanitarian community to ensure that all individuals, particularly 
women and girls, are free from the threat of GBV. Specifically, the 
RTAP's goal is that all actors prioritize and coordinate GBV response 
services and integrate GBV prevention across sectors from the outset of 
an emergency.
    In addition to Safe from the Start, we also continue to engage in 
robust humanitarian diplomacy to:

  <bullet> Promote policies and programs that support access to and 
        provision of sexual and reproductive health services for 
        crisis-affected individuals;
  <bullet> Prioritize child protection, education, and youth engagement 
        in humanitarian emergencies;
  <bullet> Develop policies to better address the unique needs of 
        displaced women, children, and other at-risk populations 
        whether in or out of camps; and
  <bullet> Integrate the promotion of gender equality into the full 
        range of humanitarian partners and donor planning and 
        activities.

    All of these efforts are to increase accountability and improve 
life-saving GBV responses in acute emergencies. The Call to Action is 
an important framework to help coordinate efforts with other donors, 
affected countries, and non-government stakeholders to maximize our 
impact and change the nature of how we respond to GBV in humanitarian 
crises, including those targeted towards girls and early and forced 
marriage. From 2014-2015, the United States assumed leadership of the 
Call to Action. The United States remains actively involved in the Call 
to Action including by encouraging States and other organizations that 
did not sign the communique to join the initiative and make commitments 
in line with the Call to Action Road Map.
    We are also working hard to encourage more partners, particularly 
governments, to join the Call to Action on Protection from Gender-based 
Violence in Emergencies and make commitments in order to expand 
international coordination and prioritization of violence against women 
and girls. In the last month, we have reached out to six governments to 
join the Call to Action in advance of the U.N. General Assembly.
    On a programmatic level, PRM requires that all partners who receive 
funding submit detailed quarterly reports on their activities, which 
are closely reviewed. Reports are required to include information about 
accountability to affected populations and explain how beneficiaries 
have been involved in program implementation and how their feedback has 
been incorporated into performance monitoring and program improvement. 
At PRM, accountability of affected populations is closely tied to our 
work around gender and GBV mainstreaming and promoted within all of the 
programs and sectors that receive financial support.

    Question. Every day, 39,000 girls under the age of 18 become child 
brides. In the midst of emergencies, including war and natural 
disasters, adolescent girls have a unique set of vulnerabilities: their 
age and gender makes them more vulnerable to sexual violence and they 
lack critical information and skills to help them make informed 
decisions. When traditional protection mechanisms erode during times of 
crisis, families marry girls off in order to protect them, viewing 
marriage as an alternate protection mechanism and even seeing early 
marriage as an opportunity for girls to have a better life.

  <bullet> What specific actions are the State Department and USAID 
        taking to address the unique vulnerabilities of refugee and IDP 
        girls and adolescents, especially as they relate to early 
        marriage? Please provide specific, concrete, tangible actions.
    Answer: The United States government takes a holistic approach to 
ending early and forced marriage. We know that the vulnerabilities of 
refugee and displaced girls are exacerbated in times of crisis. This 
means that the already ingrained social norms that discriminate against 
women and girls become compounded with the loss protection mechanisms, 
support, and services that individuals and families may have received 
pre-displacement. The United States government aims to not only address 
the exacerbating factors that perpetuate early and forced marriage in 
displacement but also the underlying root causes. We believe that 
addressing such issues as discrimination and oppression of women and 
girls can change social dynamics that fuel early and forced marriage 
and give the communities' opportunity to transform harmful norms so 
that countries are more likely to transition into stability and peace. 
We have seen time and again, that women and girls may be able to 
express themselves and make decisions in displacement in ways that they 
never could before. In situations where men are no longer seen as the 
only head-of-household, women and girls may have opportunity to speak, 
earn a livelihood, and go to school. The United States government 
believes that these are opportunities we should build upon to 
encourage, support, and educate women and girls as well as their 
communities which may have otherwise not been possible.
    To address early and forced marriage, the United States government 
delivers integrated programs in refugee and displaced contexts around 
the world. We believe that addressing this complex and serious problem 
requires a multi-faceted response and a comprehensive approach. This is 
why we work to end this practice through education, and programs to 
combat gender-based violence, improve sexual and reproductive health 
and rights, increase livelihoods, and encourage other types of 
protection such as child protection. These programs aim to provide 
services and support to girls who have experienced all types of 
violence. They also work to engage parents, caregivers, and community 
leaders in order to address the norms that both cause and perpetuate 
early and forced marriage.
    The Department has a number of programs in place to address child 
marriage in conflict affected and fragile states. For example:

  <bullet> In November 2015, the White House announced that the 
        Department would undertake a new $1,000,000 effort in one or 
        more of Syria's neighboring countries impacted by the Syrian 
        refugee crisis to help prevent and respond to early and forced 
        marriage. Activities will focus on increasing awareness of the 
        benefits of delaying marriage for both girls and their 
        communities, countering the perception that early and forced 
        marriage is a way to protect girls, and underscoring the value 
        of continuing access to education for adolescent girls. Efforts 
        will also aim to reach already married girls with services and 
        to support civil society organizations working to protect at-
        risk girls.
  <bullet> In March 2016, Secretary Kerry announced $7 million in 
        programming to empower adolescent girls in Afghanistan, where 
        the Department of State will fund efforts to change perceptions 
        about child marriage at the district and community level 
        through grants for girls to go to school and counseling, 
        networks for girls, and training on life and vocational skills.

    The United States government gives funding to multilateral and NGO 
partners to implement life-saving and critical programs for adolescent 
girls. We require partners to assess the gender dynamics that exist in 
any country in which they are proposing programs. We also encourage 
them to take specific and targeted approaches to working with women, 
men, boys, and girls. We know that adolescent girls face unique 
problems and have needs that are specific to them in crisis and 
conflict. We must ensure that they do not slip through the cracks but 
that we focus our efforts on protecting and empowering them. This is 
why Secretary Kerry launched Safe from the Start in September 2013.
    This initiative as well as other United States government 
assistance has supported programming, research, and innovation aimed at 
increasing girls' access to education, training, and skills development 
as separate from boys, recognizing that girls' developmental and social 
needs are different during adolescence. These programs, alongside those 
that engage parents and entire families, help to reduce girls' exposure 
to violence and exploitation. They also help girls to become valued 
participants in their communities and contribute to long-term 
development outcomes.
    Other specialized programs aimed at preventing and responding to 
violence that are supported by the United State government, include:

  <bullet> Medical care and counseling services for GBV survivors,
  <bullet> Child protection case management support for vulnerable 
        children and their families,
  <bullet> Safe learning and healing spaces for children, particularly 
        girls, and
  <bullet> Awareness-raising and programs that transform the behaviors 
        which support early and forced marriage, as well as human 
        trafficking, child labor, and a wide range of gender-based 
        violence so that refugees understand their rights and the 
        resources available to them.

    For instance, PRM and USAID/OFDA protection partners identified 
early and forced marriage as a critical issue facing Syrian and Iraqi 
adolescent girls and are addressing it through nuanced and targeted 
age-appropriate child protection interventions focusing on access to 
informal education, psychosocial support, and building life and 
resiliency skills.
    Additionally, we support host governments and U.N. agencies to 
increase their capacity to provide services and addresses these issues. 
In Jordan, we support the Family Protection Department, affiliated with 
the Jordanian Public Security Department, to strengthen its capacity to 
address GBV and provide psychosocial support services in the northern 
part of the country. In Iraq, UNHCR works through its partners to raise 
awareness of GBV in the refugee and displaced populations, establish 
women's centers in camps, and carry out training on GBV core concepts 
and case management. Several PRM partners also work to develop referral 
pathways among local relief agencies, as well as encourage higher 
enrollment of girls in formal education programs.

    Question. The reasons behind child marriage vary from context to 
context: In some places, young girls may be married early to protect 
them from exploitation, whereas in other contexts, young girls may be 
married to bring their families a dowry. To eradicate the practice of 
child marriage, it is critical that donors and implementers understand 
the community and family dynamics that drive families to marry their 
girls at a young age.

  <bullet> In protracted emergencies like Syria, has the State 
        Department and USAID analyzed the specific drivers of why girls 
        are married at a young age, and what specific interventions 
        would be most useful to prevent child marriages in different 
        context? What are those interventions?
  <bullet> What actions are USAID and the State Department taking to 
        elevate girls as a vulnerable group and prioritize them so 
        their voices are considered and incorporated into both 
        emergency and non-emergency programming?
    Answer. We are facing the greatest refugee and displacement crisis 
since World War II. This demands a proactive policy and programmatic 
approach that addresses the significant needs of women and girls around 
the world. We know that countries where rights are respected, where 
opportunity abounds, where women and girls have the same opportunities 
as men and boys, are safer, more prosperous, and more secure. 
Therefore, we must include specific perspectives of women and girls in 
our planning, in our bilateral and multilateral discussions, and our 
programming so that we see a reduction in violence against women and 
girls and an increase in access to education, livelihoods, health, 
psycho-social and other services.
    With over 70 percent of those affected by conflict being women and 
children and the average refugee being displaced nearly two decades, we 
must rise to the challenge of developing unique solutions that respond 
to the long-term needs of these communities. This means increasing 
programming as well as research that build an evidence base for what 
works in crisis contexts. While much has been done to understand the 
issues linked to early and forced marriage by numerous research 
organizations, humanitarian organizations, and coalitions, more needs 
to be done to test and prove the impact of humanitarian services and 
programs in order to advance our collective efforts. Programming to 
address violence against women and girls is still very new in the 
humanitarian arena compared to other sectors and we admittedly need to 
continue our collective work until this field is as advanced and 
sophisticated as other sectors such as health, nutrition, and hygiene.
    At the same time, we know from practice and years of programming in 
this field both in the U.S. and abroad that integrated programming that 
engages families and whole communities is the most sustainable 
approach. We must ensure that girls are part of the larger change in 
their communities in order to transform their futures and increase 
their opportunities. We support the approach of working ``with girls'' 
instead of for them given what we know about their resilience, power, 
and potential. We must rewrite the narrative that portrays girls as 
victims by allowing them a leadership role as we create and implement 
programs. This will allow girls to be empowered and become future 
leaders of the communities where they live.
    In displacement, we believe that early and forced marriage is 
perpetuated not only by a crisis, natural disaster, or the risk 
associated with conflict but the underlying inequalities that exist 
around the world. In many societies, women and girls are seen as 
second-class citizens and discriminated against from an early age. 
Therefore, any program working to address violence that girls 
experience must take this reality into account.
    Whether within Syria, Iraq, or in a refugee hosting country, the 
U.S. government works closely with multilateral partners like the U.N., 
national and international non-governmental organizations, other 
donors, and government actors to identify the concerns of girls and 
deliver a coordinated response to the complex humanitarian needs of all 
women and girls. Many Syrian refugees do not reside in camps and face 
additional challenges in obtaining services in urban areas. In Lebanon, 
we are funding a non-governmental organization to map local agencies 
that specialize in assisting women and girl survivors of violence in 
the north and Bekaa valley and who are conducting intensive GBV 
capacity development training for two clinics so they can appropriately 
receive and manage GBV cases.
    The United States government supports programs around the world 
that address early and forced marriage. These programs take a 
comprehensive approach to addressing deep seated discrimination and 
oppression of girls as well as the immediate risks that they might face 
in displacement. Partners, funded by the U.S. government, typically 
undertake quick, emergency assessments to understand the specific 
dynamics in a particular community. From there, they set up services 
that include child-friendly spaces, case management, psycho-social 
support, education, health and reproductive health, and legal 
assistance. After the immediate days of a conflict or crisis, these 
organizations also work to implement long-term behavior change and 
prevention programs that engage men, boys, and whole communities to 
change the underlying gender inequalities that perpetuate and condone 
early and forced marriage.
    In addition to emergency assessments, the United States government 
supports UNHCR's community-based approach which is ``a way of working 
in partnership with persons of concern during all stages''. This 
approach pushes the humanitarian community and U.S. government partners 
to understand and consider the context, including the gender dynamics, 
of any community before responding and recognizes that more effective 
and sustainable outcomes are those that come from community 
consultations.
    The United States, through PRM, supported the Women's Refugee 
Commission and UNHCR-led Global Youth Consultations (GYRC) that 
occurred in 2015 and 2016. The GRYC provided an opportunity for refugee 
youth to discuss issues that affect them with host country youth and 
representatives from the United Nations, NGOs, and government 
officials. The refugee youth themselves, many of which were young 
women, were able to fully participate in the processes leading up to 
the Consultations and to inform and shape the dialogue and outcomes. 
The GRYC placed youth at the center of participation and decision 
making processes that affect them and recognized their potential. This 
project ended with a Stakeholder Dialogue in Geneva in June where youth 
from various national consultations presented outcomes and 
recommendations in the form of the Core Action for Refugee Youth to key 
international agencies, organizations, and governments. We are 
currently looking at ways in which we can further support and amplify 
these core actions into our policies and programming.

    Question. We know that the escalation of the armed conflict in 
Yemen has catapulted women and girls there into a humanitarian 
catastrophe. Given the unique impact of conflict on women and girls, 
what is the administration doing to ensure that the U.N. deploys a 
gender advisor in Yemen so that a gender analysis is conducted at all 
stages of the crisis?

    Answer. We remain deeply concerned about the humanitarian situation 
in Yemen. The United States is committed to helping the millions of 
men, women, and children who continue to suffer in Yemen and across the 
region because of this crisis. Since FY 2015, the U.S. government has 
provided more than $500 million in humanitarian aid for Yemen and for 
those in the region affected by the current crisis there. This aid has 
included the provision of food, water, health care, shelter, and other 
emergency relief.
    The United States government takes protection issues very seriously 
and is a leading advocate for women and girls worldwide through Safe 
from the Start. We provide support to a variety of humanitarian 
agencies that provide protection services in Yemen, including the 
Office of the U.N. High Commissioner for Refugees (UNHCR), which is the 
protection cluster lead, as well as IOM, UNICEF, and INGOs. Recently, 
an individual was temporarily deployed to act as a senior interagency 
resource and to take on the role of interim protection cluster 
coordinator. The coordinator looked at the national responses to, in 
particular, IDP situations of concern, including gender issues. The 
United States also supports OCHA's Gender Capacity (GenCap) and 
Protection Capacity (ProCap) rosters. At the request of OCHA, GenCap 
deployed a senior gender advisor in January of this year to support the 
humanitarian response in Yemen for a 4-month period, including ensuring 
a gender analysis was incorporated into the development of the 2016 
Humanitarian Response Plan.
    Expatriate deployments to Yemen are generally quite difficult due 
to visa restrictions for individuals of certain nationalities, security 
concerns, and other issues, but we continue to reinforce to the U.N. 
the importance of these deployments. The U.N. remains committed to 
ensuring it has both adequate quantity and quality of staff working in 
Yemen, in particular people who have experience working in other Level 
Three emergencies. We continue to encourage the U.N., particularly 
UNHCR as the protection cluster lead and the U.N. Special Envoy as lead 
on peace negotiations, to integrate women's voices and a gender 
perspective into conflict resolution and security deliberations while 
committing staff and specialized training to this end, including gender 
advisors. We also continue to encourage and support programs like the 
one U.N. Women sponsored earlier this year. The organization brought 
seven Yemeni women to Kuwait from May 7-10 to meet with both 
negotiating delegations and diplomats working on finding a solution to 
the conflict in Yemen. U.S. Ambassador to Yemen Matthew Tueller met 
with these women bilaterally and heard their suggestions on increasing 
women's participation.
    U.S. engagement also includes encouraging UNHCR to attract and 
train an adequate number of fully-trained staff to serve as cluster 
coordinators worldwide, but particularly in Yemen. We also continue to 
urge the U.N. to deploy adequate staff with gender expertise, to 
regularly consult with Yemeni women leaders to ensure women's 
perspectives are part of decision-making in all phases of the conflict 
and during the rebuilding period, and to impress upon U.N. agencies the 
importance of mainstreaming gender in the humanitarian response.

                                  [all]
</pre></body></html>
